<html>
<title> - SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 108-73]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-73
 
            SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2003

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 27, 2003--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-629 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
    
                James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
             Terrence E. Sauvain, Minority Staff Director





                           C O N T E N T S

                              ----------                              

                    DEPARTMENT OF HOMELAND SECURITY

                                                                   Page

Statement of Hon. Tom Ridge, Secretary...........................     1
Opening Statement of Chairman Ted Stevens........................     1
Prepared Statement of Senator Robert C. Byrd.....................     1
Prepared Statement of Senator Daniel K. Inouye...................     2
Prepared Statement of Senator Mary L. Landrieu...................     2
Statement of Secretary Tom Ridge.................................     4
Wartime Supplemental Request.....................................     5
Office for Domestic Preparedness.................................     5
Counterterrorism Fund............................................     6
Prepared Statement of Secretary Tom Ridge........................     7
Introduction.....................................................     7
Wartime Supplemental Budget Request for Fiscal Year 2003.........     7
Office for Domestic Preparedness.................................     7
Counterterrorism Fund............................................     8
First Responder Funding..........................................     9
Expediting First Responder Funding...............................    10
Delays in Requesting Funds.......................................    11
Delays in Getting Funding Out....................................    11
Nuclear Security.................................................    12
Transportation Security Administration (TSA) and Coast Guard.....    12
Federal Energy Management Agency (FEMA)..........................    13
Grant Formulas...................................................    14
Port Security Assessments........................................    14
Intelligence Analysis............................................    15
Foreign Intelligence Surveillance Act............................    17
Port Security....................................................    17
Switch Panels to Department of Defense...........................    18

                         DEPARTMENT OF DEFENSE

Statement of Hon. Donald H. Rumsfeld, Secretary of Defense.......    21
Dov S. Zakheim, Under Secretary of Defense, Comptroller..........    21
Paul Wolfowitz, Deputy Secretary of Defense......................    21
Financing the Costs of the War...................................    22
Relief and Reconstruction........................................    23
Flexibility Needed...............................................    24
Comparing Costs..................................................    24
Prepared Statement of Secretary Donald H. Rumsfeld...............    25
Statement of General Richard B. Myers, Chairman, Joint Chiefs of 
  Staff..........................................................    27
Phases of the War in Iraq........................................    29
How Much of Request Needs Flexibility............................    30
Congress' Budget Role............................................    31
Budget Flexibility...............................................    31
Timing of Supplemental Passage...................................    33
How Funds Will be Disbursed to Services..........................    34
Direct Appropriation for Costs Already Incurred..................    34
International Sources of Funds...................................    36
Overcommitted Manpower...........................................    37
Will More Funding Be Needed?.....................................    39
How Aid is Being Provided........................................    39
Humanitarian or Reconstruction Aid for Afghanistan...............    40
What Budget Flexibility is Needed................................    40
Time Frame of Supplemental Request...............................    41
Reconstruction Responsibilities..................................    41
Cease Fire Initiative............................................    42
Helping Military Families and Mobilized Reservists...............    42
Military Construction in the Supplemental........................    44
Foreign Bases....................................................    45
Responsibility for Reconstructing Iraq...........................    45
New Health Care Technologies.....................................    46
Clarification of Iraq Cease Fire Answer..........................    49
What Will Happen in Baghdad......................................    49
Iraqi Republican Guard Forces....................................    50
Iraq Relief Operations...........................................    51
International Contributions......................................    51
How Costs Were Estimated.........................................    53
Timing of Supplemental Request...................................    54
Iraq Reconstruction..............................................    55
Special Military Pays............................................    56
Funding for War on Terrorism.....................................    57
Assistance for Turkey............................................    58
Secretary Wolfowitz's Earlier Views on Iraq......................    58
Helping Families in Distress.....................................    60
Military Casualty Notification Process for Members of Congress...    60
Notification of the Next of Kin (NOK)............................    61

                DEPARTMENT OF HOMELAND SECURITY--RESUMED

Fiscal Year 2003 and War Supplemental Funding....................    65
Expediting First Responder Funding...............................    66
Vulnerabilities..................................................    67
Protecting Privacy and Civil Liberties...........................    67
Privacy Officer..................................................    68
Timing of Supplemental Request...................................    68
Need for Supplemental Request....................................    69
Request for DOD..................................................    70
Department of Homeland Security (DHS) Request....................    71
Spending Authorities.............................................    72
Need for Spending Flexibility....................................    72
Preparing for Markup.............................................    73
Specifics of Supplemental Request................................    73
Details of the Request...........................................    75
First Responder Funding..........................................    76
First Responder Funding Aggregate................................    77
Grant Formulas...................................................    78
Small State Minimums.............................................    79
Additional Committee Questions...................................    80
Questions Submitted to Hon. Tom Ridge............................    80
Questions Submitted by Senator Thad Cochran......................    80
Counterterrorism Fund............................................    80
General Questions................................................    81
Secret Service...................................................    82
Federal Law Enforcement Training Center..........................    82
United States Coast Guard........................................    82
Transportation Security Administration...........................    84
Emergency Preparedness and Response..............................    85
Question Submitted by Senator Kay Bailey Hutchison...............    85
Question Submitted by Senator Robert C. Byrd.....................    86
Vulnerabilities..................................................    86
Question Submitted by Senator Tom Harkin.........................    87
Questions Submitted by Senator Patty Murray......................    88
Inadequacy of $1.5 Billion Request for DHS Counterterrorism 
  Fund--Congressional Earmarks for Other Purposes................    88
Details of the $1.5 Billion Request for the Counterterrorism Fund    89
24-Hour Manifest Rule--Lack of Action by Canada or Mexico........    89
Questions Submitted by Senator Mary L. Landrieu..................    90
Coast Guard Fuel Shortages.......................................    90
First Responder Funding..........................................    90
District of Columbia.............................................    90
Counter Terrorism Fund...........................................    91
Unfunded Requirements List.......................................    91
Questions Submitted to Hon. Donald H. Rumsfeld...................    91
Questions Submitted by Senator Kay Bailey Hutchison..............    91
Question Submitted by Senator Sam Brownback......................    92
Iraqi National Congress (INC)....................................    92
Questions Submitted by Senator Dianne Feinstein..................    93
Questions Submitted by Senator Mary L. Landrieu..................    94
Military Assistance From Allies..................................    94
Colombia.........................................................    95
Oil Fire Fighting................................................    96
Buy American.....................................................    96
Guard and Reserve Procurement....................................    96


            SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, MARCH 27, 2003

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Domenici, 
Bond, Burns, Shelby, Gregg, Bennett, Campbell, Hutchison, 
DeWine, Brownback, Byrd, Inouye, Hollings, Leahy, Harkin, 
Mikulski, Reid, Kohl, Murray, Dorgan, Feinstein, Durbin, 
Johnson, and Landrieu.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. TOM RIDGE, SECRETARY


               opening statement of chairman ted stevens


    Chairman Stevens. Please rise. Let us have a moment of 
silent prayer for those who have given the supreme sacrifice or 
who have been injured in this war.
    Thank you all very much.
    Mr. Secretary, we are delighted to see you here. These are 
very difficult days for all of us to schedule. I do hope that 
my colleagues will agree with me that we will just waive 
opening statements and listen to your statement, which we will 
place in the record in full. We hope you will shorten it as 
much as possible.
    Any member who wants to submit an opening statement can do 
so, and they will be placed in the record at this point.
    [The statements follow:]
              Prepared Statement of Senator Robert C. Byrd
    Mr. Chairman, thank you for calling this hearing. This is an 
important funding request, and Congress has a responsibility to 
thoroughly examine it and understand it. It is our job, as elected 
representatives of the people, to ensure that this spending request 
meets the needs of our troops overseas and our citizens here at home. 
Equally important, we must make sure that this request does not commit 
the nation to going beyond the current mission in Iraq, and that is 
does not open the door to any unwise policy decisions taken in the name 
of expediency.
    I have said many times that I am committed to giving our troops in 
Iraq the resources they need to ensure their safety and to win this 
war. I am also committed to investing needed dollars in homeland 
security measures to protect Americans here at home. This 
Administration seems to be fixated on the military side of the equation 
at the expense of the domestic side. I believe both are important, and 
both deserve adequate funding.
    Secretary Rumsfeld, I noted a comment you made at a Pentagon press 
briefing the other day (March 25). In discussing the supplemental 
request, you said, ``the budget figure the president announced up there 
is not the cost of the war.'' You went on to say that the supplemental 
covers funding needed by various agencies, including the Defense 
Department, from the beginning of this fiscal year to where we are 
today and hopefully through the rest of the year.
    That is a very important point to make. The impression has been 
left that this supplemental will cover the cost of the war. It will 
not. It is merely a down payment on the cost of the war. Whether the 
``major conflict'' phase of the war lasts weeks or months, the true 
costs of the war, including the long term impact on the military and 
the reconstruction and occupation of Iraq, will continue to accrue far 
beyond the end of this fiscal year. The Administration has an 
obligation to be honest and forthcoming with the American people about 
the costs of this war, both in terms of the sacrifices that will be 
demanded of our men and women in uniform and the financial obligations 
that will be imposed on the American taxpayers far into the future.
    I am also extremely concerned about the massive shift in 
appropriations authority from the legislative to the executive branch 
that is being proposed in this supplemental under the guise of 
flexibility. Congress has the constitutional authority to appropriate 
funds and the solemn responsibility to exercise that authority wisely. 
Handing a check to the Secretary of Defense or Homeland Security or the 
Attorney General without specifying how it is to be spent is not a 
responsible exercise of the Congressional power of the purse. Stop-gap 
spending bills are not the appropriate vehicle for setting long term 
domestic, foreign, or defense policy.
    That said, I welcome you, Secretary Rumsfeld and Secretary Ridge, 
and I look forward to hearing your thoughts on the supplemental funding 
request before us today.
                                 ______
                                 
             Prepared Statement of Senator Daniel K. Inouye
    Mr. Chairman, I want to thank you for calling this hearing today to 
discuss the supplemental for the on going war on terrorism, including 
the costs of the war in Iraq.
    The administration is requesting an expedited consideration of this 
measure to ensure that the Defense Department has the funding necessary 
to continue to prosecute the war on terrorism.
    I support the desire to get the funding to the military services. I 
am sure there is a universal desire in the Congress to support our 
military forces.
    However, it is the responsibility of the Congress to oversee 
Federal spending. It is challenging to do that when the administration 
only submits its request one week before the committee must mark up the 
bill in order to complete action prior to Easter.
    I am grateful that the administration has agreed to send 
Secretaries Ridge and Rumsfeld to testify today in order that they can 
explain, and justify the funding that the administration seeks.
    I know all my colleagues will do their part to complete action on 
this bill before the recess, but I must note that the unwillingness of 
the administration to submit this measure or discuss its plans in 
advance of submitting the bill makes it extremely challenging for the 
Congress to exercise its proper role under the Constitution.
                                 ______
                                 
             Prepared Statement of Senator Mary L. Landrieu
    Mr. Chairman: Allow me to open my remarks with a quotation:
    ``I need not tell you, gentlemen, that the world situation is very 
serious. That must be apparent to all intelligent people. I think one 
difficulty is that the problem is one of such enormous complexity that 
the very mass of facts presented to the public by the press and radio 
make it exceedingly difficult for the man in the street to reach a 
clear appraisement of the situation. Furthermore, the people of this 
country are distant from the troubled areas of the earth and it is hard 
from them to comprehend the plight and consequent reactions of the 
long-suffering peoples, and the effect of those reactions on their 
governments in connection with our efforts to promote peace in the 
world.''
    That statement might have come from any policy maker in this 
country, since we began the war against terrorism and campaign in Iraq. 
However, it did not. It is the opening paragraph of George C. 
Marshall's speech at Harvard University where he announced the Marshall 
Plan.
    I think this quote is important for two reasons. First of all, the 
supplemental appropriations request from the President begins the 
process of reconstruction in Iraq. So, the context is similar. 
Secondly, the enterprise that we are about to undertake--the rebuilding 
of Iraq--will require a similar fortitude and vision on the part of the 
American people, and this Congress. It is not clear to me that we have 
fully realized that yet. Therefore, it is important that we bear in 
mind the wisdom of America's greatest foreign policy success, as we 
work to create a new vision for the Middle East.
    Mr. President, I have essentially three issues regarding this 
supplemental request. Its sufficiency, its oversight, and its 
objectives.
    Starting with sufficiency, let me again reference the Marshall 
Plan. As you all know, the Marshall plan occurred after occupation--it 
was offered in 1947. It occurred after the fundamental infrastructure 
was reestablished. That is what made it such a marvel. It was not a 
plan to keep the Europeans afloat; they might have done this on their 
own. It was a plan to help Europe flourish again. In a four-year 
period, we spent $13.3 billion on the Marshall Plan. In today's dollars 
that constitutes $107 billion. Again, that was not the cost of the war, 
that was not the cost of the occupation--the Marshall Plan was 
something quite different. However, the vision of the Marshall plan is 
what this administration keeps alluding to in public. We will rebuild 
Iraq's schools, their health care system. We will return Iraq to the 
standard of living they enjoyed 20 years ago when they had one of the 
most developed economies in the Middle East. It is a noble ambition, 
and one worthy of America's best efforts. However, it is unclear to me 
whether the public will and the political will have been properly 
readied for the price tag. The Office of Management and Budget have 
announced that this supplemental should last for six months--it has a 
$74 billion price tag, and includes very little by way of 
reconstruction for Iraq outside of immediate relief supplies.
    More startling, while OMB suggests this should cover six months of 
effort. Sources within the departments are suggesting that this will 
only take them through the next 30-45 days. This makes me wonder if we 
are being forthright about the expense of this war. It also makes me 
wonder how much of the forthcoming effort to rebuild Iraq should be 
built into the regular budget process. During the budget debate, we 
created a $100 billion reserve fund to cover the costs of the war. 
However, it is clear that such a contingency fund will be nowhere near 
adequate given that we will spend three-fourths of that in the next six 
months under OMB's best guess, and in the next 30 days according to 
some sources within the departments.
    It is a very large mistake to assume that you can just hide the 
costs of this war from the American public. Whenever the subject has 
arisen, the White House and members of the Administration have 
downplayed the cost. Deputy Secretary Wolfowitz told the House Budget 
Committee that the war costs would range from ``$10 to $100 billion.'' 
Yet when former Economic Adviser Lawrence Lindsey suggested that the 
war would cost between $100 billion and $200 billion, he was roundly 
criticized by the White House. Not surprisingly, Mr. Lindsey--the 
economist--seems a bit more prescient than Mr. Wolfowitz.
    However, as someone who has supported the use of force, and will 
support the President's request for supplementary appropriations, I 
suggest we lay out a strategy that sets realistic expectations. What we 
need is leadership. The American public must understand and brace 
themselves for the costs of this war. It is incumbent on this President 
to outline those costs. It is an undertaking that Harry Truman accepted 
when creating the Marshall Plan. It is an undertaking we expect 
President Bush to accept. He must use his bully pulpit to explain why 
we must expend so many scarce resources to rebuild Iraq. If not, 
political support for reconstruction will vanish. That will be a 
mistake, and a setback for our war to eliminate the threat of terrorism 
from our shores. The President should act to head it off immediately.
    The second question I have is regarding the President's request is 
its oversight. This Committee is fortunate to have the Senate's 
foremost expert in the Constitution as its ranking member. He also 
happens to be the foremost defender of the Congress' prerogatives and 
power within that Constitution. He could cite the Constitution's 
authority to this Committee, chapter and verse by mere memory. He often 
reminds us of the important role that the Founders set out for the 
Senate and this committee. Yet, given the President's request, I think 
it bears repeating.
    Article I, Section 9, Clause Seven States:

    ``No Money shall be drawn from the Treasury, but in Consequence of 
Appropriations made by Law; and a regular Statement and Account of 
Receipts and Expenditures of all public Money shall be made from time 
to time.''

    We have a Constitutional duty to provide for the appropriations 
required by the nation. The People of Louisiana did not send me to the 
Senate abrogate that power in favor of the President. In fact, one of 
the reasons that they returned me to the Senate was to look after their 
interests through this committee, and protecting them from adverse 
decisions made by the Executive branch that frequently overlooks 
important state interests.
    Finally, let me address some of the objectives in the supplemental. 
Let us begin with the proposition that our troops, and the State 
Department should have all the money they need to bring this war to a 
successful conclusion. I will certainly support these aspects of the 
request. We also need to do everything we can to protect American's at 
home. So, if anything, the funding request for the Department of 
Homeland Security should be expanded. But in between those items, there 
are some issues of concern.
    Why, for instance, in the middle of a War with Iraq, a crisis in 
North Korea, the threat of a nuclear armed Iran, and troop deployments 
in the Philippines are we spending $64 million to heighten our 
involvement in Columbia? I have supported our counter drug activities 
in Columbia in the past. Yet, there are limits to American power and 
the American purse. It seems extremely unwise to escalate our 
involvement in other conflicts at this time, and the President's 
submission offers little justification on this point.
    Secondly, it is very odd that we would consider a billion dollars 
in grants to Turkey. What kind of precedent does this set? Why should a 
parliament that voted to obstruct vital U.S. war plans still receive 
aid? Why are we not recognizing those states who have chosen to assist 
our effort. Could we not spend a billion dollars helping Poland? What 
about Romania and Bulgaria?
    Finally, there are a number of items not included in the 
supplemental which ought to be. First, of course, are additional 
resources for first responders. While the supplemental asks for $2 
billion in ODP grants, this correlates almost precisely to the amount 
we had to cut from first responders in fiscal year 2003 conference. We 
already know from the National Governor's Association that the needs 
are nearly triple that amount. So in effect, we are undoing a wrong, 
not making things right. Secondly, while there was a specific provision 
for the increase in fuel costs for the military, there was no corollary 
for the Coast Guard. This is an ongoing problem. The Coast Guard is 
consuming fuel at alarming rates with the heightened security. Without 
additional funding in this area, they will hazard their 
responsibilities for search and rescue, as well as safe navigation. 
Lastly, as ranking member of the D.C. Appropriations Subcommittee, I 
think it is concerning that there are no funds for the District event 
though multiple law enforcement agencies have identified the District 
as the number one target in the nation.
    Mr. Chairman, I look forward to working with you as we move through 
this process. As always, I appreciate your willingness to work through 
my concerns. I think, together, this committee can craft a supplemental 
bill that will have broad bipartisan support.

    Chairman Stevens. We are going to limit members for the 
round--the first round to 5 minutes. And I hope you can keep 
your answers as succinct as possible.
    For the information of members, the Secretary of Defense is 
scheduled to be here about 10:50 and--at 10:50, and we will 
shift to his testimony. I have spoken to Secretary Ridge, and 
if we have additional questions for Secretary Ridge or his 
assistants, we will have to schedule another meeting next week 
probably. It would be next Tuesday probably. But we know we 
cannot fit them both in for a full time this morning, and it 
would be my intention to ask each Department to send back 
witnesses to answer technical questions about the supplemental 
and its use in terms of money.
    So I would urge that members keep their questions here to 
the policies--the matters that are involved in the request 
before us. We have two--one request in terms of the 
supplemental, but there is an amount for the Homeland Security 
Department, and that is the one that is before us now.
    Unless there is another objection to my request to you, I 
would ask the Secretary to present his statement.

                    STATEMENT OF SECRETARY TOM RIDGE

    Secretary Ridge. Thank you, Mr. Chairman.
    Good morning, Senator Stevens, Senator Byrd, distinguished 
members of the Committee. I am certainly privileged to be with 
you today to discuss the President's wartime supplemental 
budget request for the Department of Homeland Security.
    As I begin, along with you, I want to take a moment to 
acknowledge the men and women of our Armed Forces, who are 
bravely serving our Nation in defense of our freedom and our 
values. Their efforts on behalf of this Nation are truly 
noteworthy.
    In particular, I want to recognize the sacrifices that each 
of these men and women are making and thank their families on 
behalf of a grateful Nation for their service. As all of us 
know, it is not just the men and women who wear the uniform 
but, unfortunately, their spouses, their children, and the 
mothers and fathers who seem to put on and wear that uniform.
    Senator Johnson, you probably know it better than anybody 
else in this chamber right now. I appreciate that.
    As we are already seeing, freedom comes at a price; for 
some, the ultimate price has been paid as they have laid down 
their lives in service to our country.
    I would also like to pause to reflect on the men and women 
who are providing security to our homeland. We build on our 
effort overseas with dedicated individuals at home who have 
accepted the call to safeguard our homeland, from first 
responders to those who secure our borders, and our ports, our 
waterways, and our critical infrastructure. Their efforts are 
also critical and crucial to preserving our way of life.
    Collectively, our Armed Forces and our men and women 
securing the homeland exemplify the best of our national spirit 
and determination to defend our liberties at home and abroad. 
It is with gratitude for their sacrifice and for their service 
that we request this supplemental budget to the Congress to 
help support their efforts in this war on terrorism.

                      WARTIME SUPPLEMENTAL REQUEST

    As America executes Operation Iraqi Freedom, the Department 
of Homeland Security requests an increase of $3.5 billion to 
support Operation Liberty Shield and other measures to enhance 
our security at home. The resources provided through this 
supplemental budget request will allow the Department to assist 
our partners at the State and local level, to prepare our 
Nation's first responders, and to protect our Nation from the 
threat of terrorism.

                    OFFICE FOR DOMESTIC PREPAREDNESS

    Specifically, the Department seeks $2 billion for State and 
local terrorism preparedness and prevention. These resources 
will support further enhancements to State and local terrorism 
preparedness efforts, including federally coordinated 
prevention and security enhancements. This request will help 
support our State and local first responders. As part of 
Operation Liberty Shield, the funding will also improve 
protection at critical infrastructure facilities and help 
secure high threat urban areas.
    The supplemental budget request builds upon ongoing efforts 
of the Office for Domestic Preparedness which made available 
nearly $600 million to States earlier this month. It also 
enables States and localities to meet emerging and short-term 
homeland security needs.
    Funding is requested for three activities. One and a half 
billion dollars of the supplemental request will go towards 
enhancing the capacity of State and local jurisdictions to 
prepare for incidents of terrorism on U.S. soil. Grant funds 
for State and local terrorism and preparedness activities may 
be used for acquisition of equipment, training exercises, and 
planning.
    Consistent with past practices, at least 80 percent of the 
total amount will be passed through to local governments for 
first responders in the various cities around the country. To 
the extent practicable, State and local spending plans should 
be consistent with the most recent State preparedness strategy.
    Four hundred fifty million dollars is requested for States 
to augment security at critical infrastructure facilities 
during the duration of Operation Liberty Shield. Grants will be 
allocated to States by formula, but no less than one-third of 
each grant must be allocated to local jurisdictions.
    Fifty million dollars is requested to enable the Secretary 
of Homeland Security to support additional protection or 
preparedness needs of selected urban areas facing a 
particularly high threat.

                         COUNTERTERRORISM FUND

    The supplemental also includes $1.5 billion for the 
Department of Homeland Security for the costs of providing 
support to prevent, counter, investigate, and respond to 
unexpected threats or acts of terrorism during this period of 
heightened threat.
    This funding is intended to support increased operations 
tempo in the Border and Transportation Security directorate, 
including additional screening of visitors crossing the border; 
more secondary inspections of visitors at ports of entry and 
immigrants; increased inspection of high-risk goods and cargo 
at ports of entry; additional flight hours for aerospace 
security; and increased security between ports of entry on the 
northern border; pre-deployment of Federal emergency response 
assets in preparation for potential terrorist attacks; enhanced 
Coast Guard protection of critical U.S. ports during the 
duration of the conflict. Funding will also support Coast Guard 
forces already deployed or in the process of being deployed to 
the operational theater and the protection of the military out-
loads in U.S. ports.

                               CONCLUSION

    In summary, the supplemental budget request for the 
Department of Homeland Security supports the Administration's 
objectives to support our troops abroad and increase our safety 
at home. The supplemental budget will provide the Department 
with the resources to manage its responsibilities and continue 
its work of securing the homeland for the American people.

                           PREPARED STATEMENT

    Mr. Chairman, Senator Byrd, and members of the committee, 
this concludes my prepared statement. I would be, obviously, 
pleased to answer any questions you may have at this time.
    Chairman Stevens. Thank you very much, Mr. Secretary.
    [The statement follows:]
               Prepared Statement of Secretary Tom Ridge
                              introduction
    Good morning. Chairman Stevens, Senator Byrd, and distinguished 
members of the Committee--I am pleased to be with you today to discuss 
the President's wartime Supplemental Budget Request for the Department 
of Homeland Security for fiscal year 2003.
    As I begin, I want to take a moment to acknowledge the men and 
women of our armed forces who are bravely serving our nation in defense 
of our freedoms and values. Their efforts on behalf of this Nation are 
truly noteworthy. In particular, I want to recognize the sacrifices 
that each of these men and women are making and thank their families on 
behalf of a grateful nation for their service. As we have already seen, 
freedom comes at a price and for some, the ultimate price has been paid 
as they laid down their lives in service to our country. They 
sacrificed the freedoms and liberties we as Americans know and cherish 
to secure and extend those freedoms to the Iraqi people.
    I also want to pause to reflect on the men and women who are 
providing security to our homeland. Our effort abroad would be 
incomplete without dedicated individuals at home who have accepted the 
call to safeguard our homeland--from First Responders to those who 
secure our borders, ports, waterways, and critical infrastructure--
their efforts are crucial to preserving our way of life.
    Collectively, our armed forces and our men and women securing the 
homeland exemplify the best of our National spirit and determination to 
defend liberty at home and abroad. It is with a great sense of pride in 
these men and women, and unwavering support for their efforts that the 
Administration is submitting this supplemental budget request to the 
Congress for action.
        wartime supplemental budget request for fiscal year 2003
    As we execute Operation Iraqi Freedom overseas, and continue 
prosecuting the war on terrorism, the Department of Homeland Security 
requires an increase of $3.5 billion to manage requirements, to support 
the overall war effort, and to enhance our homeland defense. The 
Department has unique and complementary roles to those of our armed 
forces--to prevent terrorist attacks within the United States, to 
reduce America's vulnerability to terrorism, and to minimize the damage 
and assist in recovery should a terrorist attack occur. The resources 
requested through this wartime supplemental budget request will allow 
the Department to continue efforts to prepare our first responder 
community and to protect our Nation from the threat of terrorism.
                    office for domestic preparedness
    Within the overall supplemental budget request, the Department 
seeks $2.0 billion for state and local terrorism preparedness and 
prevention. These resources will support further enhancements to state 
and local terrorism preparedness efforts, including Federally-
coordinated prevention and security enhancements. Through the Office 
for Domestic Preparedness, the Department will enhance and continue to 
strengthen America's First Responder community and make our homeland 
safer from emerging threats. This request will help state and local 
First Responders with new equipment, training, and better emergency 
planning. As part of Operation Liberty Shield, the funding will also 
improve protection at critical infrastructure facilities and secure 
high-threat urban areas.
    The supplemental budget request builds on ongoing efforts of the 
Office for Domestic Preparedness, while also enabling states and 
localities to meet emerging and short-term homeland security needs. 
Funding is requested for three activities:
  --First Responder Preparedness.--$1.5 billion of the supplemental 
        request is to enhance the capacity of state and local 
        jurisdictions to prepare for incidents of terrorism on U.S. 
        soil. These funds will be allocated by formula to states, which 
        are best-suited to coordinate regional and local terrorism 
        preparedness and prevention efforts. Grant funds for state and 
        local terrorism and preparedness activities may be used for the 
        acquisition of equipment, training, exercises, and planning. 
        Consistent with past practices, at least 80 percent of the 
        total amount will be passed through to local governments for 
        First Responders. To the extent practicable, state and local 
        spending plans should be consistent with the most recent state 
        preparedness strategy.
  --Heightened Critical Infrastructure Protection.--$450 million is 
        requested for states to augment security at critical 
        infrastructure facilities during the period of hostilities with 
        Iraq. These hostilities create new homeland security 
        requirements for states and localities, particularly an 
        immediate need for adequate protection of critical 
        infrastructure facilities. Grants will be allocated to states 
        by formula, but no less than one-third of each grant must be 
        allocated to local jurisdictions.
  --High-Threat Urban Areas.--$50 million is requested to enable the 
        Secretary of Homeland Security to support additional protection 
        or preparedness needs of selected urban areas facing a 
        particularly high threat. The Department will work closely with 
        governors and mayors in developing site protection plans so 
        that funds may be released rapidly to meet identified needs.
    The request for the Office for Domestic Preparedness is intended to 
help states and localities address security and response needs prompted 
by current events. As such, these funds are only requested for 
availability through December 31, 2003. Grant funding will not be 
subject to this limitation once awarded, but we will encourage grantees 
to use these funds promptly.
                         counterterrorism fund
    The supplemental budget request also includes $1.5 billion for the 
Department of Homeland Security for the costs of providing support to 
prevent, counter, investigate and respond to unexpected threats or acts 
of terrorism--in particular, during this period of heightened threat 
awareness resulting from the conflict with Iraq.
    This funding is intended to support:
  --Coast Guard forces already deployed or in the process of being 
        deployed to the operational theater; protection of the military 
        outload in U.S. ports; and protection of economically-critical 
        U.S. ports from terrorism during the duration of the conflict. 
        The funding will support the activation of over 6,000 
        reservists. Approximately $580 million is required for these 
        efforts. This estimated is based on current assumptions about 
        the war and maintenance of security levels.
  --Increased operations tempo in the Border and Transportation 
        Security directorate, including additional screening of 
        visitors crossing the border, more secondary inspection of 
        immigrants and visitors at ports-of-entry, increased inspection 
        of high-risk goods and cargo at ports-of-entry, additional 
        flight hours for airspace security, and increased security 
        between ports-of-entry on the northern border.
  --Pre-deployment of federal emergency response assets in preparation 
        for potential terrorist attacks, and activation of government 
        emergency response plans and activities as well as other urgent 
        homeland security requirements based on threats that may 
        emerge.
    The Administration requests flexibility in the appropriation of 
these funds to enable us to respond quickly and deploy our assets in 
different configurations, strength levels, and tempo of operations as 
circumstances may require as we face this new challenge to our homeland 
security.
                               conclusion
    The Department of Homeland Security plays a crucial role in 
protecting our homeland and we continue our efforts to protect our 
Nation from terrorism. While much has been accomplished, we can do 
more--especially at this critical time of war. We must stay focused and 
engaged in our effort to secure the homeland and meet the challenges 
that we face at this time in our Nation's history.
    In summation, the supplemental budget request for the Department of 
Homeland Security supports the Administration's objectives to support 
our troops abroad and increase safety at home. This nation is 
mobilizing for action at every level--Federal, state and local 
governments, the private sector, and the American people--to protect 
our homeland. This supplemental budget will provide the Department the 
resources to manage its responsibilities and continue its work of 
securing the homeland for the American people.
    Mr. Chairman and Members of the Committee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.
    Chairman Stevens. I am going to not ask any questions at 
this time. I have some technical questions for later. I do hope 
we can--we will recognize members on both sides of the aisle in 
the order of seniority today, because there are some 
subcommittees meeting and they will be coming and going. We 
will recognize you if you are here at the time your time would 
occur.
    Senator Byrd.

                        FIRST RESPONDER FUNDING

    Senator Byrd. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. Thank you for coming. We have 
looked forward to your being here a long time, too long.
    Secretary Ridge. I remember several conversations about 
that over the past several months, Senator.
    Senator Byrd. Too long. Too long. But thanks for being here 
today.
    As good-naturedly as I possibly can, I want to say that--I 
want to cooperate with the chairman in getting this legislation 
passed if at all possible by April 11. But I chafe under these 
restrictions. I think you have an exceedingly important bill. 
We ought to be allowed to make opening statements, as the 
witnesses are allowed to make opening statements.
    And we ought certainly to have more than just a shirttail 
full of questions, time to answer questions here on this 
important matter. So I am going to register my concerns right 
at the top.
    I think we have a full attendance of the committee here 
this morning almost. And yet our members are going to be 
severely limited. I say this with all due respect to my 
chairman. His purpose is good, and I respect him for that. But 
I have to say that I do not think it is in the people's 
interest of this country to rush this bill as it is being 
rushed here this morning.
    Now, having said that, let me ask you, Mr. Secretary, one 
or two questions. One of the biggest disagreements in the 
homeland security debate is between mayors and Governors, as 
both think that they are the more appropriate receivers and 
administrators of Federal homeland security resources. The 
Administration has, for the most part, sided with the 
Governors. You were--you are a former Governor yourself.
    Evidence does not show that States are the best 
administrators of the funds, however. For example, $330 million 
out of the $500 million allocated to the States from the Office 
for Domestic Preparedness from 1999 to 2002 is unspent. States 
are actually spending less on emergency management this year as 
compared with last year. According to the National Emergency 
Management Association, States are spending $10.55 per capita 
on emergency management this year versus $11 per capita in 
2002.
    Conversely, according to the U.S. Conference of Mayors, 
cities are spending an additional $1 million per week on their 
personnel costs, police, firefighters, and so on, associated 
with emergency management alone.
    Question--your Administration requests an additional $2 
billion for the Office for Domestic Preparedness (ODP). These 
funds are distributed by the Office for Domestic Preparedness 
to the States. Our first responders reside at the local level, 
and I am concerned that they are not getting the resources they 
need and were promised by the Administration.
    The Capitol Hill paper, The Hill, reported yesterday that 
of the $500 million, as I have already indicated, $330 million 
is unspent. Similarly of the $1 billion that Congress approved 
14 months ago for grants to States to increase the ability of 
State and local public health departments to prepare for 
bioterrorism, only 19 percent has been spent.
    My question to you is, if it is taking so long for States 
to get the money to our cities and our first responders, why 
does the Administration request that ODP funds go to the States 
and not directly to the local jurisdictions?
    Secretary Ridge. Senator, it is our belief that we should 
use the Governors and their State emergency management teams to 
develop statewide plans to deal with issues of terrorism 
preparedness, of vulnerability assessment and the like. We are 
prepared to assist the Governors in that effort, because as you 
have indicated, some of the dollars that Congress appropriated 
in previous years have yet to be drawn down, or been drawn 
down.
    Having said that, we also recognize that when there is a 
problem at the local level, they do not dial the State capital. 
Too often--and they certainly do not dial area code 202. They 
dial the local first responders. And that is the reason that we 
look to send 80 percent of the dollars through the States down 
to the local communities in support of their statewide plan.
    We agree with you, Senator. We have been working with the 
League of Cities, the mayors, the National Governors 
Association trying to get them to buy into the notion that we 
build statewide plans from the local level up. We will use the 
States to distribute the dollars, but that 80 percent of those 
dollars would be distributed directly to the local communities 
based upon a plan. We are interested in both inputs in terms of 
dollars, but also outcomes as to where they are spent.

                   EXPEDITING FIRST RESPONDER FUNDING

    Senator Byrd. Well, experience is showing, and the record 
shows, that the monies are not getting to the local responders 
through the State channels. And if it is true that State review 
of local plans is tying up these critical funds, then your 
Department should be proposing ways to expedite that process. 
Are you doing that?
    Secretary Ridge. Senator, it is a very important 
observation you have made. It does appear that some of the 
States have delayed their application because of their 
inability, not their unwillingness, but their inability to put 
together their statewide plans. ODP and the Department of 
Homeland Security are certainly prepared to work with any State 
to accelerate the development of the plan so we can distribute 
the dollars.
    You should know, Senator, that the first responder money 
that is transmitted through the fire grant program, however, 
goes out directly to the individual fire departments.
    Senator Byrd. Do I have more time? What is--is my time up?
    Chairman Stevens. Yes, sir.
    Senator Byrd. It is. Okay. Thank you, Mr. Chairman.
    Chairman Stevens. I am going to exercise the prerogative of 
the chair. Having served 8 years as whip, I can testify no one 
has less time to attend committee hearings than the whips on 
either side, so I will recognize the distinguished Senator from 
Nevada.

                       DELAYS IN REQUESTING FUNDS

    Senator Reid. Thank you very much, Mr. Chairman.
    Governor Ridge, my question has been for some time--and you 
answered it partially for Senator Byrd. We have heard now for 
months about the money being there but not being drawn down. 
Explain again why it is not being drawn down, because my State 
is desperate for monies. And if you want to be specific about 
Nevada, why are they not asking for the money that they are 
entitled to according to you?
    Secretary Ridge. Senator, it is a question that we are 
probing for an appropriate answer, because if there is an 
antidote, if there is a reason that we need to be more involved 
with the States and the State emergency management officials 
and these organizations responsible for putting together a 
statewide plan, we accept that responsibility to do that.
    Your point is well taken. Senator Byrd pointed out that 
some of the dollars that we--that Congress appropriated in 
previous years for the Office for Domestic Preparedness have 
not been drawn down. Some have, but not all have. And we need 
to expedite the process to get those dollars out the door.
    On March 7th, we put our applications for the $600 million 
that Congress appropriated to the States in the 2003 budget. 
And because it is formula-driven, the dollars go out as soon as 
we get the request for reimbursement in.
    Now, admittedly, they have only been up for 3 weeks, but we 
have yet to receive a request from the individual States. So 
given the fact that only 3 weeks have elapsed and we have not 
had a request is not news yet, but we are trying to work with 
the States and through the National Guard Association (NGA) to 
get them to accelerate their request for these dollars, because 
80 percent of them are going to go back down to the local 
level.

                     DELAYS IN GETTING FUNDING OUT

    Senator Reid. But you understand our concern. We hear from 
State and local governments in our States, they are desperate 
for money, they cannot get Washington to react. And then we 
hear from you and your subordinates that the money is in the 
pipeline. No, it is not being drawn down.
    Secretary Ridge. Well----
    Senator Reid. For those of us who are trying to respond to 
our constituents at home, it seems like this is a catch-22 that 
you----
    Secretary Ridge. Yes.
    Senator Reid [continuing]. Where it is not being drawn 
down.
    Secretary Ridge. Yes.
    Senator Reid. And why is it not being drawn down? It is, 
you know, a typical Government snafu.
    Secretary Ridge. Well, you--Senator, you are right. We are 
all accountable to get the money out the door, because we all 
have a place in that process. The accountability at the State 
and local level, I think, and one of the recommendations that I 
would respectfully make when you hear that concern expressed is 
they--particularly at the local level that they try--that they 
work with their Governors and whomever the Governor has 
assigned to develop these plans. And if there is need for 
Department of Homeland Security (DHS) to be involved with them 
in developing the plans, we are certainly prepared to do so.
    You should know in furtherance of this effort, the 
President's Homeland Security Advisory Committee has--is 
prepared to send out a statewide template for State and local 
planning to assist them in this effort. That document should be 
released in the next couple of days, and it is a work product 
of mayors, Governors, first responders, because, you know, in 
the past couple of months they have asked us, ``How do we put 
these plans together? We need a template.'' Well, that is--it 
is on its way.
    So I say respectfully to those who expressed concern about 
the delay in getting dollars out at the local level: Get with 
the Governor, develop that plan, get it into us, and we will 
get the money out the door as quickly as possible. And if you 
need more technical assistance, come to us and we will provide 
it.

                            NUCLEAR SECURITY

    Senator Reid. One last question, and this was a cursory 
glance of the supplemental. I have been concerned because my 
responsibilities on the--one of the subcommittees, one of these 
subcommittees' appropriations, about nuclear security. What do 
you have in the supplemental, if anything, for securing the 
safety of our nuclear plants around the country?
    Secretary Ridge. Well, first of all, part of the Liberty 
Shield dollars goes to the States who have employed----
    Senator Reid. I do not know what Liberty Shield dollars--I 
do not know what that means.
    Secretary Ridge. Part of the supplemental, would be a 
better way to characterize it, is to reimburse the States who 
have deployed either State Police or National Guard at various 
facilities around the country. Many of these facilities----
    Senator Reid. But what--pardon my interruption. My question 
is, is there anything specific in the supplemental?
    Secretary Ridge. Yes.
    Senator Reid. Yes. Okay.
    Secretary Ridge. Yes, there is. It is to reimburse the 
States or the locals who have added layers of protection to 
nuclear facilities.
    Senator Reid. Senator Stevens, thank you very, very much.
    Chairman Stevens. You are welcome.
    Senator Cochran.

      TRANSPORTATION SECURITY ADMINISTRATION (TSA) AND COAST GUARD

    Senator Cochran. Mr. Chairman, thank you.
    The other day when we came over to The White House to meet 
with the President and the Vice President and Director of 
Office of Management and Budget (OMB) to get an idea of what 
the supplemental request would be, we were given a broad 
general outline of the request. And I recall asking a question 
at that meeting about whether or not there was a specific 
request for the Transportation Security Administration. I was 
advised that there was not.
    Now we find though, with staff coming up to talk about the 
details, that there is an intention to make available some of 
this money to the Transportation Security Administration.
    We also had difficulty finding out how the Coast Guard 
request would be spent by the Coast Guard. There were very 
general statements that had been made about what the needs 
were. Reservists were being called up. There were additional 
requirements for the Coast Guard in preventing terrorism 
activities.
    Do you have, this morning, any more specific information 
about----
    Secretary Ridge. Yes, we do.
    Senator Cochran [continuing]. How much money would go to 
these specific activities under the jurisdiction of the 
Department of Homeland Security?
    Secretary Ridge. Yes. Senator, the Transportation Security 
Administration piece of the funding request is about $100 
million for overtime, increased perimeter security, and 
additional law enforcement at the airports around the country.
    The Coast Guard's request is about $580 million. They would 
have access to that. About $400 million is to support the Coast 
Guard's redeployment of people and crews and vessels to the 
Gulf, as well as the protection they afford the supply chain 
out of our domestic ports. That is about $400 million.
    And $180 million goes to enhanced security, not only at 
ports during this period of heightened alert, but also at--
there are several very critical pieces of infrastructure 
dealing with energy, nuclear, natural gas, and the like that we 
have 24/7 coverage on during this period. So about $100 million 
for TSA, and roughly $580 million for the Coast Guard.

                FEDERAL ENERGY MANAGEMENT AGENCY (FEMA)

    Senator Cochran. While this request relates to the events 
following the Iraqi war, and the Department of Defense piece 
certainly is related to that in a much broader way than the 
homeland security request. One of the agencies under your 
jurisdiction now is the Federal Emergency Management Agency. 
And we know that they have been called upon to do a lot of work 
in addition to what had been anticipated when their budget for 
this fiscal year was written in connection with the shuttle 
disaster.
    Secretary Ridge. Right.
    Senator Cochran. They have been going around trying to 
supervise the accumulation of some of the debris. And a lot of 
expense, I am sure, that was unanticipated has been incurred by 
that agency. Does this supplemental request seek additional 
funds for FEMA to take care of those unanticipated expenses?
    Secretary Ridge. Senator, it does not include any 
additional money for that unanticipated requirement. It is a 
cost that unfortunately, because of the tragedy, that we are 
doing our very best to absorb within the sums of money that the 
Congress gave us in the 2002 and 2003 budget. It is about 
managing this additional requirement with additional resources.
    However, the new--this request does provide for about $15 
million, because we do have the regional operation centers at 
FEMA now up 24/7. And I think there is about $15 million here 
for anticipated costs as we stay--keep the regional offices up, 
and deploy some of the assets in the possibility that they 
might be needed.
    But there are no additional dollars requested for their 
work with the--in response to the Columbia disaster.
    Senator Cochran. Mr. Chairman, thank you. I will reserve my 
time for other questions later.
    Chairman Stevens. Sure.
    Senator Inouye.

                             GRANT FORMULAS

    Senator Inouye. Thank you very much.
    Mr. Governor, in your prepared statement you have indicated 
that distribution of funds to States will be made according to 
a formula. Somehow the statement does not describe the formula. 
Is that formula based on population or based on threat level?
    Secretary Ridge. Well, Senator, you raise a very important 
point, and this is as good a time publicly to discuss it, 
because the formula under which the Office for Domestic 
Preparedness historically worked when it was at Justice did 
not, in my judgment, take into the--into account, as strongly, 
threat, vulnerability, critical infrastructure needs and the 
like.
    And one of the challenges that the new Department of 
Homeland Security will have in working with Congress as we move 
forward to address not only the amount of dollars, but how 
and--how well and how appropriate they are expended, is to 
revisit that whole question of whether it is an appropriate 
formula.
    We think there needs to be some adjustment to it. I am not 
sure it can be done in the limited period of time between now 
and when the supplemental is concluded. But it is not--it 
causes a lot of your colleagues on both sides of the aisle, in 
both chambers, as well as our Department, cause to rethink how 
we distribute in the future terrorism preparedness dollars.

                       PORT SECURITY ASSESSMENTS

    Senator Inouye. I appreciate your very candid response, Mr. 
Secretary. I have just another question. In response to the 
security problems in our ports, the Congress passed last year 
the Maritime Transportation Security Act. And the purpose of 
that act was to provide funds, make an assessment of security 
problems in the most critical ports, 55 of them.
    As of this moment, we have completed assessments on five, 
and we have been told that possibly eight more will be finished 
by the end of the fiscal year. At this rate, it would be 2009 
before we finish these assessments, and I am certain you will 
agree with all of us that this is very critical. The time is 
now. How long is it going to take to make these assessments?
    Secretary Ridge. Senator, I had a very good and very 
explicit conversation about that goal with Admiral Collins 
within the past week. In the 2004 budget, our request for 
dollars to go to information analysis and infrastructure 
protection is, I think, in the vicinity of $800 million. And 
some of those dollars we would use to accelerate the 
vulnerability assessment of those ports.
    It is our intention--and I will get back to you with a 
specific time frame, but I think clearly we would like to get 
that done not according to the timetable that you projected, 
which is far, far too long, but within the next fiscal year, if 
we possibly can. And I think we can accomplish that.
    Senator Inouye. And there are no funds in here to implement 
the recommendations of the assessments. Do you intend to have 
funds requested for these purposes?
    Secretary Ridge. Well, again, Senator, we recognize the 
mandate that Congress gave the Department with the Maritime 
Transportation Security Act, and, again, as the Coast Guard has 
done so well in the past, that is a priority that you have set, 
and we just have to find a way to get it done with little or no 
money at all.
    We know that some of it had been undertaken even prior to 
that piece of legislation, just as an ongoing response to the 
9/11--just a reaction to the 9/11 tragedy and our notion that 
it is a--it is the first war of the 21st century. We have to 
think differently about combating terrorism, and we will use 
whatever resources and transfer authority we have within the 
new Department to get them the funds to get it done as quickly 
as possible.
    Senator Inouye. Thank you very much, Mr. Secretary.
    Mr. Chairman, can we submit written questions?
    Chairman Stevens. Well, the--Mr. Secretary, will you 
respond to written questions?
    Secretary Ridge. Oh, absolutely. I would be--I understand 
the time restraints, and I want to recognize that. And I know 
by--I am sure there are literally dozens of additional 
questions, and we would be happy to respond to them.
    Chairman Stevens. Thank you very much.
    Senator Inouye. Thank you, sir.
    Secretary Ridge. Yes, sir.
    Chairman Stevens. Mr. Specter.

                         INTELLIGENCE ANALYSIS

    Senator Specter. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for taking on this very difficult 
job, from leaving the governorship of our home State, 
Pennsylvania, and now being Secretary of Homeland Security.
    I want to revisit with you a subject which we have 
discussed extensively in the past, and that is the overall 
direction on intelligence analysis. There were many of us in 
the Congress who thought that it should be the Secretary of 
Homeland Defense's authority to put all the dots on one board 
in light of what happened on 9/11, where there is substantial 
reason to believe that had all the dots been in one place, 9/11 
might well have been prevented. We will never know for sure, 
but possibly that could have been the case.
    There was no opportunity to offer an amendment in the 
Senate without substantially delaying the enactment of the bill 
because the House of Representatives had gone home and left us 
with a bill, pretty much, take it or leave it. We have not 
moved to alter the bill in light of the President's Executive 
Order putting everything under the Central Intelligence Agency 
(CIA).
    There has been a great deal of conflict over the years with 
the Department of Defense commenting from time to time 
dissatisfaction with CIA, with the absence of clear-cut 
authority by CIA, because the funds are really with the 
Department of Defense and other agencies. My question to you 
is, how is it working out on a day-by-day basis? What is the 
practical effect of the President's Executive Order, and how do 
you function? You are really responsible for homeland security 
to the extent it can be pinpointed anywhere in the Executive 
Branch below the President.
    How is it working out to get the analysis from all of the 
intelligence agencies, having them work together so that you 
see the big picture, and you see all the dots on the board, or 
you see what has to be corrected, and what authority do you 
have?
    Secretary Ridge. Senator, since we have set up the 
Department effectively March 1st, we have continued to receive 
the kind of cooperation and collaboration that you have 
advocated for quite some time from the intelligence community, 
the Federal Bureau of Investigation (FBI), and the other 
intelligence gathering agencies in the Federal Government.
    To that end, we actually have analysts assigned to us from 
those agencies as well as other agencies. Within our own 
Department of Homeland Security, there are several agencies 
that have intelligence-gathering responsibilities that have 
developed their own analysts. We have pulled them in.
    So we have developed internally within a short period of 
time our own analytical capability. We do not have the numbers 
yet. We will grow the numbers, but we do have a broad reach 
across all of the intelligence community to gather that 
information.
    We participate on a regular basis--in a formal way, I do 
with Director Tenet and Director Mueller every morning. We 
participate twice a day in teleconferencing with all the 
intelligence gathering agencies within the Federal Government. 
So in a very short period of time, we have set up, as I said 
before, our own internal analytical unit.
    We are in contact and working with the intelligence 
community, the FBI and others to formalize our connection--and 
this is, again, something you have advocated for a long time--
to formalize our connection with the President's Terrorist 
Threat Integration Center. We will have our analysts there.
    The Congress has said you want us to be a full partner in 
that effort. You have also said you want us to have access to 
raw data, because that is the ultimate collection point. That 
process is ongoing as well.
    So I think we make significant progress every day. We have 
our own analytical capability. It is growing every day. And 
ultimately we will be connected in a formal way as a full 
partner getting access to the raw data we need once the 
Terrorist Threat Integration Center is completed.
    Senator Specter. Permit me to ask you one further question 
before my red light goes on.
    Secretary Ridge. Yes, sir.

                 FOREIGN INTELLIGENCE SURVEILLANCE ACT

    Senator Specter. Please keep us informed as to what is 
happening so it is institutionalized. Right now with the great 
pressure there may be more incentives for cooperation, but let 
us see that that is institutionalized.
    My next question is: What steps can you take when the FBI 
uses the wrong standard for probable cause under the Foreign 
Intelligence Surveillance Act? A couple of weeks ago, Director 
Mueller was here, and we explored that they were using the 
wrong standard, more probable than not as opposed to suspicion 
under the totality of the circumstances, and they were not 
getting the warrants they should have been getting.
    With you being responsible for homeland security, what can 
you do to see to it that the FBI uses the right standard?
    Secretary Ridge. Senator, I was present during that 
particular hearing when you had that exchange with Director 
Mueller. I believe that there is a respectful disagreement as 
to whether they are using the right standard. I have had this 
conversation with Director Mueller. I am familiar with the very 
aggressive use of that authority within the FBI, and I will 
just have to acknowledge that there is a difference of opinion 
between yourself and the Director.
    We are joined at the hip with the Director. We get all that 
information that we request, and I am hopeful that the two of 
you can resolve your differences because the Director himself 
believes that the standard that he has employed is really 
consistent with your interpretation. Obviously, he has not 
convinced you of that point, and I do not think I could either. 
So I am going to----
    Senator Specter. Okay.
    Secretary Ridge [continuing]. Defer it back to him.
    Senator Specter. Well, I will take it up with you 
privately, but it is not a respectful disagreement.
    Secretary Ridge. All right, sir.
    Senator Specter. Thank you, Mr. Chairman.
    Chairman Stevens. I would announce that Senator Hollings is 
next.
    Senator Hollings. Yes.
    Chairman Stevens. Governor Ridge, with your indulgence, we 
would like to interrupt your testimony after Senator Hollings, 
and call in the Secretary of Defense.
    Secretary Ridge. Yes, sir.
    Chairman Stevens. And we will negotiate with you what we do 
after that. I would hope that once the Secretary finishes, we 
could go back to your testimony and finish the questioning of 
you, and then go to the Secretary of Defense subordinates.
    Secretary Ridge. That is your----
    Chairman Stevens. Senator Hollings.

                             PORT SECURITY

    Senator Hollings. Yes. Thank you very much, Mr. Chairman.
    Secretary Ridge. As you wish, Mr. Chairman, whatever.
    Senator Hollings. And thank you, Mr. Secretary. I am 
looking forward to working with you.
    A lot has been done since 9/11 on homeland security. We 
moved immediately, passed an airline security bill unanimously 
through the Senate, working with Secretary Mineta and Admiral 
Loy. And now it has been funded.
    On the other hand, as Senator Inouye's questions, we passed 
a port security bill unanimously, all the--Republican, every 
Democrat. And this week we reaffirmed in the budget a unanimous 
agreement of $1 billion a year for 2 years.
    If we do not have the money forthcoming, what happens is 
that you have got a correlation problem immediately with the 
captain of the port, some young lieutenant or lieutenant 
commander. If there is a security breach, he is the fellow, 
poor fellow, who is in charge, but he has got to get together 
the Coast Guard, the Customs, the Immigration, the Drug 
Enforcement Administration (DEA), the local sheriff, the FBI, 
and everybody else of that kind and on--last week when you had 
that orange, alert orange, the Governor of South Carolina--we 
dream of National Guard. They are all committed, gone. Reserves 
gone. And what he had to do was get parole officers around the 
Port of Charleston and that kind of thing.
    So if you can help us get that money out and help--they 
have all been working, collectively, Customs, Bonner, Admiral 
Loy, and now Admiral Collins, everybody has been working 
together, but we still cannot identify every ship coming into 
port. We do not have that coordination following through. If 
you just--if survey is five a year, you and I will be dead and 
gone. We have got to start moving faster and get the money out 
to the folks, because they are working hard around the clock.
    Thank you a lot, Mr. Chairman.
    Secretary Ridge. And, Senator, I just appreciate your 
acknowledgment of the good work the Coast Guard is doing.
    Senator Hollings. Yes.
    Secretary Ridge. But to allay some of your concerns--I am 
not going to eliminate them all--but the Customs--we are 
beginning to build rings of defense around our ports. We have 
initiated the Cargo Security Initiative in major ports offshore 
where we will put the Customs people and non-intrusive 
technology coupled with a 24-hour request for the manifest, so 
we can do some inspection work even before those containers are 
put on the ports.
    Clearly, the Coast Guard has substantially increased the 
number of aircraft as well as vessels since 9/11 at our various 
ports. The Congress did authorize a couple hundred million 
dollars, I think, in the 2003 budget for enhanced port 
security. Those grants will be coming out. So--and in a very 
methodical and, I think, a very appropriate way, we begin to 
build layers, perimeters of defense around our ports. And I 
look forward to working with you to make them stronger in the 
months ahead.
    Senator Hollings. Thank you very much.

                 SWITCH PANELS TO DEPARTMENT OF DEFENSE

    Chairman Stevens. Thank you.
    Now, Mr. Secretary, we will keep in touch with your staff. 
I understand the Secretary of Defense will be here for about 1 
hour. We will see how that lasts and go back to your testimony, 
sir, when he is finished. Is that agreeable?
    Secretary Ridge. That would be fine.
    Chairman Stevens. Thank you, sir.
    Yes, sir. You can stay there or you can go to another 
office, whatever you want to do, Governor.
    Senator Murray. Mr. Chairman? Mr. Chairman?
    Chairman Stevens. Yes.
    Senator Murray. If the Secretary is not able to come back, 
and we are not able to get our questions answered, I heard him 
say that we could submit them. I just want to make sure that we 
will be able to get responses back before the markup on 
Tuesday.
    Chairman Stevens. I am not sure the markup will take place 
for sure on Tuesday. We will schedule it for Tuesday. We are 
going to try to get through this hearing by that time, but----
    Senator Murray. I will revise that to before markup.
    Chairman Stevens. Yes. All right. Before markup. I am sure 
we will have that cooperation, trying to get the answers here 
as much as possible.
    And I apologize for this. The Secretary of Defense has 
demands on both sides of the Capitol and also with--in the war 
room, so we--with the consent of the Secretary of Homeland 
Security, have had this bifurcated hearing.
    But we will continue in this room for--with Secretary 
Ridge, and then with Secretary Wolfowitz and Zakheim after that 
today.
    Senator Leahy. And, Mr. Chairman, I appreciate what you 
have to do to do this. I agree that we should be able to submit 
whatever questions necessary. I do not think anybody wants to 
be dilatory, but we are being asked to commit a huge amount of 
money in a very short period of time. All of us support making 
sure our troops are supplied in the field, but I think to do 
that, we also have a responsibility to our own constituents.
    Chairman Stevens. Well, I would remind you, we put up $40 
billion for New York after 9/11 in 2 days. And we are at war 
now.
    Senator Leahy. We can--nobody questions that, but I think 
also you are asking for an enormous amount. I am sure the 
witnesses are going to be eager to answer the questions we do 
ask.
    Chairman Stevens. Secretary----
    Secretary Ridge. If somebody wants to sit here, I will get 
out of the way.
                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF 
            DEFENSE
ACCOMPANIED BY:
        DOV S. ZAKHEIM, UNDER SECRETARY OF DEFENSE, COMPTROLLER
        PAUL WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE

    Chairman Stevens. Secretary Rumsfeld, we are pleased to 
have you and General Myers here.
    Mr. Zakheim, Secretary Wolfowitz, if you would like to join 
the Secretary, it is all right with us. But the Secretary is to 
guide who he wants at the table.
    Mr. Secretary, we have waived opening statements. We would 
like to have your statement as short as possible. I know you 
are under some time restraints. And after you finish, we would 
go on to your secretaries, Secretary Wolfowitz and Secretary 
Zakheim, to answer the balance of the question.
    General Myers, I know we all know you are under tremendous 
pressure, so we would accept your time, what time you have 
available for us, sir.
    Secretary Rumsfeld.
    Secretary Rumsfeld. Would you prefer that I not make a 
statement, or should I----
    Chairman Stevens. I prefer you make your statement. We will 
put the whole thing in the record--or I have already seen it. 
I--and members have it in front of them, but whatever statement 
you wish to make, Mr. Secretary.
    Secretary Rumsfeld. Okay. Thank you, Mr. Chairman.
    We are now less than a week, about a week, into the 
Operation Iraqi Freedom. The major ground attack began on 10 
o'clock last Thursday, and the air war began on Friday, the 
following day, at 1:00 p.m., so it will be a week tomorrow. 
While the conflict is well begun, it has really only begun, and 
we are still closer to the beginning than to the end.
    The coalition aircrews have flown thousands of sorties, 
striking at leadership and Republican Guard targets day and 
night, except for the periods of very bad weather. They have 
raced across on the ground some 200 miles of Iraq to reach a 
point about 50 kilometers south of Baghdad in less than a week. 
It is an impressive rate of advance.
    They have secured the Iraqi southern oil fields. There 
are--were 10, I believe, plus or minus 10 oil fields that were, 
or oil wells that were either aflame or had been ruptured, and 
crews are working on them to put out the fires at the present 
time.
    In the North, the coalition has launched attacks on 
terrorist targets, and is having success in disrupting 
terrorist operations, and prevented an Iraqi advance against 
the Kurds, at least thus far. And in the West, the forces have 
had good success in securing the region and dealing with the 
regime's capability to threaten neighboring countries from the 
Scud baskets in that part of Iraq.
    The campaign could well grow more dangerous in the coming 
days and weeks, as the forces close in on Baghdad, and begin to 
have to deal with the Republican Guard forces north of Tikrit, 
south of Baghdad.
    But the outcome is assured. The regime of Saddam Hussein 
will be removed, and the only thing that remains unclear is 
precisely how long it will take.

                     FINANCING THE COSTS OF THE WAR

    We do know that these efforts cost money. The costs of 
military operations in Iraq and the other missions currently 
underway in the global war on terror can obviously not be 
absorbed without an emergency supplemental appropriation that 
the President has requested.
    Since the new fiscal year began, every month since October 
of 2002--that is October, November, December, January, 
February, March--we have had to borrow from other programs, 
because the war on terrorism was not funded.
    We have to recognize that that pattern cannot really 
continue much longer. The services have already gone through 
all of their discretionary spending for the first, second and 
third quarters of 2003, and will soon have exhausted the fourth 
quarter discretionary spending--discretionary funding.
    If this continues, we will run out of discretionary funds 
by late spring or early summer, depending on what the costs 
are, which are not knowable at the present time. And that could 
force a curtailment of training, maintenance and other critical 
activities.
    The President's supplemental request is for $74.7 billion. 
That includes some $62.6 billion for the Department of Defense 
(DOD) to support military operations in Iraq and throughout the 
global war on terror.
    The request includes, among other things, $7.1 billion for 
the round-trip costs of transporting the forces and equipping 
to and from the theater of operations; some $13.1 billion to 
provide war fighters in theater with fuel, supplies, repair 
parts, maintenance, and other operational support that they 
need; about $15.6 billion for incremental personnel costs, such 
as for special pay and compensation for the mobilized 
reservists; $7.2 billion to start the process of reconstituting 
our forces by replacing the cruise missiles, the smart bombs, 
and other key munitions that are being expended in the course 
of the conflict; $12 billion for stability operations, military 
operations to root out terrorist networks and deal with any 
remaining pockets of resistance, humanitarian assistance, and 
operations to search for and destroy Iraqi weapons of mass 
destruction; $1.5 billion for coalition support for the global 
war on terror, including $1.3 billion for reimbursement to 
Pakistan and other key cooperating nations assisting in the 
effort in Afghanistan, and $165 million for training of the 
Afghan National Army; and $6.1 billion for other requirements 
outlined in the request to support military operations in Iraq 
and the global war on terror.
    Of the $62.6 billion the President requested in this 
supplemental for DOD, some $30.6 billion are funds that have 
either already been spent or have been committed, including the 
cost of flowing forces into the region to support the 
diplomatic efforts before Operation Iraqi Freedom began.
    If the Iraqi regime had agreed voluntarily to disarm and 
prevent a war, the costs of sustaining that military pressure 
through the rest of the fiscal year would have been in excess 
of $40 billion. So even without a war, the costs of disarming 
Iraq would have been significant.

                       RELIEF AND RECONSTRUCTION

    The President has also requested funds in the supplemental 
for both an Iraqi Relief and Reconstitution Fund, and a Natural 
Resources Risk Remediation Fund to help with emergency fire 
fighting and repair of damage to oil facilities.
    But let me be clear: When it comes to reconstruction, 
before we turn to the American taxpayers, we will turn first to 
the resources of the Iraqi government and the international 
community. That is why the President last week seized frozen 
Iraqi assets in the United States, so that they can be put to 
use to help rebuild the country.
    Once Saddam Hussein is gone, the United States will work 
with the Iraqi Interim Authority that will be established to 
tap Iraq's oil revenues, the funds Iraq is owed in the United 
Nations's Oil for Food program, and other Iraqi resources to 
fund the effort.
    Reconstruction will require a significant international 
effort. And the threat posed by Saddam Hussein's regime is a 
global threat, which is why some 49 nations have now publicly 
associated themselves in the coalition against Iraq, and many 
more nations are helping privately, some 10 or 11. I think the 
total number of countries cooperating in one way or another now 
is approaching in the midsixties. Already a number of countries 
have indicated that they want to help with reconstruction and 
stability in a post-Saddam Iraq.
    In addition to needing this supplemental, Mr. Chairman and 
members of the committee, we also need greater flexibility as 
to how that money is spent, so we can adjust to the changing 
circumstances.
    It is our hope that the period of intense combat in Iraq 
will be as short as possible, but it is not knowable; and that 
the coalition operations can shift fairly quickly from combat 
to restoring stability and civil order, supplying humanitarian 
assistance, and helping Iraq's people rebuild and assume 
functional and political authority from the coalition. That is 
the hope. But when it will happen is not knowable.
    We do not know when the period of intense combat will end. 
We do not yet know how much damage there will be to the Iraqi 
infrastructure, though the coalition forces are making efforts 
to keep that damage minimal while inflicting maximum damage to 
regime targets. We do not know how the international effort 
will unfold and the specifics of what each country may be 
willing to offer.
    We cannot know the extent to which the United Nations 
(U.N.) will be permitted to help the Iraqi people, what access 
the coalition will have to the U.N. Oil for Food program fund, 
what economic sanctions might be lifted, and the answers to 
many other questions.

                           FLEXIBILITY NEEDED

    The point is that with so many unknowns, the Administration 
clearly needs some flexibility. Just as the military plan that 
General Franks developed has flexibility built into it so that 
our forces can deal with unexpected events on the battlefield, 
our budget plan must also have flexibility to deal with the 
changing circumstances on the ground.
    That is why we believe it is important that the funding 
request for the Defense Emergency Response Fund be appropriated 
in that fund, with its own transfer authority so we will have 
the flexibility to respond to the changes on the ground.
    It is also important that Congress approve the general 
provisions the President has requested in the supplemental, 
especially the request for increased general transfer 
authority. The President has requested a transfer authority 
ceiling of 2.5 percent of the fiscal year 2003 defense budget. 
We believe that figure is reasonable, and that the increased 
flexibility is needed.

                            COMPARING COSTS

    We cannot know how long the effort in Iraq is going to 
last, and we certainly cannot tell what it is going to cost. 
What I do know is that whatever it ends up costing, it will be 
small compared to the cost in lives and treasure of another 
attack like the one we experienced on September 11th or a 
weapons of mass destruction attack that could be far worse.
    The Milken Institute estimated that metropolitan areas 
throughout the United States sustained losses of about $191 
billion as a result of 9/11 and some 1.6 million jobs were lost 
as a result of the attacks. That is not to mention the cost in 
lives and the pain and the suffering of so many who lost 
husbands, wives, fathers, mothers, sons and daughters, sisters 
and brothers on that terrible day.
    Our mission in the global war on terror is to do everything 
in our power to prevent a chemical, biological or nuclear 
attack that would make 9/11 seem modest by comparison, an 
attack where we could lose not just 3,000, but 30,000 or 
300,000, or more.
    There is no question but that $74.7 billion is a great deal 
of money, but the cost of not investing that $74 billion would 
be far greater. We need the funds. We need the flexibility as 
to how they are spent, so we can adapt to the unknowable 
circumstances that are unfolding in the weeks and months ahead.

                           PREPARED STATEMENT

    We will continue to brief the Congress regularly as events 
unfold on the ground, and as these unknowns come into better 
focus. We appreciate the strong support that Congress has shown 
for the men and women in uniform. They are doing a truly 
remarkable job, and I know that they will succeed in their 
mission.
    [The statement follows:]
           Prepared Statement of Secretary Donald H. Rumsfeld
    Mr. Chairman, members of the Committee, thank you for this 
opportunity to update you on our progress in the global war on terror, 
and to discuss the President's emergency supplemental request to fund 
worldwide operations in support of that war.
    We are now less than a week into Operation Iraqi Freedom. The major 
ground war began last Thursday at 10 p.m., and the major air war 
started on Friday, the following day at 1 p.m. Eastern Time. So while 
the conflict is well begun, it has only begun--we are still closer to 
the beginning than the end.
    Already, coalition forces have made good progress. The men and 
women in uniform--U.S. and coalition forces alike--are doing a superb 
job. They have engaged the enemy in demanding circumstances--enduring 
wind gusts in excess of 85 miles-an-hour, and sand storms so intense 
that they literally turn day into night, blacking out the sun. They 
face an adversary which has demonstrated its contempt for the laws of 
war--dressing its forces as liberated civilians; sending them out 
waving white flags, feigning surrender, in order to draw coalition 
forces into ambushes; using hospitals as a base from which to launch 
attacks and hiding behind human shields.
    In spite of these challenges, what coalition forces have 
accomplished in less than a week is remarkable:
  --Coalition aircrews have flown thousands of sorties, striking 
        leadership and Republican guard targets day and night.
  --Coalition ground forces have raced across more than 200 miles of 
        Iraqi territory--through enemy fire and inhospitable terrain--
        to reach a point just south of Baghdad in less than a week. It 
        is an impressive rate of advance.
  --They have secured Iraq's southern oil fields, preventing an 
        environmental disaster and the destruction of critical 
        resources that the Iraqi people will need once Saddam Hussein 
        has been removed.
  --In the North, the coalition has launched devastating attacks on 
        terrorist targets, is having success in disrupting terrorist 
        operations, and has prevented an Iraqi advance on the Kurds.
  --In the West, coalition forces have had good success securing the 
        region and dealing with the regime's capability to threaten 
        neighboring countries from that part of Iraq.
    As the battle unfolds in Iraq, coalition forces are also engaged in 
operations elsewhere in the world in support of the global war on 
terror. Just a few weeks before the Iraq campaign began, the al-Qaeda 
network was dealt a serious blow with the capture of one of their most 
senior operatives--Khalid Sheik Mohammed. And last week, as Operation 
Iraqi Freedom got underway, coalition forces also launched a major 
assault on terrorists operating in the southern mountains of 
Afghanistan--Operation Valiant Strike. Many other anti-terrorist 
efforts are underway throughout the world-efforts that are, of 
necessity, often unseen, but which are helping to protect our people 
from further acts of terror.
    The point is this: all elements of national power are fighting the 
global war on terror on all fronts. The coalition is putting steady 
pressure on al-Qaeda, in Afghanistan and across the globe. And the 
Iraqi regime is discovering they made a serious miscalculation in 
rejecting 12 years of efforts to secure their peaceful disarmament.
    The campaign could well grow more dangerous in the coming days and 
weeks, as the forces close in on Baghdad. But the outcome is assured. 
Saddam Hussein's regime will be removed. The only thing that remains 
unclear is precisely how long it will take.
    We do know this much: these efforts cost money. The costs of 
military operations in Iraq, and the other missions currently underway 
in the global war on terror, cannot be absorbed without the emergency 
supplemental appropriation the President has requested.
    Since the new fiscal year began, every month since October 2002--
October, November, December, January, February and now March 2003--we 
have had to borrow from other programs to pay for the costs of the 
global war on terror.
    That pattern cannot continue much longer. The Services have already 
gone through all of their discretionary spending for the 1st, 2nd and 
3rd quarters of 2003--and will soon have exhausted 4th quarter 
discretionary funding.
    If this continues, we will run out of discretionary funds by late 
spring/early summer--which could force us to curtail training, 
maintenance and other critical activities.
    The President has submitted a supplemental request of $74.7 
billion. It includes $62.6 billion for the Department of Defense to 
support military operations in Iraq and throughout the global war on 
terror. Our troops are depending on it--those engaged in battle, those 
preparing for battle, those stationed at critical outposts across the 
globe, and those deployed here in the United States defending the 
homeland.
    The request for DOD includes, among other things:
  --$7.1 billion for the round-trip costs of transporting our forces 
        and equipment to and from the theater of operations;
  --$13.1 billion to provide war fighters in theater with the fuel, 
        supplies, repair parts, maintenance, and other operational 
        support they need to prevail;
  --$15.6 billion for incremental personnel costs, such as for special 
        pay and compensation for mobilized reservists;
  --$7.2 billion to start reconstituting our forces by replacing the 
        cruise missiles, smart bombs, and other key munitions being 
        expended in the course of the conflict.
  --$12 billion for stability operations, military operations to root 
        out terrorist networks and deal with any remaining pockets of 
        resistance, humanitarian assistance, and operations to search 
        for and destroy Iraqi WMD.
  --$1.5 billion for coalition support in the global war on terror--
        including $1.3 billion for reimbursement to Pakistan and other 
        key cooperating nations assisting the effort in Afghanistan, 
        and $165 million for training of the Afghan National Army.
  --And $6.1 billion for other requirements outlined in the request to 
        support military operations in Iraq and the global war on 
        terror.
    Of the $62.6 billion the President has requested for DOD in this 
supplemental, $30.3 billion are funds that have already been spent or 
committed--including the cost of flowing forces into the region to 
support the diplomatic efforts before Operation Iraqi Freedom began.
    If the Iraqi regime had agreed to voluntarily disarm and prevent a 
war, the costs of sustaining that military pressure through the rest of 
the fiscal year would have been in excess of $40 billion. So even 
without a war, the costs of disarming Iraq would have been significant.
    The President has also requested funds in this supplemental for 
both an Iraq Relief and Reconstruction Fund, and a Natural Resources 
Risk Remediation Fund to help with emergency fire fighting and repair 
of damage to oil facilities. It is important that we have these 
resources available.
    But let me be clear: when it comes to reconstruction, before we 
turn to the American taxpayers, we will turn first to the resources of 
the Iraqi government itself and the international community. That is 
why the President last week seized frozen Iraqi assets in the United 
States--so that they can be put to use to rebuild the country. Once 
Saddam Hussein is gone, the United States will work with the Iraqi 
Interim Authority that will be established to tap Iraq's oil revenues, 
the funds Iraq is owed in the U.N.'s ``oil for food'' program, and 
other Iraqi resources to fund their reconstruction effort.
    Reconstruction will require a significant international effort. The 
threat posed by Saddam Hussein's regime is a global threat--which is 
why some 47 nations have publicly associated themselves with the 
coalition in Iraq, and many more are helping privately. Already, a 
number of countries have indicated that they want to help with 
reconstruction and stability in a post-Saddam Iraq.
    Mr. Chairman, in addition to needing this supplemental, we also 
need greater flexibility in how we spend it--so we can adjust to the 
constantly changing circumstances of the war.
    It is our hope that the period of intense combat in Iraq will be as 
short as possible--and that the coalition operations can shift quickly 
from combat to restoring stability and civil order, supplying 
humanitarian assistance, and helping Iraq's people rebuild and assume 
functional and political authority from the coalition.
    That is our hope. But when it will happen is not knowable.
  --We do not know when the period of intense combat will end.
  --We do not yet know how much damage there will be to Iraq's 
        infrastructure--though the coalition forces are making efforts 
        to keep that damage minimal while inflicting maximum damage to 
        regime targets.
  --We do not know how the international effort will unfold and the 
        specifics of what each country is willing to offer.
  --Moreover, France has announced it will veto any new Security 
        Council resolution and block coalition efforts to give the 
        United Nations an appropriate role in the post-Saddam 
        reconstruction effort.
  --That means we cannot know the extent to which the United Nations 
        will be permitted to help the Iraqi people, what access the 
        coalition will have to the U.N.'s ``oil-for-food'' program 
        funds, when economic sanctions might be lifted, and the answers 
        to many other unknowns.
    The point is that: with so many unknowns, we will need some 
flexibility. Just as the military plan General Franks developed has 
flexibility built into it so that our forces can deal with unexpected 
events on the battlefield, our budget plan must also have flexibility 
to deal with changing circumstances on the ground.
    That is why it is important that the funding requested for the 
Defense Emergency Response Fund (DERF) be appropriated in that fund--
with its own transfer authority--so we will have the flexibility to 
respond to the inevitable changes on the ground.
    It is also important that Congress approve the general provisions 
the President has requested in the supplemental--especially the request 
for increased general transfer authority (GTA). The President has 
requested a General Transfer Authority ceiling of 2.5 percent of the 
fiscal year 2003 DOD budget. That figure is reasonable. Increased 
flexibility is needed.
    The President has requested a war supplemental of $74.7 billion. 
That figure is not the cost of the war; that figure is the best 
estimate of the money that the State Department, the CIA, the 
Department of Homeland Security, and the Department of Defense need to 
carry us from October 1, 2002 through the end of this fiscal year.
    We can't know how long the effort in Iraq is going to last--and we 
certainly can't tell what it is going to cost. It is not knowable.
    What I do know is that, whatever it ends up costing, it will be 
small compared to the cost in lives and treasure of another attack like 
the one we experienced on September 11th--or a weapons of mass 
destruction attack that could be far worse.
    The Milken Institute estimated that metropolitan areas throughout 
the United States sustained losses of about $191 billion as a result of 
9/11 and some 1.6 million jobs were lost as a result of the attacks. 
And that's not to mention the cost in lives lost and the pain and the 
suffering of so many who lost husbands and wives, fathers and mothers, 
sons and daughters, sisters and brothers on that terrible day.
    Our mission in the global war on terror is to do everything in our 
power to prevent a chemical, biological or nuclear attack that would 
make 9/11 seem modest by comparison--and attack where we could lose not 
3,000 people, but 30,000 or 300,000, or more.
    Yes, $74.7 billion is a lot of money--but the cost of not investing 
that $74.7 billion would be far greater.
    Mr. Chairman, we need the funds--and we need flexibility in how 
they are spent, so we can adapt to unforeseen and unknowable 
circumstances that will unfold in the weeks and months ahead.
    We will continue to brief the Congress regularly as events unfold 
on the ground, as these unknowns come into better focus. We appreciate 
the strong support you have shown for the President, and for the men 
and women in uniform. They are doing a remarkable job and I know that 
they will succeed in their mission.
    I'd be happy to take your questions.

    Secretary Rumsfeld. General Myers.
    Chairman Stevens. General Myers.
STATEMENT OF GENERAL RICHARD B. MYERS, CHAIRMAN, JOINT 
            CHIEFS OF STAFF
    General Myers. Mr. Chairman, I have a short statement. Good 
morning, Mr. Chairman and members of the committee. It is a 
pleasure to be here with you.
    I will not repeat the Secretary, but I would like to take 
this opportunity to point out the dramatic successes that our 
servicemen and women have achieved this week in Iraq. They have 
executed our plans superbly and have exploited the flexibility 
inherent in that plan. The performance is marvelous and I think 
we are all very proud of them.
    The environment is demanding, and our men and women are 
offering exceptional examples of the dedication, bravery and 
professionalism of our joint force.
    In the first 100 hours of the ground phase of Desert Storm 
back in 1991, we moved a bit over 100 miles into Iraq. Yet, as 
Secretary Rumsfeld mentioned, coalition troops moved over 200 
miles into Iraq during Operation Iraqi Freedom in the first 36 
hours. That is about twice as far in less than half the time.
    I must also point out that our Special Operations teams 
throughout the country, in cooperation with other U.S. 
Government agency assets, have done an incredible job and a 
largely unrecognized job so far for good reason.
    We are additionally engaged in a global war on terror in 
the Philippines and in Georgia, and we are still fighting the 
al-Qaeda and remnants of al-Qaeda and Taliban in Afghanistan. 
The global war on terror is, in fact, global in scope and in 
nature. All of our Nation's Soldiers, Sailors, Airmen, Marines, 
and Coastguardsmen, as well as our Department of Defense 
civilians and coalition partners, have performed exceptionally 
well.
    But this effort, protecting America in our new and 
challenging strategic environment, has generated significant 
costs. The American and British people have borne the dramatic 
and tragic price of casualties in battle here recently. And we 
grieve with the families of these heroes. We will not forget 
their sacrifice. They are a reminder of the best our country 
and Britain has to offer.
    There is no doubt that we will succeed in disarming Iraq. 
We will remove their weapons of mass destruction. We will 
remove their thuggish leader, and we will lift the people of 
Iraq from under the boot of their oppressor.
    But we must recognize, though it pales in personal 
importance, that we have borne steep monetary expenditures 
fighting the war on terror and prosecuting the campaign in 
Iraq. As we meet here today, our Nation's military forces are 
in need of prompt and full passage of the President's 
supplemental request.
    The Department cannot absorb the more than $62 billion in 
incremental costs the war on terror has demanded. In fact, as 
the Secretary has said, the four military services will soon 
exhaust borrowing from their fourth quarter operations and 
maintenance accounts.
    Without prompt passage of supplemental appropriations, most 
of the services' operational and maintenance and military 
personnel accounts will run out of funding. Prompt funding is 
needed to sustain our troops in the field as well. And it is 
important to ensure that those in training at home have the 
best possible support to accomplish their vital task of 
providing for the common defense for today and for tomorrow.
    And if our full request is not appropriated, shortfalls 
would cause a severe curtailment of training, maintenance and 
other funding from later in the fiscal year. This would 
undoubtedly reduce the readiness and the morale of our hard-
working and hard-fighting men and women. And it would reduce 
Defense Department efforts to fight the global war on 
terrorism.
    Indeed, prompt funding will further demonstrate to our men 
and women that they have the full and unwavering support of the 
people of the United States. While we have troops in combat, 
the importance of support from home cannot be overstated. It is 
up to all of us to show them that our words are reflected in 
our actions.
    Furthermore, given the challenging dynamics on the war on 
terror, at this time flexibility of execution is just as 
important as flexibility on the battlefield, as the Secretary 
said. And this flexibility in execution will enable the 
Department to rapidly meet unknowable, unforeseen requirements 
to achieve the greatest payoff.
    Members of the committee, Secretary Rumsfeld has outlined 
our expenses by operational phases and other funds and 
provisions. These are our best projections of our expenses in 
defeating the Iraqi regime and winning the war on terror.
    We appreciate your support and it is essential to our 
success in protecting America and winning the war on terror 
that we pass this supplemental. Thank you very much.
    Chairman Stevens. Thank you. Let me thank you for three 
things: First, for your tremendous leadership; second, for the 
briefings that you have given to us now every day since this 
war has commenced. This is not a classified hearing here so we 
do not expect to go into some of the things you have told us in 
those sessions.
    But, third, I want to thank you for the embedded journalism 
that you have developed. It has given the world an experience 
in terms of knowing more and knowing the trials and 
tribulations of those who must fight a war. And clearly it was 
a risky decision, but the right one to make. So I personally 
thank you for that.
    I have but one question and that is--I might have some that 
we will submit in writing to your staff, Mr. Secretary. But 
your supplemental request outlines four broad phases of the war 
that we are conducting. Can you outline here for us now, what 
are those phases and where are we today in regard to those 
phases?

                       PHASES OF THE WAR IN IRAQ

    General Myers. Yes, sir. We are currently in phase three, 
which is combat operations. The first two phases were getting 
ready for that. The second phase was building up the forces and 
being prepared.
    Then the fourth phase is at the end of the conflict, is the 
reconstruction of Iraq. It is--and it has many different parts 
to it, but the principal parts would be ensuring the 
territorial integrity of Iraq; to ensure that the factions are 
not fighting among themselves in the various ethnic groups; to 
ensure that we can locate, secure and take appropriate action 
with weapons of mass destruction sites; and that we bring on or 
along--at the same time, that we bring on an Iraqi interim 
administration that can stand up and, hopefully, fairly 
expeditiously start running their country. And that is the 
phase four. That follows the phase that we are in right now, 
which is phase three.
    Secretary Rumsfeld. One way to think about it is if you 
think of Afghanistan. The entire country does not necessarily 
move from one phase to another. In Afghanistan, for example, we 
are in phase three in some places where there are still 
kinetics. In other places, we are in phase four, which is in 
the post-conflict stabilization period. And I suspect that that 
will be happening in Iraq as well, that there will be--it will 
roll across the country. And we will be beginning the phase 
four probably in portions of the country before the rest of the 
country is stabilized.

                 HOW MUCH OF REQUEST NEEDS FLEXIBILITY

    Chairman Stevens. That raises another question. You have 
got a request for $62.6 billion, and the statement is that 
$30.3 billion have already been spent or committed. So the 
flexibility you seek is on the funds that are left to be spent 
or committed, right?
    Secretary Rumsfeld. The flexibility is--each statement--the 
first statement is correct. We believe that of the total 
request of $60-plus billion, some $30-plus billion has either 
been spent or committed. That is to say, it is what the global 
war on terror is costing. It is what it costs to flow forces 
over. It is an estimate on things that have already expended, 
munitions.
    The request, however, is for the flexibility for the entire 
amount and I think it is correct to say--Dov, go ahead and 
clarify it.
    Dr. Zakheim. Sure. Regarding the $30.3 billion, Senator, 
you are absolutely right. We have a pretty good sense of the 
accounts and where the money will go, but I stress that it is 
still an estimate.
    We still may have overages and underages in those accounts. 
So we still need the flexibility throughout. What we tried to 
do was to give the committee a better sense of where the money 
was going when we knew it. But it is still only a sense, sir. 
We do need the flexibility for the entire amount.
    Chairman Stevens. Thank you very much.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary. Thank you, General.
    I am sure that I speak for everyone here when I compliment 
the fighting men and women who are out there under very extreme 
and serious circumstances. I compliment them for their bravery 
and for their doing their job so well.
    Let me--I am very sorry that we do not have the time that 
we ought to have on this very, very important bill. Let me 
first, Mr. Secretary, say that in your prepared statement, I 
have noted the word ``flexibility'' at least a half a dozen 
times. And I have heard that word kicked around here by others. 
I heard it down at the White House the other night.
    I expressed my suspicions concerning the word 
``flexibility'' at that time, and as I sit here, I must ask 
you--I wish I could ask more questions; I wish we had the time, 
because this is a very--to me, this is a very serious thing 
that we are being asked to do.
    The Defense portion of the supplemental includes $1.4 
billion for the support of coalition partners in the war on 
Iraq and the war against terrorism. You request the authority 
to exempt these funds from Congressional notification 
procedures and from all laws that regulate how the United 
States may give to its friends. Those laws are there for a 
reason. We should be careful about what we give to other 
countries.
    During the Iran/Iraq war, the United States sent anthrax, 
brucella and botulinum to Iraq, which may have formed the basis 
of their biological weapons program. Can you explain, Secretary 
Rumsfeld, why the $1.4 billion in foreign aid should be exempt 
from any kind of oversight outside of the Department of 
Defense, Department of State, and the Office of Management and 
Budget? Why should Congress not have some say as to how the 
money is used, so that we can ensure that the aid is consistent 
with the long-term national security interests of the United 
States?

                         CONGRESS' BUDGET ROLE

    Secretary Rumsfeld. Senator, there is no question but that 
Congress has a critically important role to play, and 
particularly with respect to the purse strings. I can give you 
possibly some examples of things that occurred very recently 
that we were not able to do for long, long periods of time.
    Senator Byrd. Mr. Secretary, I hope you will excuse me for 
interrupting you; my time is limited. Could you give me a more 
direct answer to the question I asked? If I had more time, I am 
sure that what you were about to say would be helpful, but I 
think we can get to the questions and the answers more quickly, 
if we might.
    Secretary Rumsfeld. Well, you indicated that there would 
not be notification to Congress. There would be. Congress would 
be fully aware of how the funds were spent. The--any 
implication to the contrary, I think, would be inaccurate. The 
question is whether there should be prior notification to a 
number of committees and then a long period of months prior to 
the time that those funds can be expended.
    And I will give you two specific examples. The United 
States owed Pakistan, I do not know, several hundred million 
dollars for months and months and months and months, and we 
were unable to pay them. And if we are asking countries to 
cooperate with us and assist us and provide fuel and provide 
apron space on an airfield, and we are not able to pay them for 
the funds that they are owed for that service, because--for, I 
think, it was in this case 6 months--I could be wrong.
    General Myers. More.
    Secretary Rumsfeld. More. He says it is more. But we could 
not pay the Afghan National Army, for example, to help train 
them. We could not get that started in time. It took months. We 
had to finally go out and scrounge around and figure out a 
dozen different ways to do things.
    There are certainly things that come up that are not 
knowable in advance. It would be wonderful if everything were 
knowable a year and a half in advance, but they are not.
    Senator Byrd. Well, Mr. Secretary, this is not the first 
war we have fought. And I am sure the same thing could have 
been said in any of the wars that have proceeded this--World 
War I, World War II, the Korean War, the Vietnam War, and other 
wars. And I cannot see the necessity of having additional 
flexibilities given in this instance that we have not had 
before. It would seem to me that Congress will certainly 
respond quickly to any needs that can be substantiated by the 
Department in this period of time.

                           BUDGET FLEXIBILITY

    Secretary Rumsfeld, the supplemental request includes $59.9 
billion for the Defense Emergency Response Fund. Last year, the 
Defense Department requested a similar $10 billion reserve fund 
for operations in Afghanistan. Congress disagreed and worked 
with you to specify accounts for funding. Is there a specific 
reason why such an approach would not work today?
    Secretary Rumsfeld. Senator, because the Congress did not 
provide the $10 billion that we requested, the Department of 
Defense had to borrow from other accounts all through October, 
all through November, all through December, all through 
January, until we finally got $6.1 billion, thanks to this 
committee and the Congress, to pay back money that had already 
been spent. It is just a terrible way to operate. To have to 
run to other accounts and pull money out, and spend it for 
things you know you are going to have to spend it for is simply 
not in my view a good way to manage our affairs. We did----
    Senator Byrd. Well, Mr. Secretary, I understand it may be a 
terrible way, but we are talking about the expenditure of the 
taxpayers' money. And the American people have a right to 
believe that their money is being spent most prudently. And I 
know it is--I know it may be difficult to have to have the 
taxpayers' representatives in Congress to have to limit--place 
limitations on the various Departments, but this is something 
that has to be done. We are talking about the liberties of the 
American people.
    And it seems to me that we have done very well over the 
several decades in fighting the wars. There are limitations. 
There will be limitations. There ought to be limitations. And I 
regret that you have to live under these limitations, but it is 
not asking too much of the American people to have their 
representatives in Congress require the agency heads to answer 
questions and to place limitations on their spending.
    I cite Madison Federalist number 48, ``Power is of an 
over--encroaching nature.'' I am sorry. I do not have my 
glasses with me, so it slows me down a little bit. ``Power is 
of an encroaching nature, and it ought to be effectually 
restrained from passing the limits assigned to it.''
    Now, Mr. Secretary, I am sorry you have to labor under 
these limits, but we have always had them. And we have had wars 
before, and it is not too much to ask the Department to live 
within these limitations.
    Edmund Burke said, ``The people never give up their 
liberties, except under some delusion.'' So here we are being 
asked to give up the people's liberties under the--in the 
interest of flexibility.
    Mr. Secretary, I am against giving additional flexibility. 
I will give every dollar--I will support every dollar I can to 
help the troops and provide their--for their safety, and to 
help win the war. But to have a--to extend these limitations to 
the extent that they are--is being asked here, I just do not 
think--I think it is too much.
    The reason we have separation of powers is to protect the 
liberties of the people. And checks and balances and the 
separation of powers has served the people well now for 215 
years. And so count me out when you ask for these additional 
flexibilities.
    I think Congress will respond to the needs whenever the 
case is made. But we cannot afford to give this Administration 
or any other Administration a blank check. We did not give you 
a blank check when you were Secretary of Defense in the 1970s. 
And I do not expect to support giving a blank check to any 
Administration.
    The people have the right to know how their monies are 
spent and to believe that they are being spent prudently. And I 
hope that the Congress will be very reticent when it comes to 
giving up these limitations because, after all, they protect 
the liberties of the American people.
    As long as we have a separation of powers, and checks and 
balances that are written into this--which you have to live by, 
which I have to live by, then the liberties of the American 
people will be secure.
    I guess I have overrun my time. Thank you, Mr. Secretary.
    Secretary Rumsfeld. Yes, sir. Senator, my recollection is 
there was a defense emergency response fund in the September 
2002 supplemental.
    Senator Byrd. Yes. I remember that. If I had time, I would 
go into that.
    Chairman Stevens. And, Mr. Secretary, there will be one 
this time too.
    Senator from--Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    General Myers, one question that I have that I think we 
would all be interested in hearing a response to is the extent 
to which you have what you need to wage the war in Iraq so that 
we do have a successful conclusion. Are there any items of 
munitions or equipment or men or women who are necessary for 
the conduct of this war successfully that you foresee right now 
to lack funds or shortfalls in funding?
    General Myers. Senator Cochran, right now, I think our men 
and women have everything they need to prosecute our effort in 
Iraq and also prosecute the global war on terrorism, which Iraq 
is a part of, of course to include our efforts in Afghanistan 
and other places around the world.
    As we indicated in both our opening statements, though, and 
I do not think it is a question of equipment as much as it is 
of funding personnel costs and other operations and maintenance 
costs. The money that has been used to fund what we have been 
doing up until now has been taken from fourth quarter funds 
from the various services, now creating a need to replenish 
those funds, or we are going to find out here in May or June 
that the services are out of their personnel funding in their 
accounts or they are out of their operations and maintenance 
accounts.
    So--but right now, we are fine. And if we get this 
supplemental in a timely manner, it will continue to be fine. I 
cannot think of anything at this point that we can put funding 
to that would have an impact on this battlefield today. 
Clearly, you will see some things in the fiscal year 2004--and 
you already have--in the fiscal year 2004 budget that shore up 
some of our systems in the future. But now we are in good 
shape.

                     TIMING OF SUPPLEMENTAL PASSAGE

    Senator Cochran. Mr. Secretary, I assume that there may be 
an application of a phrase that I remember from law school, 
``time is of the essence.'' If we act quickly, you can use the 
funds that we are appropriating more efficiently and more 
effectively to ensure that we win the war and that we win the 
war against terror as well.
    Secretary Rumsfeld. Absolutely, Senator. There is no 
question. We have already gone through, as I say, some period 
of months without the supplemental funds that are needed, and 
we are anxious to have the appropriation so that we can proceed 
in an orderly and businesslike way.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Stevens. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman.

                HOW FUNDS WILL BE DISBURSED TO SERVICES

    Mr. Secretary, since the bulk of the funds in the request 
are not broken down by service, how can the services know what 
portion they will get so they can make appropriate plans to use 
such funds?
    Secretary Rumsfeld. The--of course, the war is not being 
fought by services; it is being, as you well know, is being 
fought by--in a combatant command by joint forces. And how they 
are--how the decision is made by the combatant commander to use 
one element of a service or another of a different service is 
something that evolved as the circumstance on the ground and in 
the air and at the sea take place.
    The allocation will end up being based on usage and 
consumption. And that is the judgment that evolves as the 
combatant commander makes decisions as to how he wants to use 
the various forces. And it ultimately then goes into the normal 
accounts of the services, as a reimbursement for the 
expenditure of that usage or that consumption.
    Senator Inouye. The chairman of this committee has 
indicated that he will do his best to finish this process by 
Easter. Can you assure this committee that the funds will be 
disbursed as expeditiously as this committee is doing? Because 
these are reimbursements, are they not?
    Secretary Rumsfeld. They--what we will have to do is to go 
back and immediately start using the funds that are 
appropriated by the Congress to replenish the accounts that 
have been drained during the--already now for three quarters 
worth of those accounts.
    Chairman Stevens. Will the Senator yield?
    Senator Inouye. Yes.

            DIRECT APPROPRIATION FOR COSTS ALREADY INCURRED

    Chairman Stevens. Why can you not give us those figures or 
put it in the law? Why do we have to wait?
    Secretary Rumsfeld. Dov.
    Dr. Zakheim. Again, Senator, as I mentioned earlier, what 
we know already or think we know we have listed, and that was 
the $30.3 billion that we discussed earlier. And as the 
Secretary just said, as we consume and as we know what we have 
consumed, then, of course, we will allocate directly to the 
accounts and we will keep the Congress fully informed. We do 
not know how the war exactly will play out in terms of specific 
consumption, and that is why we cannot predict exactly to what 
account money will go.
    Secretary Rumsfeld. For example, we know what it costs to 
flow forces over. It--General Franks very likely will make 
judgments as to which forces he wants to put in theater, which 
forces he does not want to put in theater, depending on how 
long the conflict goes, which forces he wants to use as 
replacement forces, so that forces that have been in the battle 
for a period can be flowed home. And that would vary from 
service to service.
    We can come up with gross numbers in terms of what it is 
likely to be, but in terms of being confident today that you 
would know precisely which service would need to be reimbursed 
in advance, it is simply not possible.
    Senator Inouye. This supplemental request will reimburse 
for funds expended, is that correct?
    Secretary Rumsfeld. No, sir. The--it is--the supplemental 
that--the DOD portion of the supplemental is not the cost of 
the war, it is not for all that has been expended; it is for 
what has been expended, what has been committed, but not 
expended--that is to say once you take the forces over, you 
have got to be able to bring them back. So there is funds in 
here to bring them back, even though it is not expended. We 
think of it as committed, and for a reasonable anticipation of 
what will be required for the remainder of the fiscal year. It 
is really those three categories.
    Senator Inouye. And this request will meet all the 
requirements of the services?
    Secretary Rumsfeld. No, sir. I cannot say that. They--how 
this conflict will play out is not--I cannot know. I do not 
know anyone on the face of the earth who can know. And, 
therefore, it is not possible to say that it will meet--it 
could--it is conceivable that there will be needs that will not 
be met. And we would have to come back and discuss those kinds 
of things. But it is not--I am not saying that is the case. I 
just cannot promise you that they would all be met. Certainly, 
we would go back and meet the needs of the services in terms of 
the things they have expended already.
    Senator Inouye. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you.
    Senator Bond.
    Senator Bond. Thank you, Mr. Chairman, and Mr. Secretary, 
and General. I hope you will convey the, as all of my 
colleagues do, the best wishes on behalf of the people that we 
serve for the military men and women who are at risk and know 
that our thanks and prayers are with them.
    A question about, I guess to General Myers, we are reading 
about the Iraqi Fedayeen, Saddam, and the other paramilitary 
groups harassing the supply lines. Is this just mere deadly 
harassment, or is this going to require more time and resources 
to be spent on protecting the supply lines and the rear and 
delaying our advance to Baghdad?
    General Myers. This will not delay the execution of the 
plan, as laid out by General Franks. It can be, I think, 
characterized more as harassment at this point, and it is being 
dealt with appropriately, I think. I will not get into the 
operational details, but General Franks is taking means to deal 
with this group.
    It is tough to characterize them because of the way they 
act. If you were watching TV this morning, they had some 
soldiers from Lawrenceville Hospital that happened to run 
across one of these groups that were dressed in traditional 
garb, took that garb off--pretended to surrender, took that 
garb off when they got closer, and revealed that they, indeed, 
had uniforms underneath, and weapons, and, of course, they were 
taken care of. But I think a better description is probably 
regime death squads, because that is what they are doing.
    They are putting guns to people's heads, the Iraqi 
citizens, to force them to continue to fight, when they would 
much rather give up, but there are enough of them where it is a 
bit of a--it is something that needs to be dealt with, so we 
are dealing with that as we speak.
    Senator Bond. Obviously, there is a hope, but not broadly 
realized, that there will be more major units defecting. At the 
same time, we hear reports that these death squads are 
threatening anybody who seeks to desert with death. They are 
using the paramilitary groups. How long do you think that can 
last? At what point do you think we will have degraded their 
capabilities sufficiently that they will not be able to prevent 
major defections?
    General Myers. I do not know if that is knowable exactly. I 
think the larger population centers are probably different from 
the less-populated areas, certainly along the lines of 
communication. Our supply lines, like I said, it is not having 
a major impact. In fact, it is not having any impact on the 
supplies reaching our troops, our forward troops. We are just 
going to have to stay at it.
    There are a lot of other pieces, and it starts to get into 
operational matters, and I would prefer not to talk about it 
here, but it is part of the overall campaign, to quickly 
diminish their capability. We are doing that. Hundreds of them 
have been engaged. Hundreds of them have been dealt with, and 
that will continue.
    Senator Bond. Mr. Secretary, you have talked about phase 
four, and there is a request of some $2.4 billion for the new 
flexible account for humanitarian relief to the people of 
Afghanistan.
    In phase four, how long is the Defense Department going to 
be responsible for that reconstruction humanitarian aid? Is 
this going to be moved over to another account where we should 
be funding, either the State Department, USAID, or others?

                     INTERNATIONAL SOURCES OF FUNDS

    It is a two-part question. The second part is, you have 
raised in your written statement, the concern that France is 
threatening to veto the Food for Peace program. How much money 
do you see as available from international sources to provide 
the humanitarian relief and reconstruction that we hope and 
expect for Iraq?
    Secretary Rumsfeld. These are issues that are currently 
being discussed, and negotiated, and considered. The sources of 
funds include the following, at least. One is frozen assets in 
our country and other countries. A second source is, there is 
some number that is not quite clear, $10 billion or $12 billion 
in the U.N. Oil for Food accounts, some portion of which is 
committed to existing contracts, but the contracts were 
contracts entered into by Saddam Hussein's regime, and one 
would think that a serious review of those contracts would free 
up a lot of that money as well.
    So if it is $7 billion out of the $12 billion that are 
committed to contracts, I would anticipate that a careful scrub 
of those contracts would mean that there would be less than $7 
billion committed, and, therefore, more available.
    Third, there are potential oil revenues. It looks at the 
moment as though the bulk of the Iraqi oil wells are not 
damaged and are not aflame, which is very fortunate. And, of 
course, those are revenues that ought to be available for the 
Iraqi people, and for the people of that country.
    Third, there are coalition contributions. Already, 
countries are making contributions in the country. World Food 
is providing assistance. The United Kingdom has a ship, the Sir 
Galahad, that is off the port south of Iraq, waiting to come in 
as soon as they are certain that the mines have been cleared. 
Neighboring countries have offered medical assistance, and a 
whole host of things.
    So there undoubtedly will be an international donor's 
conference to raise money, and there are a variety of places 
that funds can come for this.
    Senator Bond. Thank you, Mr. Chairman.
    Chairman Stevens. Senator Hollings.
    Senator Hollings. Thank you, Mr. Chairman.

                         OVERCOMMITTED MANPOWER

    Mr. Secretary, do not worry about the money. You know and I 
know that you are going to get the money; otherwise, rather 
than a money supplemental, we ought to be thinking about a 
manpower supplemental. We just set aside Secretary Ridge and 
you and Secretary Ridge are fighting over the same manpower. 
Last weekend with the orange alert, all our Guard was 
committed, all our Reserves are committed, so the poor 
Governor, he had to put parole officers around the Port of 
Charleston.
    You cannot have 12 peacekeeping commitments, a war in 
Afghanistan, and a war in Iraq, and these long commitments, 
because what we are teaching them hereafter this engagement is 
that they will not be able to afford to serve in the Reserves, 
they will not be able to afford to serve in the Guard, but most 
particularly, Mr. Secretary, get this Administration to ask not 
just for the money, but how to pay for it.
    The people of America are ready to sacrifice; they are 
ready to pay for this. I know Karl Rove thinks you need a tax 
cut in order to get reelected, but this is an embarrassment to 
this Senator. I have been in government for 50 years, and what 
you have me doing is telling that grunt, ``We want you to go 
into battle, and we hope you do not get killed, and the reason 
we hope you do not get killed is we want you to hurry back so I 
can give you the bill. This generation, this Congress, this 
Administration is not going to pay for it. We need a tax cut so 
I can go to Disney World.'' Now that is outrageous nonsense.
    So just do not ask for the money; please hurry up and 
submit how you folks think we ought to raise the revenue and 
pay for the war. Now is the time for the sacrifice.
    Secretary Rumsfeld. Senator, on the people piece of it, you 
are right. The Guard and Reserve folks do a wonderful job, and 
they are critically important to the total force concept, and 
there are times when the call-up occurs, that some of the 
people in the call-up are people who do police work, or they do 
fireman work, and various things that the homeland security 
people would like to have.
    Two things we are trying to do in that connection: One is, 
we are trying to get people in uniform out of jobs that are not 
military tasks. There are so many people, men and women in 
uniform, who are doing functions all across this town, and 
around the world, that are not truly military activities, and 
we can fix that.
    Second, we need authority, additional authority, so that we 
can, in fact, contract out to civilians to do certain 
functions. We have a terrible time, for example, trying to hire 
security people in the United States to protect various aspects 
of bases. We are required, to some extent, to use military 
people, or at least have been over a period of time, and to the 
extent we can get military people doing things that involve our 
core competence, and not being required to do things that are 
not core competencies of the military, we will be a lot better 
off.
    Senator Hollings. Thank you, Mr. Chairman.
    Senator Cochran [presiding]. Senator Gregg.
    Senator Gregg. I thought we were recognizing on the basis 
of seniority, which would put Senator Shelby before me.
    Senator Cochran. I assumed you were senior, but you are 
not.
    Senator Shelby.
    Senator Shelby. Thank you.
    Mr. Secretary, Secretary Wolfowitz and General Myers, I 
will be brief, but I want to commend you, all of you, for what 
you have done, what you are doing, and for your leadership. I 
do not believe you have asked for a blank check. You have been 
specific. You have asked for flexibility, and you have asked 
for resources you need.
    I think that we need to give you all the resources, Mr. 
Secretary, to prosecute and win this war. We should not even 
blink. We should give you the flexibility that you need to 
finance and conduct this war.
    As you said clearly in your statement, there are a lot of 
unknowables here. You do not know everything. There is no way 
to know everything, but the least I believe this committee can 
do, is to expedite the supplemental as fast as we can, to make 
sure that you have the resources to do what you do best.
    That is all I want to say. I am here to support you.
    Secretary Rumsfeld. Thank you very much, Senator Shelby.
    Senator Cochran. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Mr. Secretary, I do not think either you or anybody at the 
White House, or it certainly was not the impression given at 
our meeting we had at the White House with the President and 
the Vice President a couple days back, no one has any question 
but that you will get the money for the troops in the field. We 
all know that. The question is, how much, when, and why?
    We have Tom Ridge noted in today's Washington Post that the 
fighting has been a lot more ferocious than planned; it could 
take longer than expected. I think General Myers and the others 
would be the first to say that there is no such thing as a 
military plan where you could anticipate every single 
contingency. It is impossible.
    We know we have the best trained, best equipped men and 
women in our Army, our Air Force, our Navy, and our Marines, 
but there are unexpected things that happen, whether it is a 
friendly-fire incident, or whether anything else. You will get 
the money.

                      WILL MORE FUNDING BE NEEDED?

    What we want to know is: Is this going to go on a lot 
longer than may have been expected? Are you coming back in the 
weeks and months ahead for more fiscal year 2003 money? Do you 
anticipate that you will?
    Secretary Rumsfeld. Senator, the people who looked at this, 
and they looked at the Department of State, the Department of 
Homeland Security, the Department of Defense, the intelligence 
community, and came forward with the best estimate they could. 
Is it going to prove out over the coming months? I do not know. 
Do we believe that it is the best possible estimate at the 
present time? Yes.
    Senator Leahy. I was looking at some of the pictures of 
U.S. aid arriving in Southern Iraq yesterday. I know you are 
committed----
    Secretary Rumsfeld. I could not understand you. I am sorry.

                       HOW AID IS BEING PROVIDED

    Senator Leahy. I looked at some of the pictures of United 
States aid, food, and what-not, arriving in Southern Iraq. I 
know you are committed, the President is committed, General 
Myers, and everybody else is committed to getting aid there. 
Obviously, initially, it was rather haphazard. People were 
grabbing things off a truck, and so on. The desperation is 
obvious.
    Who is in charge of the aid right now? Is it General 
Garner, or is it United States Agency for International 
Development (USAID)?
    Secretary Rumsfeld. First, the aid is coming in in a 
variety of different ways. It is coming in directly with 
military forces, coalition forces, as they go into the country, 
are bringing food. They are bringing water that is available 
for people. There is not, at the moment, any evidence, any good 
intelligence that suggests there is a humanitarian crisis in 
that country.
    The people have been given extra rations over a period of 
months now, and the estimate has been that they have somewhere 
between 2, 4, or 6 weeks of food, many of the people in the 
country.
    Next, the food aid is then coming in through international 
organizations. World Food is bringing food in. The British have 
a ship standing off the port ready to bring in food, 380 tons 
of food.
    Senator Leahy. I do not question that, Mr. Secretary, but 
my question is this, some of the same people who are in the 
ships staying outside say, of course, they cannot move until 
security is adequate. I mean, who determines that? Who is----
    Secretary Rumsfeld. General Franks.
    Senator Leahy [continuing]. In charge.
    Secretary Rumsfeld. General Franks. It is a war zone, and 
it is a unified command, and it goes right up to him.
    Senator Leahy. Once he determines that there is enough 
security to go in, then who takes over? Is it USAID, or is it 
the military?
    Secretary Rumsfeld. It depends on the portion of the 
country. If it is an area that is not secure, it is obviously 
under the combatant commander and his land forces, General 
McKiernan. To the extent it is an area that is secure, then the 
land component commander would very likely turn to some of 
these nongovernmental organizations, and they would begin 
finding the ability to move in, just as they did in 
Afghanistan, in a secure environment, and provide the kind of 
food assistance, and water, and the like that is available. The 
British are currently running a pipeline from Kuwait into Iraq 
to provide water, for example.

           HUMANITARIAN OR RECONSTRUCTION AID FOR AFGHANISTAN

    Senator Leahy. You mentioned Afghanistan. We have money in 
the supplemental, I noticed, for a road repair project for the 
Afghan National Army, and I believe that is important. There is 
nothing for humanitarian or reconstruction needs in 
Afghanistan. There are thousands of displaced Afghans. I know 
in the fiscal year 2003 budget, there was no request for 
foreign aid for Afghanistan.
    Should there not be something in the supplemental if you 
have all of these hundreds of thousands of displaced Afghans? 
Do you plan to ask for humanitarian or reconstruction needs, 
other than the road and the Afghan National Army?
    Secretary Rumsfeld. That side of the activity in 
Afghanistan is being handled through the embassy and through 
the Agency for International Development (AID). And whether or 
not they requested funds, I just simply do not know.
    Do you know?
    Dr. Zakheim. I am not aware. I do know that----
    Senator Leahy. There is nothing in this budget that I could 
find.
    Dr. Zakheim. Well, I do know--I was just at the donor's 
conference about 10 days ago in Brussels. We are still the 
leading individual country, in terms of donations. There was 
$900 million for 2002 and 2003, combined. We are exceeding what 
we had promised, and we are still very much expending, as we 
promised we would.
    So it is not just a matter of what is in the supplemental, 
Senator; it is what has been requested over the last couple of 
years. These are just additional projects and additional 
activities over and above what we have already committed.
    Senator Leahy. Well, last year, nothing was requested. 
Senator McConnell and I found money and put it in.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much.
    Senator Gregg.

                   WHAT BUDGET FLEXIBILITY IS NEEDED

    Senator Gregg. Mr. Secretary, I was wondering if you could 
review again for us this issue of flexibility and what the 
scope of it is, and why you feel it is important, and the time 
frame that it would--is timed obsolescence tied to it? Is it 
tied to the war, or is it----
    Secretary Rumsfeld. I am sorry. I am having trouble hearing 
you.
    Senator Gregg. Is it a permanent authority, you want, and 
what is the scope of it----
    Secretary Rumsfeld. The authority runs----
    Senator Gregg [continuing]. And why is it important?
    Secretary Rumsfeld. The authority runs to the supplemental, 
and it ends in the fiscal year, as I understand it. The reason 
it is needed is that we have committed a large number of 
forces. They are still flowing into the region. They will be 
used in different ways, depending on decisions made by the 
combatant commander.
    We need the flexibility to move money between services and 
between accounts, so that we could reimburse those people who 
actually expend the munitions. For example, we do not know 
which munitions will be expended at what rates, but we do know 
they are expending munitions at a high rate, and they vary. So 
what we need to do is to be able to have the money, and be able 
to reimburse the services that have used those capabilities. 
The same thing is true with fuel. The same thing is true with 
the timing that they are there.
    To give you an example, we mobilized a lot of Reserves and 
Guard. We are going to be stopping that mobilization at some 
point. The decisions by the Combatant Commander as to what 
forces he wants to have there at any given time, and what 
forces he can flow back to the United States and demobilize, 
are questions that are not currently decided; therefore, one 
cannot know which accounts need to be used for those longer 
periods or for the shorter periods. Therefore, the flexibility 
is absolutely critical, and there is not any way to diagram it 
out.

                   TIME FRAME OF SUPPLEMENTAL REQUEST

    Senator Gregg. Thank you. In the area--you used the term, 
this request reasonably anticipates for what will be needed to 
the end of the year. So I am presuming it anticipates what is 
needed to the end of this war, because I--whatever your time 
frame is, I presume that it is shorter than the end of the 
year.
    Secretary Rumsfeld. No, sir. There is anticipated that 
there will be costs after the kinetic aspect of the war ends, 
and what numbers of forces would be needed would depend on a 
variety of unknowables, how many other countries will offer 
forces and assist, how many other countries will offer 
financial assistance, how long will it actually take, as you 
bring down the number of forces that are there for the combat 
portion and assist in the stabilization, and the transition to 
an Iraqi national authority.
    Depending on how the war ends, it could affect how long a 
stabilization period there would be. So it is entirely possible 
that--I do not know in your using the word ``war'' you meant 
the entire process, but I assumed you did mean the entire 
process, and, therefore, I would think there would be costs 
next year that would relate to Iraq that would run into the 
next fiscal year.
    Senator Gregg. I was more focusing on the conflict period 
versus the reconstruction period, but I appreciate the answer.
    To what extent will the revenues that might be energized 
from the oil that is there be used to reimburse the costs of 
reconstruction?

                    RECONSTRUCTION RESPONSIBILITIES

    Secretary Rumsfeld. I do not believe that the United States 
has the responsibility for reconstruction, in a sense. What we 
have is a responsibility to get that country on a path that it 
has a representative Government that fulfills the standards 
that General Myers outlined.
    We want to participate in reconstruction. Other countries 
will want to participate in reconstruction, and the funds can 
come from those various sources I mentioned; frozen assets, oil 
revenues, and a variety of other things, including the Oil for 
Food, which has a very substantial number of billions of 
dollars in it.

                         CEASE FIRE INITIATIVE

    Senator Gregg. Do you expect a diplomatic initiative? I 
understand there is one coming forward from some of the Arab 
states, supported, I guess, by France, and it appears even 
tacitly supported by General Secretary Annan to go to the 
United Nations, and attempt to initiate a cease fire prior to 
our believing it is in the interest of our forces to have a 
cease fire? Do you expect that type of diplomatic initiative to 
occur? And if you do, or anything similar to that to occur, 
what is your reaction to it?
    Secretary Rumsfeld. I have no idea what some country might 
propose, but there is not going to be a cease fire.
    Senator Cochran. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman, and to 
you, Mr. Secretary and General Myers. Like my colleagues, I 
want to express our support to you, and to the troops who are 
fighting, and in harm's way today.
    That essentially takes me to my question, because I want to 
support them not only with words, but with deeds, to make sure 
that they have the best weapons and the best support that they 
can. This then takes me to morale, to pay, and to military 
families, which I am not sure is in the supplemental; we are 
taking a look at it.

           HELPING MILITARY FAMILIES AND MOBILIZED RESERVISTS

    Mr. Secretary, we face a very significant issue in the 
sense that as we mobilized our active duty, we mobilized our 
Reserve, and our National Guard, and since September 11th, 
those units have been mobilized more frequently and for longer 
periods of time, and many right now are in the desert sands of 
Iraq.
    My question to you is that the families, because the 
families are facing hardships--we are now hearing stories in 
Maryland of a small-business man who because he has been called 
up so many times, and is now overseas, they have had to close 
their business; they have gone through their education funds; 
they are now living with parents and relatives. And I could go 
through any number of case examples, where, as National Guard 
people and Reserves, they were prepared to be called up, they 
were prepared to serve their country, but they were not 
prepared to be a part of a regular force called up several 
times, some three to five times since September 11th, and be 
away from their homes for more than 200 or 300 days.
    My question to you is: What is the United States Government 
and the Department of Defense doing to think about how to help 
those military families? We are working to close the gap in 
supporting the regular forces. We agree, no marine, soldier, or 
sailor's family should ever have to even think about being on 
food stamps again, but we are now facing that problem with the 
National Guard and with reservists, and I really seek your 
advice, I seek your assistance, and you may seek my support to 
deal with this compelling issue.
    Secretary Rumsfeld. Thank you, Senator. There is a 
substantial amount of money to pay for required military and 
civilian personnel in this supplemental. Normal pay and 
benefits, of course, are in our annual budget, but the 
supplemental is important, from that standpoint.
    There is one other thing I should say, which is that all of 
these people, of course, are volunteers, and you are right, 
some of them have been called up more often than others, and 
the reason for that is two-fold. In some cases, a lot of people 
have volunteered to be called up. They have said, ``Put me in 
the front of the queue, because it fits my life, I want to do 
it, and I am willing to serve.''
    Others, through decisions that were made decades ago, are 
in activities and skill sets that only exist in the Reserves, 
and we have to fix that. Those people keep getting called up 
every time there is a Kosovo, or a Bosnia, or an Afghanistan, 
or a----
    Senator Mikulski. Well, while we are fixing that, though, 
what about the fact that, again, if they have been called up 
frequently, or for long periods of time--and, again, no one is 
talking about shirking duty. They know when they joined the 
Guard or stayed with the Reserves that they could be mobilized. 
But what about the financial gap facing families? Have we 
looked at that?
    Dr. Zakheim. In fact, that is why we have $3.8 billion in 
this supplemental for the Reserves, another $3.1 billion for 
the Guard.
    I do know exactly what you are talking about. My neighbor 
around the corner has three kids. The oldest is five. My 
neighbor has been away for a year, and he almost went away for 
two, but he is exactly in the kind of specialty that the 
Secretary was talking about, things like civil affairs, some of 
the medical specialties.
    Those are things that if we do not have in the Reserves, we 
just cannot do. We will not have the capability, but----
    Senator Mikulski. But what do you have in there to help his 
family?
    Secretary Rumsfeld. As I said, we have, for the mobilized 
Reserve forces, $6.9 billion.
    Senator Mikulski. But would you be looking at, say, extra 
money for people who have been serving more than 200 days, more 
than 400 days?
    Secretary Rumsfeld. I would have to get you an answer for 
that for the record.
    [The information follows:]

    The DOD's supplemental request includes $6.9 billion for 
reservist pay and allowances. Included in this amount, above 
the reservist basic pay, are several other benefits, such as 
Family Separation Allowance (FSA), Imminent Danger Pay (IDP), 
and health benefits for the mobilized reservist and their 
families. FSA currently averages $100 per month and IDP 
currently averages $150 per month.
    The DOD's supplemental request does not include extra money 
for reservists who have been serving more than 200 days, more 
than 400 days consecutively. On October 8, 2001, the Department 
suspended certain PERSTEMPO management processes in the 
national security interests of the United States. The 
accumulation of deployed days for the purposes of determining 
eligibility for high deployment per diem (HDPD) was suspended. 
The HDPD accumulation period started on October 1, 2000, and 
this suspension was effective before any individual could 
possibly have accumulated the minimum of 401 days out of the 
preceding 730 days to be eligible for payment of HDPD. By 
policy, the Services continued the tracking and reporting 
requirements.

    Senator Mikulski. Because I think we need both the money 
and a framework for doing it, while dealing with the long-range 
issues of skill sets that the Secretary has indicated. Be 
careful with contracting out, Mr. Secretary.
    Senator Cochran. Senator, your time has expired.
    Senator Mikulski. I had a rent-a-cop defending my office, 
and he was asleep from 10 o'clock every morning until 
lunchtime. I hope National Security Agency does not face what 
we did.
    Senator Cochran. The Senator from Texas.
    Senator Hutchison. Thank you, Mr. Chairman.

               MILITARY CONSTRUCTION IN THE SUPPLEMENTAL

    Mr. Secretary, as chairman of the Military Construction 
Subcommittee, I am, of course, interested in that part of your 
request, and I do understand the need for flexibility. I want 
you to have that, because I know that you might not be able to 
anticipate an added runway, or a taxiway, or an apron, and you 
need to be able to do something quickly, and pay the foreign 
government, if that is the case; however, I do also want to ask 
that you notify us, and make sure that we do stay in the loop, 
so we know where our military construction dollars are going.
    We have been concerned that maybe the operating and 
maintenance has been used for construction projects, and we 
want to make sure that we are staying on top of the military 
construction needs that you have, and also make sure that we do 
the job right for the military.
    So I am going to submit some questions for the record, 
particularly about some runways, and taxiways, and some aprons 
to make sure that we are current in the request, and also the 
part about the additional temporary facilities at Guantanamo 
Bay. You and I visited Guantanamo Bay, along with Senator 
Feinstein, my Ranking Member, and I thought you did an 
excellent job in a very short time at equipping Guantanamo Bay.
    My question, though, is, should we not start doing 
something more permanent there, if we are going to have the 
need for those facilities, rather than continuing the temporary 
construction of more temporary facilities?
    Secretary Rumsfeld. Well, first, Senator, I am told that we 
have a briefing prepared on military construction with respect 
to this supplemental that should be available in a day or two. 
Second, with respect to Guantanamo Bay, I am so respectful of 
the taxpayers' dollars that I am resisting anything permanent 
down there at the present time, and I have not seen anything 
that has persuaded me that we ought to make dramatic changes.
    We are in the process of trying to have countries that the 
people in Guantanamo Bay are nationals of take some of them and 
house them themselves. And to the extent we can manage the 
numbers, and not get too many people down there, I would feel 
better about the whole thing. So we are working the problem, 
and they have had to make some incremental improvements since 
we were there. They needed more locations that involved 
solitary confinement for hard cases, so that the interrogation 
process would work better.
    Senator Hutchison. Well, we wanted to be very supportive, 
and I know that you are watching the taxpayer dollars as well. 
I just wanted to make sure that we do not keep doing temporary 
things if it is going to be long-term, and we want to do 
everything that we need to do to maintain the security 
requirements for keeping those prisoners.

                             FOREIGN BASES

    My second point would just be--and I do want to see the 
briefing on the military construction part, because we want to 
stay current on that. But we will be working with the 
Department on the foreign military construction part of our 
responsibility, because we are concerned that with all of the 
changes in priorities, and even troop strength in overseas 
basis, that we not obligate dollars that may not be necessary 
even 2 years from now, much less 10, and we will be working on 
that down the road. But I want you to know I am very insistent 
that we know what our foreign needs will be for the long term, 
before we spend fiscal year 2004 dollars, and I think we need 
to start looking at our foreign base changes, in light of a 
potential 2005 base realignment and closure (BRAC) in America, 
in case we are bringing troops home that would not have been 
anticipated a year or so ago.
    Secretary Rumsfeld. I agree completely. There is no 
question but that we are looking at our global footprint. The 
world has changed. We are going to be making adjustments in our 
bases here in the United States, and we certainly are going to 
be making adjustments in our bases overseas, and it is 
important that we not pour a lot of money in in this interim 
period prior to those decisions being finalized as to how we 
can best be arranged going forward in this 21st century.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much.
    Senator Murray.

                 RESPONSIBILITY FOR RECONSTRUCTING IRAQ

    Senator Murray. Yes, Mr. Secretary. Thank you very much for 
being here today. The President outlined to the American people 
that the Iraq war and Iraq's future will have broad benefit for 
our country and for the Middle East, and your comment a moment 
ago about our responsibility to reconstruct Iraq sort of 
puzzled me. Does not the President's larger objective for the 
Middle East, and for our relations with the Muslim world and 
for the war on terrorism require us to have a long-term 
commitment to reconstruction in Iraq?
    Secretary Rumsfeld. Sure. I hope I did not say anything 
that left the contrary impression. There is no question but 
that I was referring to the military side. We feel we need to 
stay there as long as it is necessary, but not any longer. 
Conversely, if you talk about the United States and the 
international community, we have to have an interest, and we 
have to see that that country gets put on a path towards some 
sort of representative government and that it is not going to 
threaten its neighbors.
    There is no question but that if that is successful, as I 
believe it will be, that the economic circumstance in the 
region will be vastly better for Turkey, for Jordan, and for 
the other countries in the region.
    Senator Murray. Your term of putting it on a path concerned 
me. It sounded like we are going to put it on a path, and walk 
away.
    Secretary Rumsfeld. No. No. I do not mean to suggest that 
at all.
    Senator Murray. Well, then, are we working with the 
coalition of the willing, however, 60 countries, whatever, 
involved, to get these countries to join the American taxpayers 
in paying for this reconstruction?
    Secretary Rumsfeld. We are, indeed. Dov Zakheim has been 
our, kind of, the lead person in helping to raise money, and 
not just money, but in-kind contributions, and he has worked 
hard on it, and the Department of State has worked hard on it. 
They are sending out cables, and responses are coming in, and 
nations are stepping forward.
    Senator Murray. Are we going to work through the United 
Nations to get those commitments?
    Secretary Rumsfeld. I have no doubt in my mind that the 
United Nations will have a role. I just do not know what it is. 
I know that France has indicated they would prefer that the 
United Nations not have a role, but I do not know what that 
would mean.
    Senator Cochran. Do you want to comment?
    Dr. Zakheim. Yes. We have already--I am working alongside 
my counterparts, Alan Larson, at the State Department, the 
Under Secretary there, and Under Secretary John Taylor of the 
Treasury, and senior officials at AID and other departments. We 
are working together, reaching out to a number of countries who 
have been very positive about their willingness to contribute 
to reconstruction after the conflict.
    We do not know, as the Secretary just said, where the 
United Nations will be on this, but our intention is to reach 
out, not just to individual countries, but to international 
financial institutions, to the European Union (EU), basically 
to anyone who is willing to help.
    Senator Murray. I appreciate that.

                      NEW HEALTH CARE TECHNOLOGIES

    Let me ask you another question. We have seen a lot of the 
news reports about the new health care technologies that are 
being deployed in Iraq, and I think that is very impressive to 
many of the families who are watching their sons and daughters, 
spouses, over there. Can you talk about some of those new 
health care technologies, and specifically whether this 
supplemental request contains sufficient funding to speed care 
for our military?
    Secretary Rumsfeld. I do not know what is in the 
supplemental on that subject. I know that the Armed Forces have 
made significant progress in a variety of different ways. 
Number one, of course, and the most important, has been the 
ability to remove people from the battlefield very promptly and 
get them into an environment, health care environment that is 
as fine as can exist.
    A second thing they have done is they have made advances in 
techniques that can be used on the----
    Senator Murray. I was talking about the technologies, the 
new technologies.
    Secretary Rumsfeld. Here is one--the skin exposure 
reduction paste is an example. We could provide you a list of 
some of these things that have been done.
    [The information follows:]

    The following new medical care products have been introduced into 
the theater in support of Operation Iraqi Freedom:
  --Oxygen Generation.--Two products with pressure swing absorption 
        technology were procured to reduce the sustainment and 
        transportation requirements for medical grade oxygen.
  --Hemostatic Dressing (Fibrin Bandage) and Chitosan Bandage.--These 
        two separate bandages, which use differing technologies, 
        provide a means to control hemorrhage early, far forward near 
        the point of injury.
  --Portable, Hand Held Ultrasounds.--The rapid reduction in size and 
        weight of this diagnostic tool allows it to be deployed farther 
        forward (Forward Surgical Teams) thereby enhancing medical 
        diagnosis, sometimes avoiding surgical or invasive 
        interventions.
  --One-handed Tourniquet.--This simple, ratchet tourniquet will allow 
        the injured soldier to self-control bleeding.
  --Litter for Surgical Transport and Treatment (LSTAT).--This platform 
        has had limited deployment to provide state of the art, life 
        support functions during longer evacuation legs.
  --Skin Exposure Reactive Protectent Against Chemical Warfare Agent 
        (SERPACWA).--This cream provides additional barrier skin 
        protection on those areas of the body with the highest risk of 
        exposure to persistent chemical agents.
  --Computed Radiology.--This technology allows for digitization of 
        radiographic images to alleviate the need for x-ray film 
        processors, chemical developers, and film, plus adds the 
        ability to do remote diagnostic consulting. This includes 
        products for medical and dental x-rays.
  --Warmer Blankets.--These new blankets provide improved temperature 
        regulation of patients.
  --Chem-Bio Analyzers.--Two levels of analyzers were procured to 
        support echelons of screening for the existence of chemical and 
        biological agents.
  --Hetastarch.--This volume expander provides life supporting 
        resuscitation at the point of injury or anywhere along the 
        patient evacuation.
  --Medical Informatics--Medical Communications for Combat Casualty 
        Care (MC\4\) (ASPB).--Several software packages coupled with 
        applicable hardware have been fielded to provide patient 
        encounter data (digitized patient record), medical surveillance 
        and trend analysis, and basic logistical automation (set 
        management and orders).
  --Quick Clot Hemorrhagic Bandage.--To stop uncontrolled bleeding, 
        included in a new first aid kit for the Field corpsman (14,000 
        of these dispensed in theater).
  --Forward Resuscitative Surgical Systems (FRSS).--Mobile, small 
        footprint surgical systems that allow for immediate, 
        stabilizing surgical capability in the forward combat areas (6 
        of these systems currently in theater).
  --Enroute Care Capability.--These systems are integrated into Marine 
        Corps ground vehicles or aircraft to allow for the seamless 
        transfer of patients from the field or the FRSS to a higher 
        echelon of care (24 complete systems in theater).
  --Digital Radiology.--Alleviates the need for x-ray film processors, 
        film, chemical developers, etc. Images can be loaded on a 
        laptop for viewing or for transmission to the rear for 
        specialty consultation (Marine Corps has 40 of these units--12 
        are currently in theater).
  --Polymerase Chain Reactors (PCR's).--A new application of an 
        established technology that is being employed on the carriers 
        for Biological Agent Identification (one per carrier).
  --Dental Back Packs.--Lightweight, mobile, small footprint equipment 
        sets that allows for acute dental care to be provided in a far 
        forward setting (30 of these in theater).
  --New NBC litters.--New Tri-fold portable mesh litters that allow for 
        decon to be conducted on the litter (Marine Corps has 2000 in 
        theater).
  --POGS.--New Patient Oxygen Generation Systems being utilized by the 
        Marine Corps in the field setting to reduce the sustainment and 
        transportation requirements for containerized medical grade 
        oxygen.
  --Angiography Suite.--USNS COMFORT just installed on board. Even 
        though this is not necessarily new technology, it is a new 
        capability that is being studied in the hospital ship setting.
  --WHSQ Antenna (T-1 Connection).--Installed aboard USNS COMFORT. Not 
        necessarily new technology, but new capability that will 
        enhance the ability of the hospital ship to communicate with 
        the fleet and the field units and enhance the capability of the 
        ship to consult through telemedicine technology.
  --Hand Held Ultrasounds.--A new capability that is being used aboard 
        USNS COMFORT as a diagnostic tool.
  --CHCS-NT and SAMS.--Preloaded (new capability), onto Deployed Fleet 
        Hospitals, prior to deployment to augment their ability to 
        manage their patients in the field. This is related to 
        clinical, pharmaceutical, blood program, and laboratory 
        applications. In addition, a new capability that was provided 
        to the Fleet Hospitals was the software for TRAC\2\ES which 
        allows the tracking and entering of patients into the medevac 
        system.
  --Hand-held Biological Warfare Detection Assays.--Capable of 
        detecting more than 20 different agents. Assays were 
        subsequently provided to field units and transitioned to DOD 
        for the Joint Program Office for Biological Defense. Its 
        anthrax DNA-based assays have become the national standard, 
        used by the CDC and the Laboratory Response Network for 
        Bioterrorism.
  --Sophisticated Biological Warfare Detection Laboratories.--Installed 
        on large Navy ships supporting Operation Iraqi Freedom, and 
        installation of basic labs aboard all Navy ships in the area. 
        This accounts for the majority of bio-detection capability in 
        the area. Training programs, analysis plans, doctrine and 
        procedures were also developed to appropriate use of labs.
  --Expeditionary Surveillance Modules with Integration.--Being used at 
        AFMS EMEDS locations.
  --Advanced diagnostics (microarray chips and PCR probes).--The RAPIDS 
        units are deployed with the 10 Biological Augmentation Teams 
        not necessarily with EMEDS units--microarray chips purchased 
        and coming for DT&E testing very soon (also includes part of 
        the SARS Corona virus).
  --IM/IT Improvements.--The USAF deployed specialized IM/IT trouble 
        shooting teams. Help Desk support was enhanced for current 
        operations.
  --TRANSCOM Regulating And Command & Control Evacuation System 
        (TRAC\2\ES).--A patient movement system that is currently 
        deployed.

    Senator Murray. All right. I would appreciate that. I would 
like to know what is in the supplemental on that.
    One final comment in my last few seconds here. I think we 
are all very disturbed by the images of the prisoner of war 
(POWs), and I know their families here in this country are 
really--there is a lot of anxiety, and I really want to urge 
you to communicate with these families, stay in touch with 
them. I know you are doing some of that, but I think that is 
extremely important. But I just wanted to ask quickly if you 
could update us on the efforts by the International Red Cross 
to see these POWs, and whether or not we have had any progress.
    Secretary Rumsfeld. I do not know what the status is of the 
International Red Cross's ability to get access to our POWs. I 
know that we have contacted the International Red Cross and 
encouraged them to take a look and visit the now more than 
4,500 prisoners of war that have been taken by coalition 
forces, and that are currently in camps in Iraq just behind the 
battlefields.
    Senator Murray. How about our POWs, Mr. Secretary?
    Secretary Rumsfeld. As I say, I do not--to my knowledge, 
the International Red Cross has not yet been successful in 
gaining access to them.
    Senator Murray. I would just encourage you to stay in close 
touch with our families here who are watching news reports with 
a great deal of anxiety.

                CLARIFICATION OF IRAQ CEASE FIRE ANSWER

    Secretary Rumsfeld. Mr. Chairman, may I ask a favor here? 
Since there was--I may have answered an earlier question so 
cryptically, or briefly, that there might have been a 
misunderstanding.
    When Mr. Gregg asked me about the efforts on a cease fire, 
Senator, I gave you a short answer that there would not be a 
cease fire.
    Senator Gregg. I thought it was an excellent answer.
    Secretary Rumsfeld. What I want to just underline, in case 
there is any misunderstanding about that, at some point the war 
will end, and it will end at that point where that regime does 
not exist and a new regime is ready to go in its place. And at 
that point, there will be something of a cease fire. You were 
referring to the suggestions of a premature cease fire, and 
that is what I meant to say that would not happen.
    Senator Cochran. Thank you very much.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.

                      WHAT WILL HAPPEN IN BAGHDAD

    Mr. Secretary, I do not know if this question has been 
asked. I have been at another hearing where I had to preside. 
We keep hearing, and I keep watching, and it is being said that 
we are moving toward Baghdad. We soon will be in Baghdad, and I 
will add to it now, and we will arrive at Baghdad.
    What will happen then? Baghdad is a great big city, is it 
not? What do we do when we arrive at Baghdad? Do we have a city 
six times the size of Basra that we have to do what we did 
there, or what do we expect?
    Secretary Rumsfeld. Well, we have an example of that 
problem taking place right now in Basra. Basra is probably the 
third or the second--third after Mosul, or second ahead of 
Mosul.
    Senator Domenici. I said that, but I said it wrong. I said 
we have already been there, and it is much smaller, and we saw 
what happened there. So now I am asking, what is going to 
happen at Baghdad? Is it going to be similar to that, or some 
other situation?
    Secretary Rumsfeld. It depends on whether the regime is 
still intact, but the answer is that what one has to do is 
first isolate it. There are in the City of Basra, just as in 
the City of Baghdad, there are Shia, and they are not terribly 
favorable to the regime. They have been repressed, and they are 
at the present time in Basra assisting us, and if you think of 
Baghdad as a city of 5-plus million people, and you think of 
the population of Shia, and there are probably 2, 2\1/2\, maybe 
3 million people of the 5 or 5\1/2\, the regime has tended to 
be fearful of them and repress them. And my guess is that what 
we will see are these death squads, the regime death squads, in 
Baghdad, doing what they are doing in Basra.
    They will very likely have weapons out. They will shoot 
people who try to surrender. They will shoot people who try to 
assist, and we will go through a period where we have to deal 
with that problem. We will put in strikes as necessary. We will 
undoubtedly get assistance from people inside the cities, and 
we will attack them, and subdue them.
    Senator Domenici. So when it is said that it might take 
considerably longer than expected, it might be that it is that 
kind of thing that we are talking about; how do you get from 
the outskirts of Baghdad, through the outskirts, to where you 
want to be to eliminate the regime? That is what might take a 
long time, is that correct, Mr. Secretary?
    Secretary Rumsfeld. It could take some time. The forces, 
the coalition forces have moved from outside the country to 
within 50 miles of Baghdad in a week. The progress has been 
substantial. They now have to face the more difficult forces, 
the Republican Guard, and then the next phase after they have 
been destroyed or surrender will be to deal with Baghdad.
    Senator Domenici. Well, I am complimenting you. They moved 
fast, and moved quickly. I am suggesting that my observations, 
just as a halfway-informed citizen, is that once you have 
arrived at Baghdad, that will probably go slower, but let us 
just leave that alone. You have answered as best you can, and I 
thank you for it.

                     IRAQI REPUBLICAN GUARD FORCES

    I am wondering about the so-called Republican Guard. 
Incidentally, as a Republican, I wonder why they call it that. 
I had to tell some of my children that they were no kin of the 
Republican party.
    In any event, let me ask, with reference to the two major 
Iraqi divisions, I have heard and seen evidence that they are 
not conducting themselves the way they did in the first war 
during Desert Storm. They are not taking a position with 
armored tanks and moving on American Forces with a great number 
of tanks. They are isolating the tanks and putting them in 
shelters, and the like.
    My question is, are we going to be able to fight those 
divisions in a major manner, or are we expecting that it will 
be all broken up in pieces, and which would be better for our 
men and women?
    Secretary Rumsfeld. Well, Dick Myers, you may want to 
answer it. But I mean, the first choice is for them to be 
moving. They are easier to get at. At the present time, they 
have tucked back towards Baghdad somewhat, but now they are in 
deployed positions, as you indicated. And what will happen is, 
they will get degraded from the air, and then attacked by 
coalition forces.
    General Myers. I do not know if we should go into much more 
operational detail, but the Secretary is exactly right. They 
are dispersed. They are dug in, for the most part. When they 
move, we try to hit them. We are bringing a lot of force 
against them to include our Apaches and our fixed-wing air, 
having some effect, we think, in degrading their combat 
capability. And at some point, at a time of our choosing, we 
will engage them, and we will see what kind of fight they have.
    Senator Domenici. Mr. Secretary, could I just say with 
reference----
    Chairman Stevens [presiding]. Senator, your time has 
expired. I am sorry to tell you that. I have just received word 
from the White House that they are expecting the Secretary to 
be there.
    Mr. Secretary, Mr. Kohl was bypassed by me by mistake. I 
would hope that you would answer Senator Kohl's questions, and 
then we will terminate your appearance, and continue to have 
the hearing with Secretary Wolfowitz and Secretary Zakheim.
    Senator Kohl. Thank you, Mr. Chairman.

                         IRAQ RELIEF OPERATIONS

    Mr. Secretary, as Ranking Member of the Agricultural 
Appropriations Subcommittee, I have concerns about the lack of 
specificity in the supplemental request for food aid to the 
Iraqi people. There is $8 billion for relief, but the request 
is vague about how that $8 billion will affect ongoing food aid 
efforts, including our work in Africa.
    The World Food Program has said that providing assistance 
to Iraq could well turn into the largest humanitarian operation 
in history. While I understand that supplies have started to 
trickle in, I would like to hear more about our plans to 
address this crisis.
    Given the resistance that has been encountered so far in 
Iraq, and the problems with the weather, are we concerned, Mr. 
Secretary, about a humanitarian crisis, as the United Nations 
seems to be? And, if so, do we have backup plans if the 
resistance continues, and food and water shortages become 
critical?
    Secretary Rumsfeld. Well, sir, we do not have any 
intelligence that would fit the words you have used of ``crisis 
and critical,'' but there is no doubt but that there are places 
where the water is not right, where some lines have been 
broken. And we have trucks going in providing water, and the 
United Kingdom has put a water line from Kuwait into the port, 
and they are bringing water in.
    The number of refugees has been very, very small. There 
have been--people have speculated it could be a humanitarian 
disaster, and hundreds of thousands, as in previous times. Thus 
far, the numbers are very, very small.
    Second, with respect to food, the question you raise is not 
part of our supplemental. It is part of the Department of 
State's, I believe, supplemental, and I would have to leave the 
answer there.
    But the forces, coalition forces have brought food and 
water and medicine in. The fighting forces have brought food 
and water and medicine in from day one. As each area is 
pacified, and made more secure, additional food and medicine 
and assistance is flowing in.
    I think that to suggest that there is a humanitarian crisis 
at the present time, I think, is not something we have been 
able to find any intelligence to support.
    Senator Kohl. Well, I am glad to hear that, and, of course, 
we all hope, indeed, that that turns out to be the case.

                      INTERNATIONAL CONTRIBUTIONS

    Mr. Secretary, in the first Gulf War, as you know, 80 
percent of the dollar costs were paid by our allies, and we are 
hearing constantly and happily every day about more and more 
countries joining our coalition. The supplemental request 
includes $1.4 billion to help our coalition partners, but there 
is no detail on what their contribution to this effort may be. 
Do you have any comment on either what has been contributed or 
what you would hope will be contributed to this effort?
    Secretary Rumsfeld. There is a long list of countries that 
have made contributions in terms of forces, and ships, and 
medical supplies, and food, and various types of assistance. I 
do not happen to have it with me, but it is a long and growing 
list.
    Second, there will be a donors' conference that will go out 
and solicit funds from other countries. You are quite right; a 
major portion of the Gulf War in 1991 was paid for. One of the 
principal countries was the country that had been invaded, 
Kuwait. A second country was Japan. I am sure that other 
countries will be making contributions. Dr. Zakheim has been 
kind of a lead person soliciting.
    Senator Kohl. I thank you.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you.
    Mr. Secretary, thank you, and General Myers, thank you. I 
have been informed that the reenlistment rates are up. I think 
that is a testimony to the leadership that you are providing, 
and your men and women in uniform are providing. You have 
inspired our younger generation to volunteer in such great 
numbers. Thank you very much.
    With your permission, we will continue on with Secretary 
Wolfowitz and Secretary Zakheim. There are Senators who have 
not had their questions answered yet, and it is my intention to 
continue through until all of those get a chance to have their 
questions answered.
    Senator Murray. Mr. Chairman, can we ask if Secretary Ridge 
is going to be returning here?
    Chairman Stevens. I was just going to go into that. 
Secretary Ridge has a meeting downtown. He will be coming back 
at 3:30 p.m. We have a series of votes starting at 2 o'clock, 
so it will be my intention to ask Secretary Wolfowitz and 
Secretary Zakheim to stay here now to answer the questions of 
the five remaining Senators, and then we will recess until 
after the votes that take place. I think that will be 
approximately the time that we will have Secretary Ridge 
returning at 3:30 p.m.
    Senator Feinstein. Mr. Chairman?
    Chairman Stevens. Yes, ma'am.
    Senator Feinstein. I would just like the Secretary to know 
that 95,000 of the troops serving in Iraq at this time are from 
California, and I want you to know that I have not had a single 
complaint from anyone. I am beginning now to sign the letters 
and learn about those who have been killed. I must tell you, it 
is a very emotional experience to do that, but I am very proud 
of the Californians. I believe by far it is the largest 
complement of Americans over there, and I just wanted you to 
know that.
    Chairman Stevens. Thank you very much.
    Thank you very much, Mr. Secretary----
    Secretary Rumsfeld. Thank you, Mr. Chairman.
    Chairman Stevens [continuing]. General Myers.
    General Myers. Thank you, sir.
    Chairman Stevens. Secretary Wolfowitz, we welcome you at 
the table. The next person, I believe, is Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.
    I must, in the tradition of the Senate, point out that the 
State that has the largest percentage of its Reserves called up 
is the State of Utah. We are equally as grateful for the kind 
of leadership you have provided.

                        HOW COSTS WERE ESTIMATED

    Now, Mr. Secretary, I know that if you ask for a specific 
number on the cost of this war, the answer is that that is 
unknowable. Things are constantly changing, and they are 
constantly in flux, but you came up with a number which was the 
basis for the White House's request. Can you give us just a 
quick glimpse into the methodology of how you came up with this 
estimate, what things you took into account to try to give us 
the most accurate guess you possibly could?
    Dr. Wolfowitz. Let me try to do it, and I think General 
Cartwright may be able to help me on this, but it is a very, 
very complex process that involves an enormous amount of 
judgments by individuals, very frequently military judgment, 
based on what they know from past experience, based on what 
they can guess. And I emphasize it is a guess from examining 
General Franks' plan as to what kinds of forces might be 
needed, how long they might fight, how many targets they might 
have to destroy, what the requirements for stabilization 
afterwards might be, and it is such a complicated and diverse 
process that it comes back to the point about why it is so 
important to have flexibility.
    In each case, you are making a guess, you may be making a 
guess at how much you are going to have in additional pay for 
Army forces or Marine forces. You will be making a guess at how 
much money you are going to need for precision-guided bombs for 
the Air Force, or how much money you are going to need for fuel 
for tanks.
    Some of those guesses are probably going to be high, and 
some of them are probably going to be low, and if you do not 
have the flexibility to move money from the accounts where you 
have overestimated into the accounts where you have 
underestimated, the net result is you are going to have to come 
in with a much higher number. And the reason we feel reasonably 
comfortable that this is a number that gets us through the end 
of the year, although even that you cannot say with confidence, 
is because we believe that the Congress will give us that 
flexibility to move from one account to another.
    In no way is this an attempt to try to evade the Congress's 
absolutely appropriate requirement for oversight. All of this 
money is going to be spent for the purposes which are very 
clearly identified, in support of a campaign plan which, on a 
classified basis, we can brief you in some detail. But at the 
end of the day, there is a great deal of guesswork and sound 
military judgment that has to go into calculating things like 
ammunition expenditure rates, or tank miles for a combat 
engagement, or how many combat engagements there will be. And 
that kind of guesswork is inevitably going to be high in some 
cases, and low in others, and sometimes it will hit it just 
right on the mark, we hope more often than not.
    Senator Bennett. Well, not to trivialize what you said, it 
sounds like what you learned in statistics class in college 
about the law of compensating errors.
    Dr. Wolfowitz. It is exactly that, Senator.
    Senator Bennett. Guess one high, and guess one low, and I 
think you have made a case for the flexibility.
    Thank you, Mr. Chairman. That is all I have.
    Chairman Stevens. Thank you.
    Senator Dorgan.

                     TIMING OF SUPPLEMENTAL REQUEST

    Senator Dorgan. Mr. Chairman, thank you. Mr. Secretary, 
there are many uncertainties in the appropriations process in 
Congress, but I think the one certainty, now especially, is 
that when we send our soldiers to war, Congress is going to 
provide the resources that are necessary. I say that only 
because the Secretary testified that because of difficulties in 
this regard he needs additional authorities. Senator Byrd has 
made a valid and very important point about that.
    My sense is that, for example, the request for $62 billion 
in supplemental appropriations, and the request that we 
complete our work on this in 2 weeks and send the bill to the 
President for signature in 2 weeks, is a suggestion that no one 
really needs much additional authority. The Pentagon just needs 
to determine what the costs are reasonably, send them to us, 
and they will see a Congress that is willing to support the 
troops in the field.
    The choice of when you have sent to us a supplemental 
request was yours. You have apparently spent $30 billion out of 
the $62 billion already. I was wondering why 2 months ago, or 3 
months ago we might not have seen a request, because the lift 
of the soldiers halfway around the world is extraordinarily 
costly, but you all have decided for your reasons--and they are 
satisfactory to me, by the way--to ask us for this request now, 
and I think the Chairman has said we will try to make sure this 
is done in 2 weeks.
    My point is that, I think whether it is 2 months from now 
or 10 months from now, if you have additional needs, and send 
us an additional request, I believe Congress will respond 
expeditiously to that, without the authorities that are being 
requested, unwisely in my judgment, along with the 
supplementals.
    So is there any reason to suspect that you will need the 
authorities because you would not receive the appropriate 
response from Congress to support the resources needed by our 
troops?
    Dr. Wolfowitz. I think we know that the process of 
appropriating a supplemental is a time-consuming and difficult 
process. I must say I appreciate very much, I know the troops 
in the field appreciate very much, the obvious willingness that 
Congress expressed very clearly today to support them and to 
try to move this as quickly as possible, so the funds can be on 
the way.
    It is a cumbersome process. It does not lend itself to the 
kinds of immediate requirements for funding, to pick some 
examples from last year, as the Secretary mentioned, to train 
the Afghan National Army. I mean we lost real time in getting 
the Afghan National Army stood up and trained, which is a 
critical function to helping our people get out of their tasks. 
We certainly do not want to see that slow up when it comes to 
discovering that we may have overfunded a personnel account, 
but underfunded an account for bombs and bullets.
    The Congress really has full transparency. And on a 
classified basis, as I said, we are happy to go through line by 
line and tell you what our guesses are, but they are 
fundamentally guesses and will come out more or less in the 
right ballpark. If we do not have the flexibility to move from 
one account to another, we are going to need a much larger 
total sum of money.
    Senator Dorgan. I understand that some of these are very 
difficult to predict, but my point was that $30 billion of the 
$62 billion has been expended. I mean I think Congress would 
have been willing 2 months ago, for example, to have begun a 
supplemental. But having said all that, I think----
    Dr. Wolfowitz. Senator, just to be precise, it is expended 
or obligated. It includes in the $30 billion, for example, the 
estimates of the costs of bringing troops back, but we do not 
know exactly which troops are going to come back, or in which 
sequence. We do not know whether it is going to be an Air Force 
account, or an Army account, or a Marine account. So even 
within that $30 billion, there is a fair amount of guesswork 
going on.
    Senator Dorgan. I understand. So that is not necessarily 
expended, expended or obligated, you are saying.
    Dr. Wolfowitz. Correct.
    Senator Dorgan. But let me make----
    Dr. Wolfowitz. I think ``committed'' actually was the word 
we used.
    Senator Dorgan. Let me make the point that I think Congress 
is going to provide whatever you need to do your job on behalf 
of the American soldiers that are committed. I am just telling 
you as one member of this committee, and I think it would be 
expressed by virtually every member of this committee, we are 
going to provide the resources that you need to do this job. 
And the question of additional authorities, and so on, we are 
going to have to work through that, but my own view is that I 
do not think anybody is going to hold you up in resources, hold 
up in terms of time, and we should not do that.

                          IRAQ RECONSTRUCTION

    Let me ask a question about reconstruction. I plan to offer 
an amendment. Regarding our policy on this issue. The Secretary 
said once Saddam Hussein is gone, the United States will work 
with the Iraqi interim authority to tap Iraq's oil reserve, the 
funds that Iraq has, and other Iraq resources to fund the 
reconstruction effort.
    Iraq, I think, has the second largest oil reserves in the 
world, next to Saudi Arabia. I happen to think that the 
reconstruction of Iraq should come from the resources from 
their oil fields. There are plenty of resources there, in my 
judgment, and I would like that to become a part of U.S. 
policy, and would hope to offer an amendment in order to 
accomplish that, and move in that direction. Do you have any 
comments on that?
    Dr. Wolfowitz. I think philosophically we are in 100 
percent agreement. I mean there may be, contrary to 
intelligence we are seeing so far, for example, if we were to 
find the kind of humanitarian crisis that Senator Kohl referred 
to earlier, I would not want that philosophical principle to 
stand in the way of feeding people.
    Senator Dorgan. Yes. I do not mean--I am talking about 
reconstruction now. I view that separately from humanitarian 
aid. I think humanitarian aid is----
    Dr. Wolfowitz. Fair enough. Even on the reconstruction 
piece of it, there may be things that need to be done quickly, 
and speed may require something else, but I think it is very 
important to, as much as possible, establish that principle 
early on that they are responsible for themselves. I mean it is 
a very important point, and it is different in this case from 
our experiences in any other case that I can imagine, and 
certainly the complete opposite of the situation in 
Afghanistan, where that is a country that has no prospect of 
being self sufficient for quite some time to come.
    The people of Northern Iraq, who have been free of the 
Baghdad regime now for some 12 years, thanks to our efforts, 
have managed to be fairly self-sufficient on the 13 percent of 
Iraq's oil revenues that they are allowed. They still operate 
under United Nations sanctions, but they get 13 percent of the 
Oil for Food money. It is not a bad principle.
    Senator Dorgan. My hope is to offer an amendment on the 
policy issue with respect to reconstruction and oil. Thank you 
very much for your response.
    Mr. Chairman, thank you.
    Chairman Stevens. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.

                         SPECIAL MILITARY PAYS

    And thank you, Mr. Secretary, for joining us with your 
colleagues here today. I may be one of the last to ask 
questions. Yesterday, there was a vote on the floor of the 
Senate relative to imminent danger pay, combat pay, as well as 
family separation allowances. The original amendment, which I 
offered, suggested $500 for each, which would have been an 
increase from $150 for combat pay, to $500 a month, and an 
increase on family separation allowance from $100 a month, to 
$500 a month.
    With some negotiations, that was brought down. I was not 
happy with the outcome, but we believe we have arrived at a 
figure of $250 for each, and put provisions in the budget 
resolution for that, and a 100-to-nothing vote in the Senate in 
support of it.
    I raise that issue because others have raised the question 
of quality of life for the families that are affected here. Not 
just the active personnel, but the Reserves and Guard are 
playing a much larger role.
    I would like to ask you whether there is provision within 
this supplemental for that type of an increase, so that we 
could offer imminent danger pay, and an increase in the family 
separation allowance to the men and women fighting, as well as 
those at home waiting for their return.
    Dr. Wolfowitz. There is a considerable amount, I think, in 
the supplemental for special pays. I do not know how it 
allocates among different types of special pays. Do you, Dov?
    Dr. Zakheim. I can get you that for the record. We have 
money for all the various categories of special pay, whether it 
is danger, whether it overseas, all of that.
    [The information follows:]

    No. The funds requested in the supplemental are based on 
current authorities governing Hostile Fire Pay (HFP)/Imminent 
Danger Pay (IDP) and Family Separation Pay (FSA). Current law 
allows $150 per month for personnel serving in a qualifying 
region for HFP/IDP, who would not have otherwise been in that 
region. The estimated incremental cost for HFP/IDP at current 
pay rates for potential military operations to disarm Iraq is 
$370 million. Current law allows $100 per month for personnel 
mobilized and separated from their families. The estimated 
incremental cost for FSA at current pay rates is $246 million.
    After discussions of possible rate increases, the 
Department estimated the cost of increasing the rate for HFP/
IDP to $225 per month retroactively. An increased cost of $261 
million in fiscal year 2003 would be required to support 
mobilized forces. The estimated cost of increasing the rate for 
FSA to $250 per month retroactively would be $564 million in 
fiscal year 2003.

    Dr. Zakheim. To your question, though, obviously, our 
estimates are based on what is current law. Therefore, we have 
postulated the request to the Congress based on what are 
current rates, but we do have them in there. That is actually 
the bulk of the active pay category, because regular pay is 
already in the baseline budget.
    Senator Durbin. I can also add--I am sure that you have 
been contacted by the families who have been activated and 
those who are in combat. Some of them are facing extraordinary 
hardships that we have talked about earlier here. I hope that 
the Chairman, as well as other members of the committee, and 
the Department of Defense will be open to a change in the 
supplemental that will accommodate an increased family 
separation allowance, as well as increased imminent danger pay.
    We can never compensate the men and women in uniform enough 
for the dangers that they are facing. I think this would be an 
excellent show of support from Congress and the American people 
at this important time.

                      FUNDING FOR WAR ON TERRORISM

    May I ask you, Mr. Secretary, when it comes to this 
appropriation request, relative to the war, how much of this 
relates to the war on terrorism? How much of this would have 
been asked for were there no war in Iraq underway?
    Dr. Wolfowitz. There is roughly $6 billion in there that 
covers forces that, particularly things like aircraft carriers, 
Marine forces that are--that we would still need out there even 
if there were no conflict in Iraq.
    Senator Durbin. So roughly 10 percent of it is for the war 
on terrorism?
    Dr. Wolfowitz. Dr. Zakheim is telling me that it is more 
than $6 billion.
    Dr. Zakheim. It is more than that, because the $1.5 
billion, which includes the money for Pakistan----
    Dr. Wolfowitz. Correct.
    Dr. Zakheim [continuing]. And other countries is also 
related to the global war on terrorism. In addition, there is 
about $500 million to replenish munitions that have already 
been expended in the global war on terrorism. So roughly, it is 
the $6 billion that Secretary Wolfowitz was just mentioning, 
plus about an additional $2 billion.

                         ASSISTANCE FOR TURKEY

    Senator Durbin. Another question has been asked of me. Why 
are we giving $1 billion to Turkey, if they were so 
uncooperative?
    Dr. Wolfowitz. They were not nearly as cooperative as we 
had hoped, but I think it is a little unfair to say they were 
uncooperative, and they have become much more cooperative in 
the last couple of weeks. The overflight that we are getting 
from Turkey is enormously important, and while it is true that 
all our other North Atlantic Treaty Organization (NATO) allies, 
even France and Germany, have given us overflight, it is also 
fair to point out that Turkey is the only NATO ally that shares 
a border with Iraq, so we are overflying Turkey with Tomahawk 
Cruise Missiles, with fighter bombers, with B-2s, and most 
importantly, we are flying special forces and airborne troops 
in through Turkish airspace.
    Now, that is not the reason there is $1 billion in there, 
but let me make it clear: The Turks granted us that overflight 
unconditionally. But the view is, and this is now really into--
I am running the risk of explaining a piece of the State 
Department's supplemental, but we have a big stake in Turkey 
getting through this crisis without suffering an economic 
crisis on top of it. And while we would have hoped for a higher 
level of cooperation, Turkey remains a very valuable ally, and 
a country particularly in a period when promoting moderation 
and democracy in the Muslim world is particularly important to 
America's interest. Turkey's success as one of the few 
democratic countries in the Muslim world, I think that is 
important.
    So it is not a payment for something. It is not a reward 
for something. It is a recognition that Turkey, as a front-line 
State, stands to suffer some significant short-term economic 
losses as a result of this conflict.
    But let me say one more thing, especially to those Turks 
that might be listening. This is going to bring a huge economic 
benefit to Turkey in the medium and the long run, and I wish 
they would have recognized that a long time ago.
    Senator Durbin. Mr. Chairman, may I ask one last question?
    Chairman Stevens. Yes, sir. You waited a long time. We all 
remember sitting down at the end of the table, by the way, 
Senator.

              SECRETARY WOLFOWITZ'S EARLIER VIEWS ON IRAQ

    Senator Durbin. Secretary Wolfowitz, much has been written 
about an article that you wrote many years ago with others 
relative to our relationship with Iraq, and whether or not we 
should be engaged in taking out Saddam Hussein as leader of 
that country, and on the issue of the policy of preemption. I 
would like to ask you, now that you have seen what it has taken 
to bring us to the point of this invasion of Iraq, do you feel 
that your rationale, written many years ago, was justifiable? 
And secondly, where does this take us in the future by that 
same rationale?
    Dr. Wolfowitz. We could discuss which particular paper we 
are referring to. I think you are referring to something that I 
never wrote, and, in fact, I never read. It was written by a 
staff member of mine, and it appeared in the New York Times 
before I saw it, but that is the famous 1992 defense planning 
guidance draft.
    On the broader question, my views of Iraq have changed over 
time, and I would never have thought before September 11th that 
the kind of activity we are undertaking would be justified or 
necessary. It is an unfortunate fact of history that had we 
taken stronger actions of a more limited kind over the last 12 
years we would not be facing this problem today, starting with 
the end of the Gulf War, and going throughout most the 1990s, I 
believe, but we are where we are now.
    We have a regime that is an extreme threat to the United 
States, and I think we have learned from September 11th that 
those are threats that you simply cannot afford to live with, 
and fortunately, we have incredible men and women who are 
putting their lives literally on the line to free this country 
from that threat, and in the process, I believe, and this is 
important, they will also free the Iraqi people from a terrible 
regime.
    Some people have commented, ``Well, if that is the case, 
why are not the people of Basra rising up and greeting us as 
liberators?'' And the answer, I think, is increasingly clear. 
It is because Saddam and the regime, whether Saddam is alive or 
not, the regime has its death squads operating in Basra. We 
heard a report that one Iraqi commander who tried to surrender 
or at least not fight, was taken, executed, his head was 
chopped off, and paraded around the city on a pole.
    When you have a regime like that, it takes a little while 
before people get their stomach up to oppose it, but I am 
absolutely sure when it is gone, people will be cheering its 
absence, and we will be the better for it.
    Senator Durbin. Thank you.
    Thanks, Mr. Chairman.
    Chairman Stevens. Senator Byrd, do you have any further 
questions?
    Senator Byrd. Thank you, Mr. Chairman. I do have one 
question.
    Let me preface this question to an unrelated matter that 
was expressed--well, not matter, but expression that was in the 
Secretary's statement, Secretary Rumsfeld. I got the impression 
in listening to his statement, especially the last part of his 
statement, that but for Iraq and its current regime, we would 
not have suffered the events of 9/11. More than once his 
statement alludes to 9/11 in that regard, and indicates that 
the costs of this supplemental, and the costs of other 
supplementals, as necessary, whatever it takes to rid the 
region of Saddam Hussein, are very small in relation, or as 
compared with the costs of 9/11.
    I think it should be stated for the record, at least as far 
as I know to date, there is no indication whatsoever that of 
the 19 hijackers on 9/11, not one was from Iraq, not one. I do 
not carry any grief for Saddam Hussein; but it seems to me that 
it is fair to make that statement on the record.
    Secondly, in response to some of the statements that have 
been made by the Administration's witnesses here, the 
Administration is not limited to one supplemental. And in 
support of the arguments sustaining the requests for additional 
authorities, an extension of authorities here in this bill, I 
say the Administration, if it wants to send up another 
supplemental, Congress will certainly take a close look at it, 
examine it carefully, and we will respond, I think, positively. 
If it is for support of the troops, and for their safety, I do 
not think there will be any delay in that respect.
    So those who perhaps leave the impression that it is 
awfully slow up there on the Hill to get things done, getting a 
supplemental through is a time-consuming exercise; therefore, 
we need these authorities, so that we can shift things around. 
There is nothing to keep the Administration from asking for 
additional funds.
    Third, you do have some flexibility in shifting from one 
account to another. The impression is left here that you have 
no flexibility at all. You have the flexibility of 
reprogramming up to $2 billion annually, and it seems to me 
that has worked very well in the past. Why this situation is so 
different, I cannot understand. This country has fought several 
wars, and much more demanding than this war will probably be, 
insofar as to length of time for the war, and its duration, and 
the costs, and the loss of manpower, and so on and so forth. So 
I see no reason, let me say it again, for Congress to extend 
these flexibilities.

                      HELPING FAMILIES IN DISTRESS

    Now, my question of you, Mr. Secretary, is this: The family 
of Private First Class Jessica Lynch, one of eight listed as 
missing, after her fellow soldiers were taken captive by Iraq, 
contacted my office with their concerns about her situation. 
Being removed from military facilities, and waiting for 
information has been extremely difficult for that family. At 
first, things did not move, in my own judgment, as they should, 
but later, the Department has been more responsive.
    This raises the issue about how our military helps families 
in distress. What has been done during the months of military 
planning leading up to the war to prepare our Armed Forces, to 
console the families that will be affected by the war?
    [The information follows:]
     Military Casualty Notification Process for Members of Congress
    Every effort is made to notify Members of Congress that a service 
member from their state/district has been severely injured, wounded, 
killed or discovered missing. This will be done as quickly as possible 
following notification of the Next of Kin (NOK), and consistent with 
the wishes of the NOK. The NOK can withhold permission for the service 
to notify their Members of Congress, as was done in a recent case.
    DOD appreciates the desire of Members to personally express their 
sympathy and support to family of a casualty. However, the Department 
is restricted by privacy laws. We cannot release certain information 
about the NOK. This restricted information includes residence, 
addresses, telephone numbers, social security numbers, age or date of 
birth. Should the family choose to withhold notification to Members of 
Congress, the services will accept letters of condolence from Members 
of Congress and deliver them to the family through their Casualty 
Assistance Officers.
    Access to official casualty reports is provided by OSD Public 
Affairs. This information can be accessed through our web site, 
www.defenselink.mil. These reports are not posted until the official 
notification of the NOK has been made. Staff may sign up for automatic 
notification of DOD releases by logging on to DefenseLink. These 
releases include DOD casualty announcements.
    Embedded media and 24 hour coverage provided of Operation Iraqi 
Freedom have produced instances where casualties and captured service 
personnel are revealed by the media before the official notification 
procedures can be completed. These instances are especially unfortunate 
for family members. Regardless of news coverage the military services 
and the Department will not make public comment until formal 
notification of the NOK has been accomplished.
    At no time will the name of a service member who has suffered a 
casualty or capture be officially released until the notification of 
the NOK has been made.
    Consistent with the wishes of a service member returning stateside 
for further treatment, Members of Congress may be notified of the 
location and condition of their constituent.
    Please contact your respective service legislative affairs offices 
should you have any additional questions.

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Army........................................  Janet Fagan.....................................    (703) 697-2583
Navy........................................  CAPT Mike McGregor..............................    (703) 697-7146
Marine Corps:
    Senate..................................  COL Art White...................................    (202) 685-6009
    House...................................  LTC Mike Shupp..................................    (202) 225-7807
Air Force...................................  Cong. Inquiry Division..........................    (703) 697-3783
----------------------------------------------------------------------------------------------------------------

                 Notification of the Next of Kin (NOK)
    It is DOD policy that in the event a military member becomes a 
casualty, the NOK shall be notified as promptly as possible in a 
dignified, humane, professional, empathic and understanding manner. 
Additionally, in those cases in which the military member is declared 
deceased or missing, the Military Services shall appoint a casualty 
assistance officer to advise and assist the immediate family in matters 
concerning NOK entitlements.
Notification Process For Missing In Action
    The initial notification of the NOK will be made in person by a 
uniformed representative of the Military Service concerned.
    All facts and circumstances on the casualty incident, known at the 
time of the initial notification, shall be provided to the NOK.
    In cases of serious injury initial notification in person to the 
primary NOK by a uniformed representative is encouraged. When personal 
notification is not possible telephone communication shall be used.
    In all cases involving deceased or missing causalities, the 
Military Service concerned shall appoint a causality assistance 
representative who will contact the NOK within 24 hours of the initial 
notification. The representative shall maintain contact with the NOK to 
keep them informed on all matters relating to the case until the case 
has been resolved and all entitlements and benefits are received.
    In all cases involving serious injury the military service shall 
regularly inform the NOK of the member's medical progress.
    In cases of service members whose whereabouts are unknown, the NOK 
will be kept informed of the progress in determining the member's 
actual status. The service member's actual status should be determined, 
whenever practicable, within ten days. This allows time to conduct an 
investigation, or for search and rescue efforts to ascertain a member's 
status. The commander of the service member in question will make a 
preliminary assessment within ten days and forward his assessment to 
the Service. The Service will appoint a board to conduct an inquiry 
into the whereabouts and the status. The board will gather all 
information relating to the case. There will be a counsel who will 
represent each service member. The counsel's identity will be made 
known to the NOK. Within thirty days the board will submit a report to 
the Service on the status of the service member in question.

    Dr. Wolfowitz. Senator, I do not know the specific case, 
and I will look into what may have happened there. I do know 
that the services have really, I think, made enormous advances 
in the last 10 years in how they deal with these kinds of 
issues. And I saw it first hand, and I was extraordinarily 
impressed with how they worked with the families, surviving 
families from September 11th, where we lost some 150 people in 
the Pentagon, and it was General Van Alstyne of the Army, who, 
in fact, led that effort for us.
    [The information follows:]

    Note: 184 people were killed at the Pentagon on September 
11, 2001, not 150 as stated in the transcript. 125 of the 
deceased were in the building and 59 were on Flight 77, not 
including the terrorists.
    Lt. Gen. Van Alstyne, was serving in the post of Deputy 
Assistant Secretary of Defense (Personnel & Readiness) 
(Military Personnel Policy) when he led the effort to provide 
assistance to the family members of victims of the September 11 
attack on the Pentagon.
    The supplemental request submitted by the Department of 
Defense included funding for the following medical 
modernization items:
Alaris Iv Pump
Blanket Warmer
Blood/Clin Chem Analyzer (I-Stat)
Clinical Chem Analyzer (Piccolo)
Conseq Man Set
Cr Level Ii
Cr Level Iii
Defibrillator (Lifepak 10)
Dental Digital Imaging
Edocs Central Oxygen Generation Pci
Electrosurg Apparatus
Handheld Computer
Handheld Dental X-Ray
Handheld Ultrasound
Hematology Analyzer (Coulter)
Iridium Phones
Iv Pole
Litter, Decontaminable
Litter, Strap
Mms Path Opa (M436) (Microtome-Cryostat))
Mms Eye Exam (M315) (Litghet Slit)
Mms Maxofacial H&N Surg Aug (M318) M09098--Cranitome
Mms Opth Aug (M319) (Cryosurgical Sys)
Mms Opth Aug (M319) (Diode Laser Sys)
Mms Opth Aug (M319) (Scanner Ultrasonic)
Mms Opth Aug (M319) (Vitreoretinal Surg Sys)
Mms Path Opa (M436) (Tissues Processor)
National Guard Air Evac Backfill Units
Notebook Computer
Notebook Computer With Printer
Origen Analyzer
Patient Warmer
Patient Oxygen Generation System (Pogs)
Pulse Oximeter Level Ii
R.A.P.I.D. 7200 System
Regulator For Ventilator (754)
Serpacwa (200,000 Soldiers)
Server (Medium Networks)
Spinal Board
Suction Apparatus (326)
Udp
Ventilator (754)
Vital Signs Mon W Cap (M66558)
Vsat Commo
Vital Signs Mon W Pulse Ox (Z97117)
Water Distribution System
Usamma Materiel Fielding

    Dr. Wolfowitz. And the impression I had, though--and I do 
not mean to diminish any of the other services--was that the 
Army, at least, had particularly focused on this issue, so I am 
a little surprised if there was a slip-up with an Army Private 
First Class, but let me look into it.
    [The information follows:]

    When PFC Jessica Lynch was reported missing March 23, Army 
Casualty Headquarters staff designated her Duty Status 
Whereabouts Unknown (DUSTWUN). A Casualty Notification Officer 
was immediately dispatched to PFC Lynch's home and an Army 
major notified her family of her status at 11:00 p.m. on March 
23. The Lynch family was assigned a Casualty Assistance Officer 
whose role is to keep the family informed on the status of PFC 
Lynch and provide other assistance to the family.
    The Department's family support managers have worked 
diligently to ensure that support systems were in place for all 
family members of our mobilized and deployed Service members 
serving in Operation Iraqi Freedom. There has been no 
contingency where our families were better supported. In a 
November 2002 program guidance memorandum, the Office of the 
Under Secretary of Defense for Personnel and Readiness provided 
guidance for family support programs for this contingency. The 
effort focused on comprehensive family support during the pre-
deployment, deployment and post-deployment phases. During the 
months of military planning the Office of the Secretary of 
Defense chaired monthly meetings with the Joint Family Support 
Contingency Working Group to assist the Services prepare for 
family-related contingencies.
    The family support programs focused on assistance to all 
family members including parents and Reserve component families 
who may live long distances from a military installation. 
Single Service members were encouraged to include their parents 
in the pre-deployment programs, if possible, and to provide 
relevant information to their parents and extended family 
members throughout all three phases of the deployment.
    As in the troop operations, family support during Operation 
Iraqi Freedom is an extraordinary joint effort with all 
components assisting family members. This includes pre-
deployment briefings, assistance with specific family issues, 
obtaining family member ID cards and dissemination of accurate 
information.
    The Services' family support staffs have used technology 
extensively to reach out to family members. This includes the 
establishment of a number of comprehensive Web sites that 
provide key information for the families and resources to 
support them during the deployment. Units have established 
special phone lines where families can call in and hear a 
regularly updated recording on the deployed unit. The expanded 
use of email in theater has significantly assisted in keeping 
families connected when possible. Video-teleconferencing for 
families and their deployed members, where available, has also 
enhanced communication.
    The family support managers are now prepared to provide 
reunion programs for returning Service members and their 
families. Past experience has proven these programs to be very 
helpful in the healthy reintegration of Service members back 
into their family and community.
    We have great confidence in the professionalism and 
dedication of our family support staff, chaplains and 
volunteers. They are skilled in bringing information, counsel 
and consolation to the families of our deployed Service 
members. They are doing a superb total force job and personify 
the meaning of the military taking care of its own.

    Dr. Wolfowitz. I think it is understood how important this 
is. It is understood that increasingly we cannot handle an army 
of people with wives and children the way in which we handled 
an army of mostly single men 50 or 60 years ago. I will find 
out if there was any slip-up in this case. But it is 
considered, from our point of view, a matter of the highest 
importance because the morale of the families back home is 
important to the whole effectiveness of the force, and it is 
something we also owe them as a moral obligation.
    General Cartwright. Could I add just----
    Chairman Stevens. Yes.
    General Cartwright. There are two pieces to that that I 
think are very important to what you have raised here, sir. One 
is the notification and making sure that the families are taken 
care of. The other is organizing the dependents and the 
families that have stayed behind, so that they have access to 
information, and can stay informed. I think, and particularly 
in the case of the Army, we cannot forget that front piece. We 
have to organize the families so that they have a way of 
getting the information in a timely fashion, stay informed.
    Uncertainty is the biggest enemy we have for a family that 
sits behind, and not knowing what is going on. And we have to 
take care of that piece, too. It is part and parcel to what you 
are addressing, sir.
    Dr. Wolfowitz. It is another aspect of what is so terrible 
about the Iraqis putting people on television. We learned for 
the first time that some people were prisoners at the same time 
that the families learned, and it does not give us much chance 
to get in there ahead of them.
    Senator Byrd. Well, thank you. Thank you very much. Will 
you continue to review the support that is given to families, 
our service members who have been taken prisoner, or who are 
missing in action, so that the military can do their utmost to 
provide the families with comfort at their most difficult 
times?
    Dr. Wolfowitz. I will do that personally, Senator. There is 
a lengthy couple of pages here which I will give you, also, and 
add for the record on the procedure that we are using.
    [The information follows:]

    Each of the Military Services' Casualty headquarters 
assigns a Casualty Assistance Officer to families of those 
missing, including POWs. Their job is to keep the families 
informed with the latest information, as we know it, on their 
loved one. The Casualty Assistance Officer provides other 
assistance to the families as needed and requested by the 
families. The Military Services take this responsibility very 
seriously.

    Senator Byrd. Very well. I thank you, Dr. Wolfowitz.
    Dr. Wolfowitz. Thank you, Senator.
    Senator Byrd. And thank you, General Cartwright, and Dr. 
Zakheim.
    Mr. Chairman, may we have our opening statements included 
in the record?
    Chairman Stevens. Yes. All of the opening statements have 
been placed in the record, as read, and we will be back here at 
3:30 to meet with Secretary Ridge.

                          SUBCOMMITTEE RECESS

    Chairman Stevens. Dr. Wolfowitz and Dr. Zakheim, I want to 
emphasize that we have to have the answers to these questions 
to be submitted. I am going to ask that all questions be 
submitted by the close of business today. We are not going to 
wait for a series of questions ad infinitum, but those 
questions that were sent today, we hope that you will respond 
to them no later than Tuesday, because we want to try to mark 
up Tuesday afternoon if it is at all possible.
    Dr. Wolfowitz. That is fair, and we appreciate the speed in 
which you are considering this.
    Chairman Stevens. Thank you very much.
    [Whereupon, at 12:45 p.m., Thursday, March 27, the 
committee was recessed, to reconvene at 3:30 p.m., the same 
day.]
        (Afternoon Session, 3:30 p.m., Thursday, March 27, 2003)

                DEPARTMENT OF HOMELAND SECURITY--RESUMED

    Chairman Stevens. Thank you, Governor, for returning to 
us--Mr. Secretary, that is. And we do have additional Senators 
that are on their way. I do have but one question, and it is 
about the omnibus appropriation and its comparison to this 
bill.

             FISCAL YEAR 2003 AND WAR SUPPLEMENTAL FUNDING

    We put $3.5 billion in the omnibus appropriations bill. It 
was for homeland security assistance to State and local 
authorities, including first responders. This request includes 
$2 billion to enhance State and local terrorism preparedness 
and to assist first responders. Can you tell us the differences 
between the two? We put up $3.5 billion, and now here is $2 
billion. How do they fit together?
    Secretary Ridge. In the President's supplemental, Senator?
    Chairman Stevens. There is $2 billion in addition to the 
$3.5 billion as far as the first responders part. Am I clear?
    Secretary Ridge. I apologize, sir. You are not. In the 
supplemental, there is $3.5 billion, and part of that $3.5 
billion is $2 billion for the first responders.
    Chairman Stevens. Yes, but that is part--and to enhance 
terrorism preparedness and assist first responders.
    Secretary Ridge. Yes, sir, I understand.
    Chairman Stevens. That is an addition to what we gave you 
in the $3.5 billion. What do you contemplate doing with the 
money in this bill that you cannot do it, achieve with the $3.5 
billion?
    Secretary Ridge. Senator, the dollars that you gave us in 
fiscal year 2003 are dollars that are going out through the 
Office for Domestic Preparedness, dollars going out through--
the three-quarters of a billion in the fire grant program. The 
fiscal year 2004 request has another $3.5 billion for strictly 
first responder money and first preventer money, if you might.
    The supplemental request is in part to defray added costs 
incurred by the States and locals for critical infrastructure 
protection we have asked them to secure as a result of the 
hostilities in Iraq. And, it also includes some money for their 
use to continue to build first responder capacity for 
exercises, for training and the like.
    If you take a look--to your point, Senator, if you take a 
look at the dollars that Congress appropriated in fiscal year 
2003, the $2 billion request here for first responders, and the 
potential of getting as much as $3.5 billion in the fiscal year 
2004 request, first responder dollars in the aggregate, if we 
can get the budget out and approved by October 1, this fiscal 
year alone would probably be somewhere between $7 to $8 
billion.
    Chairman Stevens. Thank you. During the luncheon recess, I 
had a call from a Governor of--from a mayor of a major city, 
and also some conversations with several Senators about the 
problem of getting money through the States. Now we discussed 
that a little bit this morning.
    Secretary Ridge. Yes, sir.

                   EXPEDITING FIRST RESPONDER FUNDING

    Chairman Stevens. But have you explored the problem from 
the point of view of trying to get some group of mayors to give 
us a device whereby the money could be mandated to flow through 
the States? What I mean is, we could literally say the States 
have to pass this on to some mayors within so many days. Once 
you make a grant to them, they have to move it on to some city.
    But the question is, they obviously do not get enough 
money, any of them, to go on a per capita basis distribution to 
all of the cities in their State. But there is no mechanism for 
deciding who has the priority within each State.
    Secretary Ridge. Senator, I would welcome the opportunity 
to work with you, and Senator Byrd, and others on this 
committee to see to it that if we kept to that distribution 
formula, the 80 percent that has to go down to the first 
responders and the 20 percent stays in the States, that there 
is some leverage that Congress imposes upon the distribution of 
that money so that the 80 percent does not end up gathering 
interest or dust in State capitals, but gets distributed 
immediately to the States.
    I mean, it is our view that if you take a look at the 
totality of the dollars that would be available to the local 
governments conceivably this year, there are enormous sums that 
they ought to get. They just want some kind of assurance that 
they will get it as quickly--shortly after we send those 
dollars to the States.
    Chairman Stevens. Well, it is----
    Secretary Ridge. But it is still preferable than getting--I 
think, dealing with the request of 1,000 or 2,000 individual 
communities, because part of our desire is to build a national 
capacity. So we asked the Governors to help design a plan for 
their State. We asked the mayors to participate in the 
development of that plan, but the quid pro quo in exchange for 
the mayors working with the Governors is that we design a 
mechanism to ensure that they get their money promptly. As soon 
as you give it to the Department of Homeland Security, we get 
it out the door, and we have got to get it to the mayors.
    Chairman Stevens. Well, it was suggested that I suggest to 
you is that you not give the States any money until they show 
they passed the 80 percent onto the local governments.
    Secretary Ridge. Well, Senator, I would love to work with 
you on the language that levers immediate response from 
everybody involved, because once you appropriate it, our job is 
to get it out the door quickly. And that is both to the States 
for training purposes and cost reimbursement, but also to the 
mayors and to the cities. So working with you on that kind of 
language that guarantees that the money flows expeditiously 
from the States down to the local communities is something we 
would welcome.
    Chairman Stevens. Thank you very much.
    Senator Byrd.

                            VULNERABILITIES

    Senator Byrd. Thank you, Mr. Chairman.
    Governor, you have said that we are a Nation at war, and 
another terrorist attack here in America is inevitable. You 
have said that the attacks such as the attacks of September 
11th are long-term threats. They will not go away. And sadly, I 
have to agree with that assessment.
    This threat presents our Government, your Department, and 
this Congress, with a tremendous challenge and many difficult 
decisions. Making our Nation safe from the terrorist threat 
could be a bottomless pit.
    How can we protect a society that desires to be free, safe 
from a threat that is so ill-defined? Will the next attack be 
biological? Will it be chemical? Will it be nuclear, or 
radiological, or weapons brought into this country through any 
one of the 361 ports? Or will it be another jet plane 
containing 60,000 gallons of fuel crashing into a building? 
These are all real threats. We have to be concerned about them.
    As this committee tries to determine how best to meet these 
threats, it would be useful to have your assessment of the 10 
or 12--I would say 10--vulnerabilities that you are most 
concerned about. If you could provide us with a conceptual 
response today, or as soon as possible, and a classified 
response in writing before we mark up next week, it would be 
most helpful. Will you try to do that, please?
    Secretary Ridge. Yes, Senator, would be pleased to.

                 PROTECTING PRIVACY AND CIVIL LIBERTIES

    Senator Byrd. How do we protect ourselves from these 
threats within our borders while protecting our privacy rights 
and our freedom to move about this great country? That is the 
question I have. How do we protect ourselves from these threats 
within our borders while protecting our privacy rights and our 
freedom to move about this great country, and all within the 
constitutional concept? Do you want to try answering that?
    Secretary Ridge. Yes, sir. I would be pleased to respond.
    Senator Byrd. You may have to do part of that in writing. I 
think it is important we have your response.
    Secretary Ridge. Senator, our--this country's openness, its 
diversity, its freedoms, and its values are in large measure 
the target of our terrorist enemies. Anything they can do to 
undermine any of those, either directly or indirectly, it gives 
them the victory which we cannot afford them to even think 
about.
    Congress, in setting up the Department of Homeland 
Security, has provided for the creation and integration of both 
a privacy officer, or official, as well as someone whose sole 
mission is to look over the strategy we develop, the tactics we 
deploy, and the dollars we expend to ensure that it is 
consistent with the civil rights and liberties of this country.
    I would assure you that when these positions are filled 
within the Department, their responsibilities to the Congress, 
but more importantly--well, you reflect responsibility to the 
country as a whole--will be integrated into everything we do. 
We do not want to lose that which makes us so unique among the 
countries on the face of this Earth; and that is, our civil 
liberties, individual privacies.
    And, again, in a transparent system through which and by 
which we discuss these issues, we know if there is the 
slightest inkling that we are going too far, that there will be 
debate, there will be congressional involvement, and that is 
just the way it needs to be in this country. But you have 
helped by creating a couple of positions within the Department. 
And I will assure you that as part of their integration into 
this Department, they will be afforded the same access and the 
same involvement as I am affording to our Inspector General. We 
will have these men or women, whoever we decide to hold these 
offices, involved at the front end as we develop strategy, and 
policies, and programs.

                            PRIVACY OFFICER

    Senator Byrd. Well, I thank you, Mr. Director. I know there 
is much more that you could say on this, but our time is----
    Secretary Ridge. I would be happy to follow up, Senator, in 
a longer written response.
    Senator Byrd. Can you tell us when the privacy officer will 
be filled?
    Secretary Ridge. The--we have a name. We have completed our 
search for the--very able individual we have identified to 
serve the Department, and the country, and the civil liberties 
area. And we are conducting now a search and interviewing 
people to complete our work to identify the privacy officer.

                     TIMING OF SUPPLEMENTAL REQUEST

    Senator Byrd. Very well. In January of this year, I offered 
an amendment to the fiscal year 2003 omnibus appropriations 
bill to add $5 billion for the critical homeland security 
programs. The White House characterized my amendment as 
unnecessary, extraneous spending that purported to be for 
homeland security. Get that now, ``purported to be for homeland 
security.'' This amendment included funding for first 
responders, port security, aviation security, and border 
security.
    Now the President comes along and requests $4.2 billion for 
virtually the same activities. The only thing that the 
Administration's position on my amendment accomplished was that 
of delaying for 2 months or more our ability to secure the 
homeland. Why is it that this Administration has been so slow 
to recognize a need to invest resources that the Congress has 
made available? And I mean by bipartisan votes. And these 
matters come out of my--I say ``my committee.'' I was chairman 
at that time. Senator Stevens was Ranking Member and 
supported--he and the Republicans supported these amendments 
just as strongly as the Democrats did.
    Yet the--why is it that the Administration was so slow to 
recognize the need to invest resources in the security of our 
homeland? And you remember even earlier than that, you wrote to 
me and told me that, in essence, ``Well, just hold on, buddy. 
We will let you know how much money we need and whenever we 
need it.''
    Secretary Ridge. Yes, sir.
    Senator Byrd. ``We do not think--we think--we do not we 
need your money now.'' So I had that same experience with you 
when you----
    Secretary Ridge. Yes, sir.
    Senator Byrd [continuing]. Were a lowly director and 
working under instructions not to get near Capitol Hill unless 
you came in with closed doors and all that. I say that very 
kindly to you. I think you would have been here----
    Secretary Ridge. I understand, Senator.
    Senator Byrd [continuing]. Long before, had the President 
let you come. Do you want to respond to that? Why is it that 
this Administration has been so slow to recognize the need to 
invest resources in the security of our homeland?
    Secretary Ridge. Senator, I believe that as we looked at 
your request to provide additional sums, we knew that we had a 
request before Congress in the fiscal year 2003 budget for $3.5 
billion. We knew that our way ahead in the fiscal year 2004 
budget was another $3.5 billion. We knew at the time that there 
had been bioterrorism money that was available to the States 
pursuant to, I believe, a supplemental that the Congress 
generously provided in the end of fiscal year 2002 that had not 
been drawn down; that there were a few other dollars in the 
Office for Domestic Preparedness that had not been drawn down.
    If you took a look at the totality of the money that we 
believed would be available and still believe should be 
available, it was well in excess of $7 billion. So number one, 
we were looking at both the ability to get congressional 
support for a substantial sum, and $7 billion is a very 
substantial sum, but also to make sure that we set it up in a 
way that it was expended on where it was needed as we took a 
look, long term, at our responsibility to build up a national 
capacity to prepare for a terrorist attack, to prevent a 
terrorist attack, to reduce our vulnerability to a terrorist 
attack.
    Again, I think we took a--we do and we continue to take an 
interest in getting adequate funds in every single year that 
can be appropriately spent as we build over a period of years 
additional capacity based on threats, based on vulnerabilities. 
And we do think that the $7 billion we had anticipated would 
have been a very, very substantial first installment.
    Senator Byrd. Well, you are a good soldier, and you always 
use your sword with a smile.
    Mr. Chairman, I do not know how much longer you are going 
to tolerate me.
    Chairman Stevens. We extended your time, Senator, for 10 
minutes.

                     NEED FOR SUPPLEMENTAL REQUEST

    Senator Byrd. Oh, did you? Oh, well, good. Thank you.
    What has changed in the last 9 weeks, Mr. Director? Nine 
weeks ago $5 billion for homeland security was extraneous. Now 
$4.2 billion is important enough to be part of an emergency 
supplemental bill. What has changed?
    Secretary Ridge. Well, first of all, part of that money is 
in recognition that the Governors and the States have, at our 
request, incurred additional costs to protect critical 
infrastructure. I think there is a recognition to the extent of 
half a billion dollars in that regard.
    And it was also an opportunity for us, looking at how some 
of the dollars that we had initially requested in the fiscal 
year 2003 budget where we--the Congress identified the 
direction those dollars should go, including the fire grant 
program, which was three-quarters of a billion dollars. Those 
monies are being used by the first responders.
    But the--there was not the flexibility attached to those 
dollars that we had hoped to achieve in the fiscal year 2003 
budget. And because of the enhanced security, because of the 
activities and hostilities in Iraq, our need for the 
supplemental and our need to continue to build that capacity, 
the additional $1.5 billion was requested.

                            REQUEST FOR DOD

    Senator Byrd. Mr. Director--or Mr. Secretary, excuse me. 
The extraordinary feature in the President's request is the 
extent to which funds are requested for unspecified purposes to 
be allocated by the executive branch without further 
congressional oversight. In many cases, there is not even a 
requirement to notify Congress prior to expenditure. Instead, 
the President proposes for agencies to report to Congress on a 
quarterly basis after the fact. And generally speaking, it is 
not less than 30 days after the end of the quarter.
    These expansive authorities are not just for the Secretary 
of Defense. Similar flexibility is requested for the Secretary 
of Homeland Security, for the Attorney General, and for the 
President. Now let me give a few examples.
    The Secretary of Defense would receive $59.9 billion of the 
$62.6 billion request for DOD through the Defense Emergency 
Response Fund (DERF). The Secretary is required to inform the 
Defense Oversight Committees no later than 30 days after the 
end of each quarter on how the money was spent. You see, the 
committee is--Appropriations are not going to be asked how to 
spend it. It is not going to be--they are not going to be asked 
whether or not they approve it. They will just be told 30 days 
after the quarter has ended how it was spent.
    Secondly, the Secretary of Defense would be allowed to 
transfer up to $9 billion. Well, I have heard all these 
crocodile tears being shed here this morning about the 
straitjacket, as it were, that the Defense Department is being 
put in to. And here it says the Secretary of Defense would be 
allowed to transfer up to $9 billion, 2.5 percent, between 
appropriations accounts compared to the current $2.5 billion 
limit. The Secretary is required to inform the Congress of such 
transfers.
    Thirdly, the Secretary of Defense--I know I am getting out 
of your Department, but in a way this pertains in a similar 
manner to yourself and in your responsibilities.
    The Secretary of Defense would receive a new authority to 
spend $150 million for ``indigenous forces assisting U.S. 
military operations or activities relating to the global war on 
terrorism.'' The authority here is subject to the concurrence 
of the Secretary of State, but not Congress. The Secretary of 
Defense would be required to inform Congress on a quarterly 
basis on how the transfer authority was used.
    Next item: The Secretary of Defense would be given--I did 
not get to say all these things to the Secretary of Defense, 
but he will read about it. The Secretary of Defense would be 
given--maybe.
    The Secretary of Defense would be given new authority to 
spend money out of the defense cooperation account, 
contributions from foreign governments, without the approval of 
Congress. Under current law, foreign contributions to the 
defense cooperation account can only be spent after approval in 
the Appropriations Act. This authority was created in 1990 for 
Operation Desert Storm/Shield. The President proposes now to 
waive this requirement for fiscal year 2003. This authority 
would potentially allow the Secretary now to use the proceeds 
of Iraqi oil sales to supplement the DOD budget without any 
congressional oversight.
    Next item--the Secretary of Defense would have expanded 
authority to give $1.4 billion, notwithstanding any other 
provision of law, to Pakistan, Jordan, and other key 
cooperating nations for military and logistical support for the 
war in Iraq or the global war on terrorism.
    The proposal would make the fundings subject again now to 
the Secretary of State--this would be funny if it was not so 
serious--to the concurrence of the Secretary of State in 
consultation with the Director of OMB. But, lo and behold, no 
congressional approval or review is required. There is no 
reporting requirement.
    The next item--the President would be given a $2.4 billion 
fund for Iraq reconstruction and relief. Am I dreaming? Let me 
pinch myself and see if I am dreaming. My goodness. What do 
these people downtown think has happened to us? They think we 
must be children or fools who have forgotten the Constitution.
    Next item--the President would be given $250 million to 
prepare for, prevent, protect, or respond to a potential 
terrorist attack. The funds could be transferred to any 
authorized Federal Government activity. The director of OMB 
would be required to notified Congress 15 days prior to 
transfer.

             DEPARTMENT OF HOMELAND SECURITY (DHS) REQUEST

    Now let us get down to the Secretary of Homeland Security. 
The Secretary of Homeland Security would be given $2 billion--
that is a lot of money--for the Office for Domestic 
Preparedness, for grants to States for terrorism prevention; in 
other words, first responders. No specific formula for 
allocating the funds is included. No specific requirement for 
passing funds through to local governments is included. No 
specific deadlines for making grants is included. The Secretary 
is required to notify Congress 15 days prior to obligation.
    The next item--the Secretary of Homeland Security would be 
given $1.5 billion in a new counterterrorism fund for transfer 
to any department of homeland security--agency for homeland 
security programs. Curiously, the Secretary can only transfer 
the funds to DHS programs, so that if the Department of Energy 
needed additional funds for nuclear security, the Secretary 
could not transfer the money. If Health and Human Services 
(HHS) needed money for a new bioterrorism threat, or if the 
Department of Interior needed the funds for protecting national 
monuments, the Secretary could not transfer the funds. There 
are no details on how these funds would be used.
    The Coast Guard has significant costs associated with their 
deployment of 11 cutters and 24 small boats to the Persian 
Gulf. The Secretary would be required to notify Congress 15 
days prior to obligation.

                          SPENDING AUTHORITIES

    Well, I have other items that I could read into the record, 
but these are the examples of the authorities that this 
Administration is requesting. And it is seeking more 
authorities, more power, and wishes above all that Congress 
would simply step aside, salute, and go on off into the sunset. 
I cannot believe that this Administration is asking for this. I 
cannot believe that it thinks that Congress is going to just 
willy-nilly lie down and pass these things.
    I think this--you know, I--the thought just struck me that 
we say we are fighting this war to liberate the Iraqi people, 
and yet here is the executive branch seeking power. And with--
if Congress gives these additional powers to the executive 
branch, then Congress's powers, by the same token, are going to 
be lessened, are going to be taken away.
    I cannot--I have great difficulty believing that the 
Administration really thinks that we ought to do this. Remember 
Lord Atkins' statement, ``Power tends to corrupt, and absolute 
power corrupts absolutely.'' Edmund Burke--and I will close 
with him. He was a great friend of the colonies and the States 
prior to the Revolutionary War. And he said, ``The greater the 
power, the more dangerous the abuse.''
    I thank you, Mr. Secretary. I have taken too much time 
already. But I have a feeling that you and I, and this 
Committee, are going to work together now that you have had the 
chains broken that kept you from coming before this committee. 
I look forward to working with you. We are both interested in 
the welfare of our country.
    And just please remember that from my side of this table, 
number one is the Constitution of the United States, and the 
separation of power is doctrine, checks and balances. And I 
will meet you halfway on getting your dollars, but when it 
comes to taking away the prerogatives of the Congress under the 
Constitution to have control over that purse, then that is 
where I hope we will still be together.
    Chairman Stevens. Thank you, Senator.

                     NEED FOR SPENDING FLEXIBILITY

    Secretary Ridge. Senator, I am confident that we will. And 
you and I have had conversations about the importance of 
recognizing the certain principles of governance that are 
enshrined in our constitution.
    Clearly, those of us who serve in the executive branch 
understand that the power of the purse, the power to 
appropriate, the power to oversee the appropriations is 
exclusively the province of the Congress of the United States. 
The request for flexibility is--we have tried to project for 
your consideration in recognition of that particular 
constitutional responsibility that you have.
    We cannot have flexibility over a single dollar unless you 
appropriate the dollar. We will have to come back before 
Congress and justify every single dime that has been expended. 
We will be held accountable that it was expended for the 
purposes outlined in the request for initial appropriation.
    But under the circumstances with regard to the Department 
of Homeland Security, the rationale is fairly straightforward. 
We are in some respects in unchartered ground whether in 
fighting the war at home. We know basically the costs 
associated with Coast Guard's work, not only in the theater, 
but the protection of the ports. We know the other costs that 
we are incurring for the foreseeable future as we do things, 
additional things, at our borders, at our airports. So there 
are costs associated that we can identify totaling nearly $1 
billion of that $1.5 billion.
    But given the unpredictability of the future as it relates 
to our needs, perhaps to surge to one area, to bring more 
resources in another area, to make sure that because an 
institution like the Coast Guard is still well equipped not 
only to help us fight the war but to pay equal attention to its 
non-homeland security responsibilities, that just gives us the 
flexibility to make sure that we spend the money where Congress 
has previously indicated, and that is the non-traditional role 
of--the non-homeland security role of the Coast Guard, and 
gives us a chance, when needed, to draw down and put the 
resources, the technologies with the people to help us defend 
America; obviously, accountable to you and your colleagues if 
those dollars are expanded.
    Thank you, Senator.

                          PREPARING FOR MARKUP

    Chairman Stevens. Thank you very much, Mr. Secretary.
    I am going to yield to Senator Cochran. I have to excuse 
myself. I have some meetings that--Senators want to discuss 
this amendment to this supplement. I do want to remind the 
Committee that we have committed to recess at 4:15 p.m. so that 
the Secretary may conduct a conference call that he had 
previously scheduled. Again, I thank you for your courtesy of 
coming back----
    Secretary Ridge. Thank you, Senator.
    Chairman Stevens [continuing]. To meet with us this 
afternoon.
    Secretary Ridge. Sure.
    Chairman Stevens. And when we finish today, we will 
announce the schedule for Tuesday some time tomorrow after I 
consult with Senator Byrd.
    Secretary Ridge. Thank you.
    Senator Byrd. Thank you, Mr. Chairman.
    Senator Cochran. Mr. Chairman, thank you.
    Chairman Stevens. Thank you.

                   SPECIFICS OF SUPPLEMENTAL REQUEST

    Senator Cochran [presiding]. Mr. Secretary, I am prepared 
to try to help you get the funds you need to do your job and to 
do it well. But it would be helpful to us in that effort to 
have some specific information about what the needs are in 
order to accomplish that goal. What we have before the 
committee is a broad outline with broad categories of funding 
and not much in the way of specific requests for activities.
    We know that there are needs out there. We have called some 
of the agencies that are under the jurisdiction of this 
Department--the 22 agencies or functions of agencies, the Coast 
Guard are included in this--to find out what they see their 
needs to be. And they are not consistent with what the budget 
request is, and there is a little confusion there in my mind 
because of what we are finding out.
    For example, Senator Byrd, Senator Stevens, and others, 
including me, were invited to the White House to hear what the 
budget request was going to be. And we were told it was $74.7 
billion for the Department of Defense, $4.2 billion would be 
for Homeland Security. And then the fact sheet gets sent up by 
the Department of Homeland Security that indicates the $3.5 
billion request and outlines the specifics which Senator Byrd 
read into the record while ago. So I wonder what happened to 
the $4.2 billion request. Is it now $3.5 billion, or is it 
still $4.2 billion? If it is still $4.2 billion, what is the 
other money for?
    So it would be helpful for us--and I am going to submit 
some specific questions about some of these accounts--to see if 
we can find out what the specific needs are for the Coast 
Guard, for the Transportation Security Administration. That is 
another point of confusion. I had asked at The White House how 
much was being requested for the Transportation Security 
Administration and I was told nothing, none, no specific 
request. Then we start meeting with your staff to find out if 
there is any intention to provide money from this bill to the 
Transportation Security Administration and you said, yes.
    There is an assumption that there will be $120 million that 
would be used from this supplemental spending bill by the 
Transportation Security Administration to hire additional 
screeners and to provide additional funding for overtime pay 
for Federal screeners.
    Well, then I am told that there is a statutory cap to limit 
the hiring of screeners already, and it has already been 
exceeded. So, how are we going to hire additional screeners if 
that cap has been exceeded?
    So, the more I dig into the specifics, the more I realize 
we have got some work to do to find out what is actually 
required. Can some of these funds that you are assuming you 
need be spent legally? Do we have to make changes in this bill 
in the law that created the Department and the authority to do 
these things? So, I think we have got some work to do. Looking 
at FEMA, for example, I asked the question this morning about 
the cost of the agency's work in helping with the Columbia 
shuttle recovery. That assignment was given to FEMA. It could 
not have been anticipated when we funded FEMA last year. This 
was certainly an expensive operation. And my question was, is 
there any money in here for FEMA to take care of that? And my 
impression was that there is none, or none was assumed. You 
were going to absorb those costs.
    The Secret Service, I am curious to know if the Secret 
Service is going to get any money in this, from this 
supplemental. There is no specific request for the Secret 
Service, but I am told that there are expenses that they 
anticipate incurring. It is up to $132 million for the cost of 
Secret Service's Operation Liberty Shield activities and other 
needs.
    There is a similar concern in another agency under your 
jurisdiction, the Federal Law Enforcement Training Center, for 
example. I understand that additional supplemental funding is 
thought to be needed in the amount of $1.736 million, but that 
is not in the budget request. That is not in this supplemental 
request.
    So it would be nice to have the specifics. I think it will 
help us help you if we had the specifics, because you can tell 
right now by the tone of the questions and comments from other 
Senators who are on this Subcommittee for Homeland Security 
that we are not just going to appropriate $4.2 billion and say, 
``This is for whatever purpose the Department of Homeland 
Security wants to spend the money for.'' And that is sort of 
what this request is. It is not exactly that. It is broken down 
into more detail, but I think we are going to have to break it 
down even in more specifics than your request has identified it 
should be broken down.
    Secretary Ridge. Senator, if I may----
    Senator Cochran. I did not mean to make a speech. I am kind 
of like Senator Byrd; I got carried away. I started thinking, 
and talking, and never got around to putting a question mark on 
the end of what I said.
    Secretary Ridge. I just thought it was a several-part----
    Senator Cochran. But it is a----
    Secretary Ridge. I thought it was a several-part question, 
Senator.
    Senator Cochran. I do have a question.
    Secretary Ridge. That is what I thought.
    Senator Cochran. I will stop and let you respond to that, 
if you will.
    Senator Leahy. But we do know for those who have not had a 
chance and have been waiting here since 10 o'clock this morning 
to ask a question, we will get a chance before he leaves, I 
hope.
    Senator Cochran. That is right. That is the only question I 
am going to ask.
    Secretary Ridge. Senator, let me try to be as responsive as 
I can to your very complex question.
    Senator Cochran. I am sorry.

                         DETAILS OF THE REQUEST

    Secretary Ridge. First of all, with regard to the 
announcement at the White House and the $4.2 billion, the 
request for the Department of Homeland Security is $3.5 
billion. The additional $700 million can be broken down into 
$500 million to the Department of Justice and the FBI, and the 
$200 million that Senator Byrd referred to in order to absorb 
an additional costs that some of the other Cabinet agencies may 
incur as they take additional protective or preventive measures 
during the period of hostilities with Iraq. So, again, it is 
$4.2 billion that we are requesting for homeland security, and 
$3.5 billion would be distributed to the Department of Homeland 
Security.
    With regard to the numbers, the first responders and 
critical infrastructure protection, I think in response to what 
I am sure will be a fairly lengthy list of questions we will 
show you, certainly clarifies the mission and the intent around 
the nearly $3 billion worth. Clearly, first responders are 
going to get those dollars through the Office for Domestic 
Preparedness. We will use the same formula that has been 
historically used and the approach that Congress has directed 
us to use in the fiscal year 2003 budget.
    The Coast Guard estimate that we have arrived at to date is 
nearly $600 million. There is $400 million for their support of 
the war in Iraq, and about $180 million as they help secure the 
ports. But there are also some critical pieces of 
infrastructure that we thought was necessary to put vessels and 
reservists so they had 24/7 protection during this period. That 
is, about $180 million is what we estimate. So we will be able 
to give you additional dollar estimates.
    And, again, it is based on cost that we know in many areas, 
but costs we will learn as a result of the enhanced security in 
the Liberty Shield program. I have talked to a couple of 
Governors who have assigned National Guard to power facilities 
or other critical infrastructure within their respective 
States. The cost varies a little bit from State to State, but 
we have a general idea of what the cost of the Guard might be. 
But the cost of guarding a bridge or a tunnel is a little bit 
different than the cost associated with guarding a nuclear 
power facility.
    So as we go, as we work together down this path to try to 
get more specificity to answer the concerns that you and your 
colleagues have, I think clearly down the road we will have a 
better idea, but I think we can show you fairly specifically 
how most of this money is being spent. But because we cannot 
tell you with the precision that you would like, nor can we 
anticipate the needs, and we want to be prepared if the need 
arises to deploy people or resources as a result of this 
heightened state of alert, that is the reason we ask for the 
flexibility. But we will be as specific in our responses to you 
and your colleagues as we possibly can.
    Senator Cochran. Thank you very much.
    Senator Leahy.

                        FIRST RESPONDER FUNDING

    Senator Leahy. Thank you, Mr. Chairman.
    Governor Ridge, thank you for your almost legendary 
patience. But also, you are asking for a terrific amount of 
money. It may all well be justified. We are in a two-front war 
in one sense. One is war in Iraq, and Secretary Rumsfeld spoke 
to us this morning about the need for money there.
    You are protecting us in another war here at home which 
directly affects us all a great deal. That does not involve so 
much Iraq. Unfortunately, those who struck at us last time on 
September 11th came predominantly from the countries of allies 
of ours, Saudi Arabia, and Pakistan, and those. And so we look 
at that from a different point of view.
    But we have to figure out where we spend the money. The 
Administration has decided to ask for $8 billion of assistance 
to foreign nations that it considers helpful in the war against 
Iraq. And I know that we have a lot of countries that have 
lined up to join this coalition, but my guess is as well-
intentioned as they are, we will probably not get an enormous 
amount of help from Eritrea, or from the Cameroons, or from 
Bulgaria, or a number of other of our allies in this. Their 
good wishes are, of course, welcomed.
    But the Administration has asked for $8 billion to help 
these nations that may have helped us in Iraq, and will 
ultimately ask for billions of dollars more. The President has 
said that he wants to get health care for the people in Iraq. 
He wants to rebuild schools, wants to put millions of Iraqis 
back to work. I think that is a noble goal. If we are going to 
show that part of the world that once we go to war there, that 
there can be benefits, we have to do those things. But, of 
course, we also have to do those same things here at home.
    Having requested all this money, billions of dollars for 
coalition partners, we have only $2 billion for first 
responders here. The mayors and Governors say they need $8 
billion. I know that Senator Reid and others have talked to you 
about this, but if the Governors and the Mayors and all are 
asking for this $8 billion, they are the ones that have to 
answer the 911 calls. They are the ones that are going to get 
called first. And I must say in my State, a lot of the fire 
departments and what-not are seeing they have members getting 
called up to the National Guard or the Reserves, so there are 
even further costs.
    Who is right? Are these Mayors and Governors, and police 
chiefs--and you are a Governor--are they right? Or is the 
Administration right in requesting a much smaller amount?
    Secretary Ridge. Senator, I think----
    Senator Leahy. Because I get asked this question all of the 
time at home, so----
    Secretary Ridge. Sure. I appreciate the opportunity to 
respond to it. I believe at the end of the day, we are a lot 
closer to the dollar figure if we are prepared to take a look 
at the sums that are available to the States and localities and 
first responders as a result of the fiscal year 2002 
supplemental, as a result of the fiscal year 2003 
appropriation, as a result if Congress is willing to approve 
the supplemental that we requested for the fiscal year 2003 
budget, as well as the fiscal year 2004 budget. By my 
calculation, Senator, there will be for terrorism preparedness, 
first responders, bioterrorism and the like, roughly $8 billion 
to $9 billion in this fiscal year, assuming we get the 
supplemental as we have requested.
    And I would like to look positively at the fiscal year 2004 
budget where we have a request for $3.5 billion in there for 
first responders. And if you aggregate all of these dollars 
together and again look positively at the opportunity to get 
those dollars out the door sometime this year from the fiscal 
year 2004 budget, there is well in excess of $8 billion there, 
Senator.
    Senator Leahy. Half and----
    Secretary Ridge. And that is the----

                   FIRST RESPONDER FUNDING AGGREGATE

    Senator Leahy. Two and a half billion dollars and $3\1/2\ 
billion by--I was never a great math major, but----
    Secretary Ridge. Well, we have----
    Senator Leahy [continuing]. It does not add up to $8 
billion or $9 billion.
    Secretary Ridge. Well, if I recall correctly, Congress gave 
to the States $1.1 billion in your fiscal year 2002 
supplemental, most of it through Secretary Thompson and Health 
and Human Services bioterrorism grants. Secretary Thompson 
administered--distributed 20 percent of those dollars so they 
could plan and prepare and come in with specific ideas as to 
how they were going to expend the balance.
    There is still about $870 million available for 
bioterrorism preparedness under that supplemental. You add some 
of the ODP dollars that are--that some of your colleagues have 
brought to my attention, that some of the States have not 
accessed yet, you are well over $1 billion between those two 
sums.
    You have the fiscal year 2003 budget where you have Office 
for Domestic Preparedness money. You have the fire grant money. 
And you have other dollars in there. That is well in excess of 
$2 billion. So even on the conservative side, you are at $3 
billion.
    If you grant the request that we have asked for first 
responders in the supplemental, it is $2 billion. You are at $5 
billion. And then we have asked for $3.5 billion in fiscal year 
2004. So I am roughly in excess of $8 billion for terrorism 
preparedness and bioterrorism money. And that assumes a lot 
of--that assumes the passage of the supplemental. That assumes 
passage of the fiscal year 2004 budget, or the appropriation of 
those dollars before the end of the fiscal year----
    Senator Leahy. Well----
    Secretary Ridge [continuing]. And one of the challenges, I 
say, to all of us who want to make sure we send them the right 
amount, and we all do.
    Senator Leahy. Well, Mr. Secretary----
    Secretary Ridge. It is not just inputs, but it is outcomes.
    Senator Leahy. It assumes a lot, but I think we could also 
assume the need is there right now.
    Secretary Ridge. Well----

                             GRANT FORMULAS

    Senator Leahy. I mean, the fact is the States and local 
communities certainly in my State, your State, Pennsylvania, 
and Mississippi and West Virginia, and everywhere else, they 
are all being asked to do a great deal. And I just want to make 
sure that we are doing this, if you agree--you know, we put 
into the USA PATRIOT Act--a small State minimum. That says a 
State, whether it is Mississippi, or just take a few, 
Mississippi or Alaska and Hawaii or West Virginia or Vermont or 
New Hampshire, might get the--might be guaranteed a minimum, a 
small State minimum. I assume that that is not a problem with 
the Administration.
    Secretary Ridge. No, it is not, Senator. But I do think as 
we take a look at the enormous sums that we are prepared to 
distribute, it is worth having a discussion between the 
executive branch, the new Department, and the Congress, and see 
if we reach a conclusion that the historic formula that we use 
under the Office for Domestic Preparedness is the best way to 
distribute dollars.
    Clearly, we can expend any amount of money we send to the 
States and the cities. There are plenty of needs, some of them 
terrorism-related, or not, but if we are going to expend 
terrorism dollars----
    Senator Leahy. I just want it for terrorism. I am worried 
about terrorism.
    Secretary Ridge. Yes. I am--I would like to engage both 
chambers in a bipartisan way, and we have talked to some of 
your leaders about it to see whether or not I can convince you, 
as I have concluded, that the formula we have used in the past 
should not be the formula we use in the future, because it does 
not take into consideration some of the special needs that 
certain communities have and certain States have that are 
substantially greater than others.
    Senator Leahy. So your answer----
    Secretary Ridge. And we need to----
    Senator Leahy [continuing]. Is no to----
    Secretary Ridge [continuing]. Look at it.

                          SMALL STATE MINIMUMS

    Senator Leahy. Then your answer is you do not support the 
small State minimum?
    Secretary Ridge. I am--I am sorry, Senator?
    Senator Leahy. Then are you saying that you do not support 
the small State minimum, that----
    Secretary Ridge. Oh, no, I----
    Senator Leahy [continuing]. You are looking for a different 
formula?
    Secretary Ridge. I think it is very important that States, 
large and small, have dollars so they have their training 
academies, that we want them to promote mutual aid agreements. 
And they have to have certain kinds of equipment available for 
them to protect their citizens to start with. So I think you 
start with a notion that there ought to be a baseline for the 
States----
    Senator Leahy. Okay.
    Secretary Ridge [continuing]. And then I think you have to 
recognize that some States have a much larger population and a 
much more complicated mission, international airports, more 
densely populated urban areas, perhaps more ports, not only 
airports but seaports, and perhaps more land borders. All of 
these things need to be taken into consideration in addition to 
perhaps threat information.
    Now, Congress in fiscal year 2003 set aside $100 million 
and said to us, work with the intelligence community and 
distribute this $100 million to high-threat urban areas. And we 
are working with the intelligence community. And the criteria 
you gave us at that time, Senator, was helpful. You said that 
the Office for Domestic Preparedness should take into account 
credible threat, vulnerability, the presence of infrastructure 
of national importance, population and identified needs of the 
jurisdictions' public safety agencies when determining program 
eligibility. So I think we have a baseline to work on in the 
future, as we try to make sure that we expend these dollars in 
a most effective way.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Mr. Secretary, you have been very patient 
with our schedule, and we know that you have a schedule 
requirement too that is of long standing importance.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Tom Ridge
              Questions Submitted by Senator Thad Cochran
    Question. Of the $1.5 billion in supplemental funding proposed for 
grants to state and local preparedness activities, how much is for the 
equipment formula grant program to states, how much for discretionary 
training grants, how much is for training exercise grants?
    Answer. The $1.5 billion for state and local preparedness 
activities would support training, exercises, equipment, and planning 
and technical assistance. The allocation of funds among these purposes 
would vary according to each state's plan rather than be a fixed 
prescribed share that would tie the hands of states and localities.
    Question. What is the demonstrated need for these additional funds? 
For example, what percent of the funds appropriated for fiscal years 
2002 and 2003 for these grants has been obligated to date?
    Answer. The fiscal year 2003 funds have just recently become 
available (due to the timing of the fiscal year 2003 appropriation) and 
we are expecting applications for those funds in the immediate future. 
We are expecting applications for these funds in mid-April and will 
begin providing funds as soon as possible after that.
    All of the funds from the fiscal year 2002 appropriation have been 
distributed to the states. The amount the states have drawn down varies 
from state to state.
    Our consultations with governors and state emergency preparedness 
officials, as well as our analysis of the threat conditions that we are 
operating under in the current situation, persuade us that there is a 
bona fide need for these funds and that the states are poised to 
receive them and act expeditiously in distributing them to their 
localities.
    Question. Is the $450 million for grants to states to enhance 
security at critical infrastructure facilities as part of Operation 
Liberty Shield a new program? Under what authority will these funds be 
provided, both to states and to local governments?
    Answer. These funds would be authorized under Section 430(c) of the 
Homeland Security Act, which provides authority for DHS to make grants 
and would be used to respond to these unique circumstances.
    Question. The budget request indicates that before releasing funds 
at critical infrastructure facilities, the Department of Homeland 
Security will ensure that appropriate security measures are in place 
for critical infrastructure sites. How will this be done?
    Answer. The Department has been working, and will continue to work, 
closely with the governors and their homeland security officials in an 
iterative process to identify critical sites and to design the security 
packages appropriate for the perceived threat, vulnerability, and 
criticality to the nation.
    Question. With respect to the $50 million in additional funding 
proposed for protection or preparedness of major metropolitan areas, 
how will these funds be awarded? At the discretion of the Secretary? 
Only to those urban areas qualifying for the $100 million follow-on 
program to the Nunn-Lugar-Domenici program funded in the Consolidated 
Appropriations Resolution for Fiscal Year 2003?
    Answer. The $50 million proposed for protection of high threat 
urban areas would be awarded by the Secretary based upon an analysis of 
the threat, vulnerability and potential impact upon the nation.
                         counterterrorism fund
    Question. Some might regard the proposed supplemental request for 
the Department of Homeland Security Counterterrorism Fund as a ``slush 
fund'' for the Secretary to use to enhance funding for any Department 
activity without any proper oversight by this Committee and the 
Congress. What is the justification for this request and the basis of 
the $1.5 billion requested?
    Answer. The Department welcomes the oversight of the Congress and 
expects the Congress to have full visibility of the expenditure of 
these funds. We also expect to be held accountable for how the funds 
are used.
    We propose that there be a statutory requirement for us to notify 
the Congress 15 days in advance of any obligation of these funds in 
order to facilitate such oversight and visibility.
    Of the $1.5 billion we are requesting, about $580 million would be 
allocated to the U.S. Coast Guard, whose requirements are largely 
dictated by the Department of Defense in support of specific 
operations. Thus there is a considerable degree of precision in the 
estimates of costs, both in the theater of operations and in CONUS in 
support of military loadout.
    We also believe, however, that many of the circumstances that we 
must be able to respond to in this country with other elements of DHS 
are extremely fluid. Flexibility in the appropriation of the funds is 
necessary to enable us to surge various assets in various locations and 
at various strengths and configurations in response to the security 
threats as they evolve. The threat we face is elusive, clandestine, and 
opportunistic. It is not arrayed like an army on a battlefield in a 
discernible order of battle. It is volatile, unpredictable, and deadly. 
Our response needs to be matched in flexibility and agility.
    Question. What are the current estimated additional costs of 
Operation Liberty Shield to each of the Department's organizations? For 
additional screening of visitors crossing the borders? For more 
secondary inspections of immigrants and visitors at the ports-of-entry? 
For increased inspection of high-risk cargo and goods at ports-of-
entry? For additional flight hours for airspace security, protection of 
federal assets? Increased security between ports-of-entry? For 
mobilization of federal emergency response assets? Etc. Why can't 
account-level estimates of these additional requirements be provided to 
us at this time?
    Answer. Simply put, because we don't know what the enemy is going 
to do. For that reason, as discussed above, flexibility to rapidly 
deploy our assets and to adjust the OPTEMPO of those assets would 
facilitate our ability to respond to emerging threats as they are 
detected. In some conceivable circumstances we might need to increase 
flight hours dramatically, but not necessarily screening of visitors at 
the same rate. Conversely, a particular threat might require a dramatic 
increase in the screening of visitors and cargo at ports-of-entry but 
not more flight hours.
    Listed below are the activities of various DHS components to be 
funded from the request:
    Bureau of Immigration and Customs Enforcement.--Overtime, air and 
marine interdiction, detention and removals, investigations, Federal 
Protective Service, O&M support for air assets.
    Bureau of Customs and Border Patrol.--Overtime, operations costs, 
impact on user fees, logistics.
    TSA.--Overtime for passenger screeners, operations costs, 
logistics, contracts, training.
    FLETC.--Secret Service Security barriers, overtime, new protective 
details, upgrades for protectees, equipment.
    Emergency Preparedness & Response.
    Information Analysis and Infrastructure Protection.
    Coast Guard.
    Question. Is there an estimated cost of the Coast Guard for 
increased protection of military outload in U.S. ports, and protection 
of economically-critical U.S. port as part of Operation Liberty Shield. 
What is the estimated additional funding required by the Coast Guard 
for these purposes? What is the estimated additional funding required 
by the Coast Guard for the activation of over 6,000 reservists and 
forces already deployed or being deployed to the operational theatre?
    Answer. The estimated cost of the Coast Guard's enhanced security 
operations to protect military outloads is $220 million. Among the 
approximately 1,000 USCG personnel involved in theater, there are 
currently four Port Security Units activated and employed. The cost of 
operating these reserve units is $1.3 million per month/per unit. There 
is an additional one-time deployment cost of $3.5 million per unit. 
Additional costs of other personnel and operational units are discussed 
below in further discussion of Coast Guard. Total Coast Guard cost 
estimates for its role in Operation Iraqi Freedom and Operation Liberty 
Shield are $580 million.
                           general questions
    Question. Sustained periods of high terrorism alert are driving the 
need to accelerate state and local counterterrorism preparedness and 
training efforts. How fast can this be done realistically?
    Answer. Circumstances vary dramatically from state to state, and 
within each state. Some localities and states are farther along than 
others. Some have a highly evolved homeland security apparatus, others 
are not so advanced. Our hope is that each state will act expeditiously 
in this regard. Fortunately, our governors and mayors have given us 
clear indication that they are eager to make progress on this and are 
anxious for our support and assistance in increasing their level of 
readiness and preparedness.
    Question. What are the additional costs to states and local 
governments when the threat level is raised from yellow to orange? What 
are the additional costs to the federal government? To each of the 
Department of Homeland Security organizations?
    Answer. Our ability to estimate these costs is still in 
development. In fact, one of our major priorities is to design the 
necessary systems to capture these costs and to model costs. Generally, 
agencies reprioritize their operations in order to support such costs 
and to the extent possible absorb them within existing resources. In 
fact, this supplemental request does not include any cost specifically 
for operations at condition orange, other than for the Coast Guard. 
Rather, these costs are estimates of the resources required for efforts 
under Liberty Shield, and those estimates are shown in a previous 
response.
    Question. Are there any additional unmet Department of Homeland 
Security supplemental funding needs not related to the heightened 
threat of terrorism as a result of the Iraq war which are not addressed 
by this supplemental request? For example, disaster relief, especially 
in light of the additional cost of the Columbia recovery efforts?
    Answer. These estimates cover Liberty Shield efforts in response to 
the increased threat as a result of the Iraq war. We are working with 
the DHS components to evaluate and solve other issues not related to 
the Iraq war.
                             secret service
    Question. What are the costs of the Secret Service's Operation 
Liberty Shield activities?
    Answer. The request is intended to cover the types of activities 
and efforts noted above. It is important to note that the funds 
required would depend on the threat and duration. For this reason the 
President has requested a total of $1.5 billion for the 
Counterterrorism Fund with flexibility in the allocation of those 
funds.
    Question. Does the Secret Service have any other supplemental 
funding needs at this time?
    Answer. Funding provide through the Counter Terrorism fund will be 
used to support costs associated with Operation Liberty Shield. Should 
other requirements emerge, the Department would work closely with the 
Secret Service to determine the most appropriate manner in which to 
address those requirements.
                federal law enforcement training center
    Question. Does the Federal Law Enforcement Training Center have 
additional supplemental funding needs associated with training and 
security requirements?
    Answer. As noted above FLETC is expected to receive additional 
funds under the supplemental request for enhanced training 
requirements.
                       united states coast guard
    Question. What is the total fiscal year 2003 supplemental funding 
request for the Coast Guard? Is this amount adequate to support all of 
the homeland security needs of the Coast Guard at home during this time 
of heightened alert and abroad to the Department of Defense with the 
War in Iraq?
    Answer. The Coast Guard has requested $580 million to cover the 
estimated incremental costs of (1) supporting Coast Guard deployed 
forces to the IRAQI FREEDOM Operational theater in response to the 
Joint Commanders (EUCOM & CENTCOM) mission requirements, (2) providing 
an enhanced security posture for strategic ports of embarkation during 
the combatants' initial sea-lift and throughout the remainder of the 
campaign, and (3) providing an enhanced security posture within several 
of our major economic ports in response to the Department of Homeland 
Security's direction to increase the Coast Guard's security posture to 
Threat Condition ORANGE. The $580 million amount is estimated to be 
sufficient, given current operational planning requirements and threat 
assessments, to cover all necessary fiscal year 2003 costs above the 
Coast Guard's fiscal year 2003 appropriated amount through the end of 
the fiscal year.
    Question. The Coast Guard's only official comment to the Committee 
regarding the supplemental request has been to say that if it receives 
the full supplemental amount being discussed by the Department of 
Homeland Security, then it will have enough money to pay its bills. 
What does that mean? Which bills, and for how long? Does this include 
personnel costs, equipment costs, infrastructure and technology 
upgrades?
    Answer. Based on current threat assessments and operational 
planning requirements for both IRAQI FREEDOM and LIBERTY SHIELD the 
Coast Guard has estimated there will be $580 million of fiscal year 
2003 expenses above the Coast Guard's fiscal year 2003 Appropriation 
for the direct and support costs of its maritime operations. The 
Department of Homeland Security and the Office of Management and Budget 
have agreed to support this funding level for the Coast Guard's fiscal 
year 2003 incremental operational costs. These costs do include special 
pay, reserve pay, personnel support costs and entitlements and the 
incremental mission and operations costs.
    Question. Are there increased costs for personnel and equipment 
associated with the increased threat level, such as when we move from 
yellow/elevated to orange/high and then to red/severe? Are more 
resources required to accomplish the security goals associated with 
each threat level?
    Answer. The Coast Guard's annual Operating Expenses Appropriation 
is sufficient to provide for Threat Condition YELLOW for each fiscal 
year. More resources are required to increase the surge capability of 
Coast Guard forces in order to satisfy the operational requirements for 
Threat Condition ORANGE. Under certain circumstances those resources 
can be made available through internal reprioritization. At other 
times, as with the specific operational requirements of Operation 
Liberty Shield, combined with the Coast Guard's support of Operational 
Iraqi Freedom, additional funds are needed.
    Threat Condition ORANGE can be enacted regionally or within single 
ports.
    Currently there are no significant costs attached to increasing the 
Coast Guard's Threat Condition from ORANGE to RED, because at Threat 
Condition RED only a few additional resources are mobilized for what is 
expected to be a short period of time.
    Question. How many reservists have been called back to active duty 
to assist with the Coast Guard's homeland security initiatives at home 
and abroad? What is the monthly cost associated with each reserve unit?
    Answer. As of 30 March, 2003 approximately 4,000 Coast Guard 
Reservists have been recalled to active duty to perform homeland 
security initiatives at home and abroad. Most reserves do not serve in 
reserve units as is the case with the other military services. However, 
our Port Security Units are reserve units and four have been deployed 
and are serving in the IRAQI FREEDOM operations theater. The estimated 
monthly cost for each Port Security Unit is approximately $1,300,000. 
There is an additional estimated one time cost of approximately 
$3,500,000 for each Port Security Unit for sea-lift, pre-deployment 
training and outfit, and post-deployment recapitalization and repair.
    Question. Of the total fiscal year 2003 supplemental request for 
the Coast Guard, how much funding supports Department of Defense 
activities associated with the War in Iraq?
    Answer. Contained in the Coast Guard's request for $580 million is 
approximately $400 million to provide for the incremental costs for 
Department of Defense operations associated with IRAQI FREEDOM. The 
$400 million includes approximately $220 million for domestic port 
security in military outload ports and approximately $180 million for 
deployment of Coast Guard forces in support of the EUCOM and CENTCOM 
Combatant Commanders.
    Question. What are the monthly operating costs for each of the four 
port security units that have already been deployed overseas?
    Answer. The estimated monthly operating cost for each of the four 
port security units that have already been deployed overseas is 
$1,300,000 per month or $5,200,000 per month for all four deployed port 
security units. Additionally each unit has an estimated $3,500,000 of 
one-time costs in sea lift (in and out of theater) and recapitalization 
and repair for a total of $14,000,000 of one-time costs for all four 
units.
    Question. What are the monthly operating costs for each of the 
eight 110 foot patrol boats that have already been deployed overseas?
    Answer. The estimated monthly operating cost for each of the eight 
110 foot patrol boats already been deployed overseas is $120,000 per 
month or $960,000 per month for all eight deployed patrol boats. 
Additionally, each unit has an estimated $4,600,000 of one-time costs 
for sea lift (in and out of theater), pre-deployment outfit and 
reconstitution and repair for a total of $36,800,000 of one-time costs 
for all four units.
    It is also important to note that two Mobile Support Units also 
deployed, one with each four boat, patrol boat squadron. As patrol 
boats have extreme limitations for onboard spares, the Mobile Support 
Unit provides necessary in-theater logistics and intermediate 
maintenance support. The estimated monthly costs for each Mobile 
Support Unit is $600,000 per month and each Mobile Support Unit has a 
one-time cost of $3,500,000 for sea-lift, pre-deployment outfit and 
post deployment reconstitution.
    Question. What are the monthly operating costs for each of the two 
378 high endurance Coast Guard cutters that have already been deployed 
overseas?
    Answer. The estimated monthly operating cost for each of the two 
378 foot, high endurance Coast Guard cutters that have already been 
deployed overseas is $380,000 per month. Additionally, each unit has an 
estimated $3,700,000 of one-time costs for pre-deployment equipment and 
post-deployment reconstitution and repair.
    Question. It is my understanding that one of the Coast Guard's 
newest and most technologically advanced Buoy Tenders, which has the 
capability to skim oil and lift heavy equipment, is currently operating 
overseas. What is the monthly cost associated with this Buoy Tender?
    Answer. The estimated monthly operating cost for the Coast Guard 
225 foot, ocean-going Buoy Tender, that has already been deployed 
overseas is approximately $300,000 per month. Additionally, this cutter 
has an estimated $2,100,000 of one-time costs for pre-deployment 
equipment and post-deployment reconstitution and repair.
    Question. Does the supplemental request include funding for any 
post-war related costs, such as bringing Coast Guard personnel and 
assets back home, and the general maintenance and repair to restore 
equipment to its pre-war capacity?
    Answer. Included in the Coast Guard's $580 million supplemental 
request is approximately $52 million for both transportation of Coast 
Guard forces to and from theater, and recapitalization and 
reconstitution of equipment to restore to pre-war capacity and 
capability. Recapitalization and reconstitution includes the 
restoration of inventories for deployed support commands, as well as 
hull inspection, repair, and general maintenance overhaul for deployed 
cutters.
    Question. Does the Coast Guard plan to leave any assets overseas as 
part of the President's plan to assist the Iraqi people in rebuilding 
their country and developing a democracy? If so, which assets and what 
would be the responsibility of the Coast Guard regarding those assets 
and the cost incurred by the Coast Guard in support of those assets?
    Answer. The Coast Guard has not received any request from any 
agency thus far, regarding the use of Coast Guard assets in the post-
hostilities period.
    Question. How much of the supplemental funding would be for the 
protections of military outload in U.S. ports?
    Answer. Included in the Coast Guard's $580 million supplemental 
request is approximately $220 million for the protection of military 
outload in U.S. ports. The establishment of this MARSEC II condition in 
these critical ports began in January and will continue as long as 
forces deploy from U.S. ports in support of the Combatant Commanders 
time-phased force deployment plan.
    Question. Of the total fiscal year 2003 supplemental request for 
the Coast Guard, how much funding supports domestic homeland security 
efforts? Please provide a breakdown of the costs associated with each 
initiative.
    Answer. The Coast Guard is providing critical increased homeland 
security efforts through two specific initiatives, military outload 
port security as part of IRAQI FREEDOM, and enhanced strategic economic 
port maritime security as a component of LIBERTY SHIELD. Contained in 
the Coast Guard's supplemental request is approximately $220 million 
for military outload security and $180 million for LIBERTY SHIELD. The 
supplemental request contains funding to meet current LIBERTY SHIELD 
estimates and will be refined as the Secretary and the Commandant 
reassess port security threats.
    Question. Does the supplemental funding request include money for 
any non-homeland security initiatives of the Coast Guard? If so, how 
much funding is for each initiative?
    Answer. The supplemental funding request for the Coast Guard 
includes only those incremental costs associated with the Coast Guard 
support of Operation Iraqi Freedom and Operation Liberty Shield.
                 transportation security administration
    Question. The President's supplemental spending bill assumes $120 
million in additional monies for the Transportation Security 
Administration in part to hire additional screeners and to provide 
additional funding for overtime pay for federal screeners.
    With the statutory cap in place to limit the hiring of screeners 
already exceeded, how do you anticipate hiring additional screeners?
    Answer. TSA has not exceeded the statutory cap. The cap is on full-
time permanent employees only, not all employees. TSA has about 40,000 
full-time permanent employees at this time, and is therefore under the 
statutory cap of 45,000. There is no cap on total screeners. DHS' goal 
is to reduce the number of TSA screeners to 51,000 by the end of the 
fiscal year.
    Question. Do you intend on obligating the carryover of funds from 
previous years for the purchase of more Explosive Detection Systems or 
will the Transportation Security Administration be able to buy 
additional devices with the money provided in the President's 
supplemental spending bill?
    Answer. DHS is reviewing TSA's overall fiscal year 2003 spending 
plan, including funds for all EDS purposes. As soon as a definite plan 
is approved, DHS will share it with the Congress.
                  emergency preparedness and response
    Question. What is the total fiscal year 2003 supplemental funding 
request for the Emergency Preparedness and Response Directorate? Of 
this total, how much funding is for operating expenses, personnel 
costs, equipment and technology upgrades, etc.?
    Answer. The estimate for EP&R is approximately $15 million. These 
funds would be used for such activities as standing up 6 US&R teams in 
a readiness mode for immediate response to terrorist incident 
throughout the country; maintaining national medical response teams on 
alert status; placing disaster medical response teams on alert status; 
placing EP&R EST and regional operations centers on ``watch'' status; 
supporting COOP activities, if needed; and providing some secure 
communications capabilities.
    Question. Is this amount sufficient to meet the needs of Emergency 
Preparedness and Response?
    Answer. This estimate supports Liberty Shield-related efforts for a 
limited duration. Should additional efforts be required, the 
President's request provides for the resources and flexibility to 
permit funds to support extended efforts in this area as well as 
others.
    Question. Does the supplemental funding request include money for 
any non-homeland security initiatives? If so, how much funding is for 
each initiative?
    Answer. All of the funds being requested in the Counterterrorism 
Fund are for homeland security initiatives. The request of $580 million 
for Coast Guard would provide approximately $400 million for OCONUS and 
in CONUS operational support of DOD efforts in support of Operation 
Iraqi Freedom. An additional $180 million would support requirements in 
CONUS and are in support of Liberty Shield.
    Question. The Federal Emergency Management Agency (FEMA) was put in 
charge of the shuttle Columbia recovery effort, and has spent 
approximately $178 million to date. However, as the mission to recover 
debris continues, so does the spending. Does the supplemental funding 
request include money to reimburse FEMA for any portion of the expenses 
incurred as a result of this extraordinary event? If not, why not?
    Answer. This supplemental request is limited to war-related 
requirements and thus contains funding for Liberty Shield only. The 
Administration is actively engaged in the process of assessing the 
resource requirements and determining appropriate funding mechanisms 
related to the shuttle disaster.
                                 ______
                                 
           Question Submitted by Senator Kay Bailey Hutchison
    Question. As you know, our ports have worked to ramp up security 
measures. Many of the ports in my home state of Texas are in the 
petrochemical and hazardous material shipping business, which could be 
a terrorist target. How do the funds requested address the need for 
increased security investments in America's Ports?
    Answer. The supplemental funds requested include money required for 
increased Coast Guard security activities in and around critical ports 
like those along the Coast of Texas for the duration of Operation 
Liberty Shield. The $450 million included in the request to assist 
states and municipalities in protecting critical infrastructure is 
available for port facilities. Funds for Port Security Assessments and 
enhanced protection of critical infrastructure, like port facilities, 
are included in the President's fiscal year 2004 Budget request.
    Question. Perhaps the most visible change in homeland security 
since 9/11 has taken place in our airports. In the fiscal year 2003 
Omnibus Appropriations bill, we designated $265 million for the 
installation of Explosive Detection Systems (EDS) to screen every 
checked bag. Our largest airports have not yet installed EDS, and they 
have only until the end of the year to do so, yet TSA has refused to 
sign any letters of intent with airports to release any part of the EDS 
funding.
    Is there funding in this Supplemental to install EDS systems and 
when will TSA start using the funds we have already appropriated?
    Answer. While the Supplemental does not include additional funds 
for EDS, DHS is working to develop a process that will expedite the 
application of funds already appropriated to support EDS installations.
    Question. How much funding will TSA need to complete the job of 
installing EDS at all of the commercial airports in the country?
    Answer. Funding provided in previous appropriations acts will 
ensure that EDS will be installed in all airports. It is estimated that 
$3 billion to $4 billion will be necessary to support the purchase and 
installation of EDS/ETD. In those airports where an in-line EDS 
installation is desired additional resources may be needed on the part 
of both the airport and the federal government.
    Question. Is there sufficient funding in this Supplemental, coupled 
with funds already appropriated for this purpose, to cover the expenses 
mandated by Congress for EDS systems?
    Answer. While the Supplemental does not include additional funds 
for EDS, DHS is working to develop a process that will expedite the 
application of funds already appropriated to support EDS installation.
    Question. When will TSA begin signing Letters of Intent with our 
airports that will permit them to finance their part of EDS expenses?
    Answer. DHS is working to determine the use of LOI authority in 
fiscal year 2003. No decisions have been made at this time.
    Question. We have a clear priority to protect our food supply and 
vital agricultural economies. One protective measure is to develop 
methods for rapid detection and identification of plant and animal 
disease, so we could quarantine an incident before a devastating 
outbreak occurs. Does the funding requested address agricultural 
bioterrorism? If so, will that funding help strengthen America's 
research and development capacity with institutes of higher education 
that have a demonstrated expertise in animal and plant disease 
research?
    Answer. The President's Request contains funds to enhance security 
at land, air, and sea ports of entry against all introduced threats. 
This includes supplemental operational funds for the Bureau of Customs 
and Border Protection where all Agricultural Quality Inspectors now 
serve. There is an additional $365 million included in the President's 
fiscal year 2004 DHS Budget for research on countering biological 
threats, including high volume contamination of food supplies.
                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd
                            vulnerabilities
    Question. As this committee tries to determine how best to meet 
this threat, it would be very useful to have your assessment of the ten 
vulnerabilities that you are most concerned about. If you could provide 
us a conceptual response today and a classified response in writing 
before mark up next week, it would be most helpful.
    Answer. While there is not a list of ten vulnerabilities of ``most 
concern'' there is some planning guidance that has helped DHS to focus 
priorities for protective measures in the first few weeks of 
operations. The guidance is not all-inclusive and will certainly change 
as the threat environment, business processes and technologies, and 
public health and safety issues change.
    1. Terrorist use of infrastructures to propagate an attack:
  --Food processing centers and distribution systems
  --Water supplies that are vulnerable to contamination
  --Piping systems delivering petroleum products
  --Confined spaces such as rail and air transportation systems that 
        could be used to spread contamination or illness.
    2. Infrastructures that would magnify the effect of a terrorist 
attack by causing significant loss of life:
  --Chemical facilities in close proximity to large populations
  --Nuclear Power Plants and nuclear fuel storage facilities
  --Large dams
  --Liquid Natural Gas storage facilities.
    3. Infrastructures that could magnify the effect of a terrorist 
attack by causing catastrophic economic damage:
  --Electric and telecommunications systems
  --Transportation Systems
  --Data storage and processing facilities and major financial centers
  --Major petroleum handling facilities such as pipelines, ports, 
        refineries and terminals.
    While the categories listed above are general in nature they 
provide the basis for further analysis that takes into account 
consequences of attack, the threat and the ability to recover from an 
attack. The resultant risk analysis provides the specific facilities or 
sectors of concern at any given time and it is the risk analysis that 
will be used to prioritize specific protective recommendations and 
measures. The risk analysis will change depending on the threat.
                                 ______
                                 
                Question Submitted by Senator Tom Harkin
    Question. I am very concerned that the supplemental request is 
insufficient in homeland defense.
    I am concerned that the Department is not integrating our need to 
fight terrorism and to have that capability, where possible, 
effectively available for natural disasters as well. It took a long 
time. But, FEMA became a very effective organization over the past 10 
years. We need to maintain those capabilities.
    On 9/11, terrorists took aircraft and used them as bombs. What else 
might they use as bombs such as chemical plants? What else might they 
do that kills Americans and damages our economy--brittle points like 
major rail bridges and key electricity nodes?
    The Department has, I understand, called upon the states to protect 
about 250 very critical asset protection points in our nation but I am 
told that the funding for that protection is not adequate. Iowa alone 
has identified about a 1,000 highly rated key assets in our state with 
2 being on that national list.
    First: Have enough nationally designated very critical asset 
protection points that our governors have been asked to protect been 
designated? To what extent is the number of sites set based on the cost 
to the Federal Government? Frankly, I am surprised that so few points 
have been designated.
    Answer. In preparation for hostilities against Iraq, the Department 
of Homeland Security made contact with state and territorial governors 
and homeland security advisors and asked them to assess critical 
infrastructures and key assets within their jurisdictions that met the 
following criteria:
  --Public water systems serving large population centers
  --Chemical facilities in close proximity to large population centers
  --Major power generation facilities that exceed 20,000 MW and if 
        successfully attacked could disrupt the regional electric grid
  --Hydroelectric facilities and dams that produce power in excess of 
        2,000 MW or could result in catastrophic loss of life if 
        breached
  --Nuclear power plants
  --Electric substations 500 KV or larger, and substations of 345 KV or 
        larger that are part of a critical system supporting 
        populations in excess of one million people
  --Rail and highway bridges over major waterways that, if destroyed, 
        would cause catastrophic economic loss
  --Major highway tunnels under waterways that, if attacked, would 
        cause catastrophic loss of life or catastrophic economic loss
  --Major natural gas transmission pipelines in excess of 3,000 bcf 
        throughput
  --Natural gas and liquid natural gas storage facilities
  --Major petroleum handling facilities such as ports, refineries and 
        terminals
  --Major transit subway systems and their supporting ventilation 
        systems
  --Primary data storage and processing facilities, major stock 
        exchanges and major banking centers.
    Governors/state homeland security advisors were provided with 
examples of facilities/systems within each of their states that met 
these criteria from a federal perspective. These references were 
intended as examples only, and were not meant to represent a 
comprehensive or exhaustive ``list'' of potentially critical targets 
within their jurisdictions. This discussion is consistent with the 
Department's responsibility to coordinate with states and localities, 
and does not imply that the entire cost of site protection can or 
should be federalized. Many of these sites, such as nuclear plants, are 
already incorporated into existing preparedness and protection plans.
    Homeland security advisors were asked to assess the requirement for 
enhanced protection for facilities/systems meeting the above criteria 
within their jurisdictions during the period of armed hostilities with 
Iraq. The Supplemental request included $450 million in state grants 
for this purpose, of which localities would receive at least one-third. 
Specific security plans and protective measures will be left to the 
discretion of governors/state homeland security advisors. DHS will 
ensure that these plans are adequate before awarding supplemental 
funds.
    Question. Second, are we developing solid plans in conjunction with 
local authorities to best protect broader categories of sites such as 
the 1,000 high asset points Iowa has identified and what should the 
responsibility of the federal government be to bear the costs involved 
in protecting the broader category of sites?
    Answer. The federal government is assisting states and localities 
in protecting sites because of the unique requirements of Liberty 
Shield. Out of necessity, Federal assistance must be prioritized to 
secure those facilities that best fit the criteria above. Our 
simultaneous efforts to enhance state and local terrorism preparedness 
programs represent a longer term commitment. The equipment, training, 
and planning resources provided by the Office for Domestic Preparedness 
will be tied to state and local plans for protecting both people and 
property from terrorism.
    Question. Third, what is the full cost for the protection of the 
approximately 250 very critical asset protection points that governors 
have been asked to protect.
    Answer. The Administration requests $450 million to assist with the 
protection of critical infrastructure assets. We are working together 
with the governors to identify the sites that would be funded. A 
variety of risk analysis criteria would be used in selecting such sites 
and would include such factors as terrorist use of infrastructures to 
propagate an attack, infrastructures that would magnify the effect of a 
terrorist attack by causing significant loss of life, infrastructures 
that could magnify the effect of a terrorist attack by causing 
catastrophic economic damage. It is important to note that these 
criteria are not all-inclusive and that the analysis would change 
depending upon the threat. Given these uncertainties, the total cost is 
unknown at this point, but the Supplemental amount will provide a 
significant boost to the state and local resources currently available.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
   inadequacy of $1.5 billion request for dhs counterterrorism fund--
               congressional earmarks for other purposes
    Question. Secretary Ridge, your supplemental request includes $1.5 
billion that you want appropriated in a lump sum for the enhanced 
operating costs of agencies like the Transportation Security 
Administration, the Coast Guard, the Border Patrol, the Customs Service 
and several other agencies. With all respect, I believe that you have 
asked for this money in a lump sum to hide the fact that the combined 
supplemental needs of these agencies greatly exceed $1.5 billion.
    I have heard rumors indicating that you have not requested adequate 
supplemental funds for the Transportation Security Administration 
because you plan instead to ignore Congressional directives and divert 
funds away from security initiatives that the Congress funded without 
any request from the Administration. These initiatives include funds to 
better secure our ports, funds to reimburse airlines for security 
costs, and funds to modify airports. My suspicions are heightened 
because you have not yet spent hundreds of millions of dollars in these 
areas that were granted to you in 2002.
    For example, in the area of container security, the TSA received 
$28 million for Operation Safe Commerce in 2002 and another $30 million 
in 2003. To date, you have not spent a penny of this money. This is an 
initiative I authored to enable the TSA to ensure the security of the 
six million containers that enter our ports each year by monitoring 
their movement from the time they are loaded to the time they are 
unloaded.
    Can you assure me that you intend to spend the entire $58 million 
that has been appropriated to date for Operation Safe Commerce and you 
do not intend to divert this funding to other uses?
    Answer. DHS is reviewing its overall fiscal year 2003 spending 
plan, including funds for Operation Safe Commerce. As soon as a 
definite plan is approved, DHS will share it with the Congress. We will 
also provide a schedule for awarding any grants.
    Question. The TSA promised me that the 2002 funds for Operation 
Safe Commerce would finally be spent by the end of February. Now, they 
are telling me that we will be lucky if this money is spent by June. 
There are only three port areas eligible to receive these funds.
    What explains this delay in getting these funds out the door?
    Answer. Due to the fact that Transportation Security Administration 
was operating under a continuing resolution from October to February 
and was severely constrained in the amount of funding it could commit 
to new projects while executing aviation mandates, the Request for 
Application for Operation Safe Commerce Cooperative Agreement Program 
was delayed by several months.
    Question. What is your new target date for making grants for the 
funds you have received in 2002?
    The additional $30 million that was appropriated for fiscal year 
2003 for Operation Safe Commerce is required to be distributed subject 
to the same terms and conditions as the funds provided for 2002. Given 
that fact, how much longer will it take you to expend the funding 
provided for fiscal year 2003? What is your target date to make grants 
for the 2003 funds?
    Answer. The application closing date for Operation Safe Commerce 
was March 20, 2003. Representatives from the Border and Transportation 
Security Directorate including TSA, as well as the U.S. Coast Guard, 
and the Departments of Transportation and Commerce are evaluating the 
applications. Evaluation and selection estimated to be completed by 
early May with award announcement following contract negotiations and 
congressional notification estimated for early July.
    Question. How do you respond to the assertion that has been made by 
some observers that you plan to ignore Congressional mandates included 
in the fiscal year 2002 Supplemental and fiscal year 2003 Omnibus 
Appropriations Bills and not actually spend funds that were provided 
specifically for port security grants, airport modifications and other 
Congressional priorities?
    Answer. We are continuing to work to finalize the budget execution 
plans for use of available fiscal year 2003 appropriated funds. The 
Department's plan will ensure that funds are expended in accordance 
with language contained in the appropriations bills.
   details of the $1.5 billion request for the counterterrorism fund
    Question. In your verbal testimony, you stated that your request 
for the Coast Guard totals $580 million. You also stated that your 
request for the Transportation Security Administration totals $100 
million. While recognizing that you have requested flexibility to move 
funding between such activities, please provide a detailed accounting 
for the full $1.5 billion requested for the Counterterrorism Fund. 
Please provide this detailed accounting utilizing the accounts and sub-
accounts under which these activities are customarily appropriated. 
Please also provide a detailed explanation of the purposes that you 
envision for each of these requests.
    Answer. Listed below are the various DHS components and activities 
to be funded from the request:
    Bureau of Immigration and Customs Enforcement.--Overtime, air and 
marine interdiction, detention and removals, investigations, Federal 
Protective Service, O&M support for air assets.
    Bureau of Customs and Border Protection.--Overtime, operations 
costs, impact on user fees, logistics.
    TSA.--Overtime for passenger screeners, operations costs, 
logistics, contracts, training.
    FLETC
    Secret Service.--Security barriers, overtime, new protective 
details, upgrades for protectees, equipment.
    Emergency Preparedness & Response.
    Information Analysis and Infrastructure Protection.
    Coast Guard.
       24-hour manifest rule--lack of action by canada or mexico
    Question. Secretary Ridge, I want to raise another Port Security 
issue. There seems to be a policy emerging in the Administration that 
not only grants the terrorists a huge loophole to disrupt our commerce, 
but also threatens to take jobs away from American workers and send 
them to Canada and Mexico. Your Bureau of Customs and Border Protection 
has begun implementing a rule requiring shippers at foreign ports to 
report their cargo manifest 24-hours before they leave for the United 
States.
    While this requirement is important in your effort to get more 
information about what is coming into the United States, the Canadian 
and Mexican governments have not implemented a similar rule.
    As a consequence, pennywise shippers have begun to use Canadian 
ports to evade the rule by shipping goods to Canada, and then using 
rail to bring them into the United States. Meanwhile, the Customs 
Service is not subjecting those containers that come over from Canada 
with any additional scrutiny.
    I have spoken with Robert Bonner about this important issue.
    Is the Bush Administration doing anything to try to close this 
security loophole and keep these port jobs in the United States?
    At a minimum, if the Canadian and Mexican governments don't pass a 
similar 24-hour rule, shouldn't the Customs service begin inspecting 
these containers coming over the border more rigorously since so little 
is known about their contents?
    Have you heard anything to the effect that the Canadians are now 
prepared to implement a rule similar to the 24-hour rule we have in the 
United States? If so, when do you expect them to implement it?
    Answer. The Bureau of Customs and Border Protection continues to 
discuss with the CCRA their potential adoption of a similar 24-Hour 
Cargo rule. We believe that it is quite likely that they will adopt 
such a rule in the near future. In addition, BCBP is monitoring the 
volume of sea containers moving into ports such as Seattle and Tacoma, 
and is targeting containers in-transit to the United States through 
Vancouver, Montreal, and Halifax. Through these measures, BCBP can 
ensure that any containers that are routed to avoid the 24 hour rule 
receive appropriate scrutiny.
    BCBP has not had any discussion with Mexican Customs about 
implementing the 24-hour cargo rule, but BCBP will begin monitoring 
volumes of sea containers arriving in Los Angeles/Long beach, as well 
as those crossing the Mexican border to determine if there is any 
diversion of cargo.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                       coast guard fuel shortages
    Question. Mr. Secretary, in the President's submission, the 
Department of Defense is asking for $400 million to cover increased 
fuel costs for the military. However, there is no corresponding request 
for your department. This is an oversight that has happened under both 
administrations in my view. Given the operations tempo of the Coast 
Guard and Customs Service at this time, do they not also have a 
considerable challenge in meeting increased fuel costs. Can you give us 
an estimate of what they might be?
    Answer. The supplemental includes funds for additional gas and oil 
costs with respect to the Air and Marine Interdiction. In addition, 
money is requested for increased vehicle maintenance and fuel costs for 
the Border Patrol. The additional operating funds requested for the 
Coast Guard include the cost of additional fuel expenditures.
                        first responder funding
    Question. Mr. Secretary, the President's submission includes an 
additional $2 billion for ODP grants. Can you tell me how many requests 
you have from states for these monies? How many requests the ODP 
received last year, and any anticipated shortfalls from 2003 funding?
    Answer. With respect to the requested $2 billion supplemental, no 
formal requests have been received although requests from all eligible 
states and territories are expected once these funds become available. 
All 56 eligible states and territories submitted requests for available 
fiscal year 2002 grants. The $2 billion supplemental and the $566.3 
million made available through the fiscal year 2003 Omnibus 
appropriations together will address state and local first responder 
requirements. The application period for these funds was opened on 7 
march and will close in mid-April.
                          district of columbia
    Question. Mr. Secretary, given that the D.C. Metropolitan 
government is solely responsible for security of mass transit, and a 
number of other vital infrastructures here in Washington, why is it 
that the President's submission includes nothing to cover what most 
analysts have identified as the number 1 target city in the country?
    Answer. Recent appropriations have already provided substantial 
support for various aspects of security within the Washington 
metropolitan area:
  --The District of Columbia is expected to apply for and receive 
        funding from the enacted fiscal year 2003 ODP appropriation.
  --The fiscal year 2002 Emergency Response Supplemental Appropriation 
        provided $200 million for the District of Columbia, including:
    --$86 million for Security of District-area mass transit and vital 
            infrastructures:
      --L$26 million for increased security at District buildings and 
            public schools
      --$21 million for improvements in emergency traffic management
      --$39 million for increased security measures within the 
            Washington Metropolitan Transit Area Authority subway and 
            bus system
    --$114 million for first responder and regional coordination needs:
      --L$64 million for first responder equipment and training
      --$45 million for first responder land-line and wireless 
            communication system
      --$5 million for regional emergency planning and coordination.
  --In addition, the Administration released $6 million to reimburse 
        the city for immediate response activities and $10 million to 
        WMATA to support increased security for the Washington public 
        transportation system from the fiscal year 2002 emergency 
        supplemental.
  --The District of Columbia fiscal year 2002 Annual Appropriation 
        included $13 million to develop and implement an emergency 
        response plan, as well as support emergency response spending.
  --The Administration proposed, and Congress appropriated, $15 million 
        for the public safety fund in the fiscal year 2003 omnibus 
        appropriation.
  --If the supplemental request is enacted the Office for Domestic 
        Preparedness will be providing additional funds in fiscal year 
        2003, some of which would also be available for D.C.
                         counter terrorism fund
    Question. Mr. Secretary, the President has requested the creation 
of two contingency funds for counter terrorism in this bill. One for 
the Department of Justice, one for the Department of Homeland Security. 
The descriptions of both funds are extremely vague. Can you describe 
any meaningful distinction between what your fund might be used for, 
versus what the Attorney General needs a contingency fund for? 
Secondly, if you are able to estimate how much you need for 
contingencies, why is this amount not included in the President's 
ordinary budget submission?
    Answer. We work closely with the Department of Justice who 
continues to be a close partner in our efforts to make America safer. 
We would however defer to the Department of Justice for explanation of 
the planned uses for the DOJ contingency fund. However, with respect to 
the Department of Homeland Security, the request for funding in one 
account to reimburse our DHS components, as needed, provides the 
Department with the best tool to meet these changing situations.
    For the DHS components other than the Coast Guard, we have 
estimated potential costs associated with Liberty Shield and the war in 
Iraq. As our estimates are being constantly refined and we will keep 
the Committee updated. The Coast Guard estimates are more directly tied 
to support of the Defense requirements and therefore are more precise 
in the funding need.
    This funding is intended to cover costs associated with Operation 
Iraqi Freedom and Operation Liberty Shield which were initiated after 
the fiscal year 2004 Budget was developed. It would respond to 
immediate requirements associated with those operations.
                       unfunded requirements list
    Question. Mr. Secretary, the Department of Defense, at the request 
of this committee, and the authorizing committees has developed 
something called an unfunded requirements list. This is a document that 
identifies items which are recognized ``requirements'' of the DOD, but 
for one reason or another, were not funded in the President's budget. 
Is the Department of Homeland Security creating such a list, and if 
not, will you, Mr. Secretary work with this committee to establish such 
a practice?
    Answer. The Department does not have an unfunded requirements list. 
We have no plans to formulate such a list, but, in coordination with 
the Administration, will explore with the Committee issues in this 
area.
                                 ______
                                 
             Questions Submitted to Hon. Donald H. Rumsfeld
          Questions Submitted by Senator Kay Bailey Hutchison
    Question. I am proud of our servicemen and women who are serving 
with distinction in Operation Iraqi Freedom, and want to ensure the 
Department of Defense has what it needs to swiftly win this war. As the 
Chairman of the Subcommittee for Military Construction appropriation, I 
have a special interest in the $200 million request for military 
construction funds, and ask the Department of Defense to provide an 
overall plan for military construction projects in the Middle East.
    Answer. We are requesting $5 billion for military construction in 
the fiscal year 2004 request and $18 million for Baharain in SWA. Since 
9/11 we have requested $128.6 million in military construction in the 
CENTCOM Area of Responsibility (AOR) and $63.1 million Defense 
Emergency Response Funds (DERF) for military construction in the 
CENTCOM AOR. We will brief the House and Senate on the CENTCOM AOR when 
you want the brief.
    Question. Do the funds requested to cover personnel pay--and more 
specifically imminent danger pay--consider a percentage increase in the 
imminent danger pay for our men and women serving abroad?
    Answer. No. The funds requested in the supplemental are based on 
current authorities governing Hostile Fire Pay (HFP)/Imminent Danger 
Pay (IDP). Current law allows $150 per month for personnel serving in a 
qualifying region for HFP/IDP, who would not have otherwise been in 
that region. The estimated incremental cost for HFP/IDP at current pay 
rates for potential military operations to disarm Iraq is $370 million.
    Question. Is the Defense Department continuing its transformation 
during Operations Iraqi Freedom and Enduring Freedom, and if so, how 
does this budget request support transformation?
    Answer. Yes, the Department is continuing with undiminished vigor 
its transformation of the U.S. military and defense establishment. This 
transformation will greatly enhance our ability to carry out operations 
such as these in the future. The Department's transformation efforts 
are not undermined by military operations in Iraq and the global war on 
terrorism. Our leadership can accomplish multiple missions at once. 
Moreover, many of the DOD professionals most heavily involved in 
transformation do not have a direct or extensive role in these two 
operations.
    This fiscal year 2003 supplemental appropriations request supports 
transformation because it finances the incremental costs of these 
operations. Without full and prompt approval of the supplemental, some 
funding from transformation investments might need to be diverted to 
pay those costs.
    Question. Mr. Secretary, you have requested $25 million in Air 
Force military construction funds to build a parallel taxiway at a 
classified location. I'm told that project is already under 
construction using Operations and Maintenance funds.
    Is this project already under construction, and if so, how was it 
paid for?
    Answer. The Air Force is using O&M funds and it is 5 percent 
complete. The Air Force made an error and will de-obligate the O&M 
funds and obligate the military construction funds.
    Question. If it is already under construction, why are you seeking 
appropriations for it in this supplemental?
    Answer. We have told the Air Force they erred and must de-obligate 
the O&M funds. When the Air Force de-obligates the O&M funds, we 
require the military construction funds to execute the project.
    Question. We're also told that there is no longer a requirement for 
the C-130 aircraft parking apron at a classified location, for which 
you have requested $11 million. Can you clarify whether that 
requirement is still valid?
    Answer. While the facility does not meet the definition of a 
military construction project, i.e. we do not have a basing agreement 
with that country and therefore, do not have operational control of the 
base. However, we will use the facility indefinitely. Since we will use 
the facility indefinitely, the project is categorized as a military 
construction project.
    With regard to the requirement, the existing C-130 aircraft parking 
apron is close to the perimeter of the airfield. As such, the C-130 
aircraft is subject to terrorism. By moving the C-130 aircraft parking 
apron away from the perimeter, we can protect the planes. Therefore, I 
believe we need this facility.
                                 ______
                                 
              Question Submitted by Senator Sam Brownback
                     iraqi national congress (inc)
    Question. Although authorized by Congress, the State Department has 
yet to fully find the Iraqi National Congress (INC) to turn on TV 
Liberty. This means that a critical direct communication link from 
opposition Iraqis to the Iraqi people, is not operational even now that 
we are at war. The delay has been going on over several years--always 
blamed on technicalities.
    The INC now has a military liaison with them in Northern Iraq. It 
is my understanding that his liaison is recommending that the 
Department of Defense provide mobile communication units to enable the 
Iraqi opposition to link their information into CENTCOM as well as talk 
with the Iraqi people inside Baghdad. This seems like a very logical 
approach. Will you support this request and are you exploring other 
means to support the INC?
    Answer. We are working with the INC and other elements of the Iraqi 
Opposition to help achieve our shared goals in Iraq. We are evaluating 
several options for using U.S. equipment to leverage the Opposition's 
communications and public outreach capabilities. We are also exploring 
other means to maximize the Opposition's effectiveness against the 
Iraqi regime.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Under a proposed general provision, subsection (2), up to 
$150,000,000 would be made available for assistance to indigenous 
forces assisting U.S. military operations or activities relating to the 
global war on terrorism. These funds are proposed to be disbursed at 
the discretion of the Secretary of Defense, with concurrence of the 
Secretary of State.
    Please define the term, indigenous forces.
    Answer. ``Indigenous forces'' are irregular forces or resistance 
movements that act in concert with U.S. military forces during military 
operations and are indigenous to a particular region. These forces 
might conduct military and para-military operations in enemy held or 
hostile territory, as well as low-visibility operations that support 
the efforts of the U.S. military.
    Question. What groups, today, would be eligible for assistance 
under the proposed definition?
    Answer. The provision would apply to indigenous forces that assist 
U.S. forces in carrying out operations or activities, including those 
in furtherance of the war on terrorism.
    We faced some unexpected challenges when working with the Northern 
Alliance in Afghanistan. This type of flexible authority would have 
been particularly helpful in supporting military operations with 
emerging and unanticipated requirements for the war on terrorism.
    The provision would allow the DOD to sustain friendly indigenous 
forces through timely and flexible military assistance.
    Question. What is the justification for quarterly reporting on the 
use of these funds, which are available until September 30, 2003?
    Answer. The provision would allow the Department to provide support 
to foreign indigenous forces rapidly in order to address any emerging 
and unanticipated emergency requirements that the current security 
environment may generate.
    To provide this temporary and emergency authority in a manner 
consistent with other U.S. assistance programs, quarterly reporting 
would be most efficient.
    Question. Would notification within fifteen days of obligation be 
acceptable to the Department? If no, why?
    Answer. The intent is to provide a flexible and immediate mechanism 
for the Department of Defense, in consult with the Department of State, 
to facilitate and support immediate U.S. military operations. The 
desire is not to create an overly burdensome reporting requirement for 
those in theater that might need to exercise this authority.
    To ensure proper accounting and use of this authority, quarterly 
reporting should be sufficient. This distinct authority is designated 
to support foreign indigenous forces in response to emerging and 
unanticipated requirements that arise with increased frequency in the 
current wartime security environment.
    Question. The President has requested $1,400,000,000 in ``no year'' 
fiscal year 2003 supplemental funding for Operations & Maintenance, 
Defense Wide to be used, irrespective of any law, for payments to 
cooperating nations. Under the proposal, there is no obligation to 
consult with or notify the Congress of how or when the funds are 
disbursed. The receipts of these funds would be decided, under the 
proposal, at the discretion of the Secretary of Defense, with the 
concurrence of the Secretary of State and in consultation with the 
Director of the Office of Management and Budget.
    What is the justification for requesting ``no year'' funds, when 
the Secretary testified that cooperating nations have been waiting 
months for reimbursement?
    Answer. There are two primary reasons for requesting ``no year'' 
funds.
    (1) While a portion ($530 million) of the $1.4 billion has been 
used to reimburse countries for services already provided, the 
remainder of the requested funds are for services we expect key 
cooperating countries to provide in the coming months.
    (2) We review each reimbursement request using a careful set of 
processes developed by the Administration. This review process 
typically requires three-to-four weeks to complete.
    We anticipate situations in which cooperating nations present 
requests for reimbursement to the U.S. government late in the fiscal 
year or even after the end of the year, and we will not have sufficient 
time to validate those bills before the end of the fiscal year prior to 
reimbursement.
    No later than 30 days after the end of each fiscal quarter, the 
Secretary of Defense will submit a quarterly report to the Defense 
Oversight Committees of the details of any payments to cooperating 
nations.
    Question. How was the $1.4 billion figure determined?
    Answer. The $1.4 billion was determined based on known and 
anticipated support from key cooperating nations (e.g., Pakistan, 
Jordan) providing logistical and military support to U.S. military 
operations in Afghanistan and Iraq in connection with the global war on 
terrorism. This request includes $1.3 billion for payments to coalition 
countries participating in or providing military, logistical, or other 
support for military operations in Afghanistan and $0.1 billion for 
military operations in Iraq.
    Specifically, the $1.4 billion is comprised of:

                        [In billions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
Reimbursements to Pakistan.................................        1.16
Reimbursements to other nations............................        0.14
Funds to transport and sustain other nations...............        0.10
                                                            ------------
      Total................................................        1.40
------------------------------------------------------------------------

    The Department paid $530.154 million to the Government of Pakistan 
from the Department's fiscal year 2003 O&M accounts. These payments 
covered reimbursable costs through December 2002. (The payment was made 
in early March using the Acquisition and Cross Servicing Agreement 
between the United States and Pakistan.) The anticipated Pakistani 
reimbursable costs for the balance of fiscal year 2003 total $630 
million (i.e., 9 months (January through September); average monthly 
cost is approximately $70 million).
    We anticipate aggregate payments totaling $140 million to Jordan, 
Bahrain, Oman, Yemen, Djibouti, Turkey, and Uzbekistan for services and 
support from those countries.
    The Supplemental request also includes $100 million to finance the 
movement and sustainment of coalition partners who are assisting U.S. 
military forces by providing Nuclear, Biological and Chemical/
Consequence Management assets. These U.S. resources will be used for 
coalition partners that have volunteered support to the Armed Forces of 
the United States in connection with military action in Iraq, but need 
U.S. funding for their transportation and sustainment once in the 
theater.
    Question. If the request is granted, will the Department notify the 
Committees of the funds obligation? If so, in what timeframe and what 
level of detail?
    Answer. No later than 30 days after the end of each fiscal quarter, 
the Secretary of Defense will submit a quarterly report to the Defense 
Oversight Committees of the details of any transfer of funds from the 
Defense Emergency Response Fund (DERF) to the DOD's normal 
appropriation accounts for execution. The report will include execution 
data by appropriation and cost category.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                    military assistance from allies
    Question. Mr. Secretary, the President's submission calls for $1.4 
million assistance to our allies, largely for operations in 
Afghanistan. Can you help contrast the sort of on-the-ground support 
that we are receiving from our allies in Afghanistan with the support 
received in Iraq? Are there countries that would have ground troops in 
Iraq, but for the fact that they are stretched to provide assistance in 
Afghanistan and Bosnia? Are you working to find more support in these 
operations to relieve U.S. troops for operations in Iraq?
    Answer. When discussing our coalitions for Operation Enduring 
Freedom or Operation Iraqi Freedom, the Department of Defense has been 
guided by three principles: (1) We let all countries describe their 
participation as they see fit; (2) We do not identify a particular 
country's contributions; that is for the contributor itself to do; and 
(3) We do not grade our coalition partner's contributions.
    With those three principles in mind, the United States has received 
strong, across the board, political and military support from its 
coalition partners for each operation. Seventy countries are a part of 
the Operation Enduring Freedom coalition. Today nearly 50 countries 
make up the Operation Iraqi Freedom coalition and that number grows 
every day. In each instance the contributions cut across all elements 
of military forces--naval, ground, air, special operations, 
intelligence-sharing, etc.
    The United States is now beginning to work intensively with allies 
to determine troop contributions to Phase IV stabilization operations 
in Iraq. We are unaware of any countries with troops deployed in 
Afghanistan or Bosnia that have raised the demands of these deployments 
as a reason that they could not provide ground troops in Iraq. We are 
not seeking Coalition support in Afghanistan in order to relieve U.S. 
troops for operations in Iraq. Coalition support for our operations in 
both countries remains an important goal. We remain committed to 
maintaining an adequate U.S. military force to accomplish our missions 
in Afghanistan and in other contingencies in the war on terrorism, 
including Iraq. The one is compatible with the other. Success in 
Afghanistan will assist our efforts in Iraq. We expect Coalition 
partners will be particularly valuable as we expand our Provincial 
Reconstruction Teams in Afghanistan.
    With regard to U.S. participation in the NATO-led Stabilization 
Force (SFOR) in Bosnia, the National Guard now has the mission, thereby 
freeing up active component troops for other purposes. To date, CENTCOM 
and EUCOM have not identified an Iraq-related requirement that would 
necessitate use of any of our reserve component troops in Bosnia.
                                colombia
    Question. Mr. Secretary, the President's request seeks another $68 
million--$34 million for the Department of Defense--to increase the 
quote ``operational tempo'' of our activities in Colombia. (1) Can you 
explain why we would willingly seek to increase our activity in 
Colombia with our commitments in Iraq, Afghanistan, the Philippines, 
and looming crises in Iran and North Korea? (2) How many Special Forces 
Units do we have deployed to Southern Command as a result of Plan 
Colombia? (3) What are the expected results from additional operational 
tempo in this area?
    Answer. (1) We must increase assistance to Colombia in order to 
support Bogota's efforts against narcoterrorists and as part of the 
Global War on Terrorism. We seek to provide a surge of training and 
equipment to Colombian military and police forces. The United States 
will remain in a supporting role.
    Colombia is waging its own war, by destroying or weakening the 
narco-terrorist organizations, illegal armed groups, and narcotics 
trafficking organizations' ability to undermine Colombia's democracy 
and national security. The Government of Colombia urgently needs U.S. 
support to improve its counternarcoterrorism capabilities. With the 
momentum provided by the election of President Uribe, there may be a 
short window of opportunity to significantly impact narcoterrorist 
organizations operating in Colombia.
    Currently, the greatest threat comes from the Revolutionary Armed 
Forces of Colombia (FARC), which has become more aggressive in 
targeting both Colombian and U.S. interests. Within the last year, the 
FARC attempted a mortar barrage during the presidential inauguration, 
bombed a club in Bogota, and killed a U.S. contractor. The FARC still 
holds captive three other U.S. contractors.
    (2) There are Special Forces personnel deployed to Southern Command 
in support of Plan Colombia. While the exact numbers and locations are 
classified, the deployed Special Forces personnel represent elements of 
the following units: 7th Special Forces Group, 1st Psychological 
Operations Battalion, 350th Civil Affairs Command, and Navy Special 
Warfare Unit Four.
    (3) By providing more training and equipment, we are assisting 
Colombia with the essential ingredients necessary to improve Colombia's 
capabilities to regain control and assert legitimate authority over its 
territory, establish the rule of law throughout the country, and defeat 
narco-terrorist organizations, other illegal armed groups, and 
narcotics trafficking organizations. Success here is necessary for 
Colombia to reduce the flow of illegal drugs to the United States.
    We cannot stand by while one of the oldest democracies in Latin 
America--only three hours flying time from Miami--succumbs to an 
insurgency fueled by illegal drug profits. Therefore, we are committed 
to helping Colombia in its fight against narcoterrorism by providing 
robust assistance, as outlined in National Security Presidential 
Directive/NSPD-18. Even with this assistance, it remains Colombia's 
fight and the Colombians themselves must maintain the lead in the 
struggle.
                           oil fire fighting
    Question. Mr. Secretary, you have requested nearly a half of 
billion to fight fires and repair damaged oil facilities in Iraq. Given 
a relative few numbers of wells are actually burning, where does this 
cost estimate come from? Can you contrast this figure with what was 
spent to contain fires in Kuwait during the first Gulf War? Why does 
this require an immediate appropriation? Why will fire fighting not 
come from oil once Iraq is liberated?
    Answer. There are about 1,500 oil wells in Iraq, spread among 
approximately 22 oil fields. There is no way to predict accurately the 
level of damage to Iraq's oil infrastructure, nor the impact of any 
such damage on the average Iraqi household. We hope that this conflict 
does not result in the large number of oil well fires that Saddam's 
forces set during the 1990-91 Gulf War.
    The Administration's request is comprised of two parts: (1) a 
precise amount for prepositioning firefighting equipment in the theater 
($39.3 million), and (2) an additional $450 million to be available for 
either fighting fires and repairing damaged fuel distribution 
infrastructure, or ensuring that the Iraqi people have adequate 
supplies of fuel for cooking, heating, and other household 
requirements.
    Iraq's oil belongs to the Iraqi people. The international 
community, working with the people of Iraq, will determine the best use 
of oil revenues and the appropriate time to apply those resources to 
specific sectors.
                              buy american
    Question. Mr. Secretary, there is $48 million for MILCON at 
Guantanamo Bay, and $129 million for runway work at Diego Garcia in 
this request. I am concerned by reports that I have heard that while 
contracting from construction like that at Guantanamo Bay is given to 
U.S. companies, the actual manufacturing work is done abroad. What 
assurances can you give this committee that future work will not only 
be American contracted, but will contain American content?
    Answer. We intend to follow the Buy American Act to the maximum 
extent practicable. In Guantanamo Bay, the following requirement will 
be in the final construction task orders: ``Materials and workmanship 
shall conform to applicable U.S. codes and standards. You are required 
to use U.S. materials to the maximum extent possible. Any exceptions 
must be approved by the Contracting Officer.''
    Similar provisions exist in Diego Garcia, where the work is 
required to be performed by joint ventures between United States and 
British companies. However, of the $129.4 million requested for Air 
Force military construction, there is only $3.2 million for an 
explosive ordinance pad at Diego Garcia. The remainder of the $129.4 
million is for Air Force projects at other locations. Classified 
details on the other projects have been provided to the congressional 
staff. All contracts will follow the Buy American Act to the maximum 
extent possible.
                     guard and reserve procurement
    Question. Mr. Secretary, the President's request includes $1.1 
billion for procurement and RDT&E with virtually no detail or 
indication of what we might be buying. Can you clarify your intentions 
for these dollars. How much of this one billion will be slated to 
support the procurement and transformational needs of the Guard and 
Reserve?
    Answer. All of the $1.1 billion of procurement and research and 
development funding included in the supplemental request will go to the 
direct support of the increased operational tempo of military 
operations in Iraq. None of the funding is slated for the procurement 
and transformational needs of either the Guard and Reserve nor the 
Active Component. The President's fiscal year 2004 budget request now 
before the Congress includes $1.9 billion specifically earmarked for 
Guard and Reserve modernization.
    A more detailed listing of the $1.1 billion in the supplemental 
request is as follows:
Procurement
    In addition to the munitions request of $3,700.0 million, the 
supplemental request includes $992.6 million for the procurement items 
listed below.
            Combat Losses--$57.0 million
    Additional funds are required to replace 10 lost Predators and 
support equipment that must be available for future military 
operations.
            Classified Programs--$27.0 million
    Additional funds are required for classified programs. Classified 
details can be provided separately.
                Special Access Programs--$17.1 million
                Satcom Terminals--$6.6 million
    This effort funds a classified CENTCOM requirement. It includes the 
procurement of such things as modems, converters, support, and 
accelerated delivery.
                Centrix-Griffin Eqpt.--$2.0 million
    This effort funds the procurement of computer network equipment.
                SIPR & NIPRNET--$1.3 million
    This effort funds the procurement of equipment to allow deployed 
teams to transmit data, video, and photos from the field to other 
CENTCOM facilities.
            Combat Support Equipment--$26.1 million
    Additional funds are required to procure and field mission 
essential equipment for combat forces including laser pointer systems 
for weapons, advanced gun sights, and mobility and lethality equipment.
            Spare and Repair Parts--$148.8 million
    Additional funds are required to accommodate a greater demand for 
spares and repair parts resulting from increased operations.
            Command and Control Requirements--$11.7 million
    Additional funds are required for command and control equipment to 
conduct Phase IV planning (occupation phase) or for a conflict. Funding 
is also required to support the Commander, Third Fleet setting up 
station ashore when his command ship is deployed to support global war 
on terrorism operations.
            Weapons Systems Enhancements--$94.6 million
    Funds are required to procure: permanent interior and external 
Night Vision Imaging Systems (NVIS); laser targeting devices for 
Special Operations Forces; and weapons and ammunition for Special 
Operations Forces (SOF).
            Communications and Sensor Equipment--$62.5 million
    Additional funds are required to procure Advanced Remote Ground 
Unattended Sensors (ARGUS) and the associated ground station, to 
support around-the-clock combat operations for the Distributed Common 
Ground System (DCGS) rather than peacetime operating tempo; to install 
a new trunk-based repeater system at Incirlik Air Force Base that 
allows more land-mobile radios to function on the network; to provide 
improved Intelligence, Surveillance, Reconnaissance (ISR) capability at 
the alternative air operations center in theater; to procure equipment 
and crypto devices necessary to provide increased bandwidth to Global 
Broadcast System (GBS) receive suites; to upgrade the satellite 
communication facility at Al Udeid Air Base, Qatar; to procure one 
backup mobile satellite reception and broadcasting system; and to 
provide forces searching for weapons of mass destruction with critical 
real-time ``reach-back'' voice/data/imagery transmission capabilities. 
Further, funds are also required to procure deployable Tactical Local 
Area Network (TACLAN) suites to satisfy the requirement for reliable, 
accessible, and secure Command, Control, Communications, and Computers 
(C\4\I) in an austere environment; and to procure equipment for the 
Information Decision Management (IDM) Replication of Information 
Management Center (IMC).
            Logistics Support--$135.6 million
    Additional funds are required for Base Expeditionary Airfield 
Resources to support beddown of deployed forces where infrastructure is 
inadequate (Harvest Falcon and Harvest Eagle), including collapsible 
fuel bladders, cargo pallets, and nets. Further, funds are also 
required for movement of newly procured items to first point of 
storage/usage.
            Phrase Translators--$1.0 million
    Additional funds are to procure devices to automatically translate 
key phrases in multiple foreign languages. These devices could be used 
to support Special Operations forces in Iraq.
            Critical Psychological Operation (PSYOP) Requirements--
                    $14.9 million
    Additional funds are required to procure Command, Control, 
Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C\4\ISR) equipment that will be fielded to provide 
joint PSYOP Task Force Commanders access to denied areas. The PSYOP 
provides the vehicle to send the coalition messages to the people of 
Iraq and Iraqi military forces, to encourage their cooperation, and to 
dissuade Iraq military personnel from armed resistance to coalition 
forces. This includes dropping leaflets, radio broadcasts, and other 
contacts with sympathetic groups within Iraq to present the coalition 
message.
            Joint Operational Stocks (JOS)--$17.3 million
    Additional funds are required to cover attrition rates for Special 
Operation Forces weapon, night vision and optic, and communications 
systems.
            Biological Agent Detection--$5.7 million
    Increased funding will procure seven biological detectors to 
provide the capability to cover one additional forward based 
installation with a biological detection capability.
            Collective Protection--$5.9 million
    This funding would be used to procure collective protection 
shelters for deployed forces.
            Decontamination--$49.6 million
    Additional funding is required to procure equipment essential for 
decontamination efforts. Funds include procurement of commercial off-
the-shelf decontamination apparatus for fixed site and large area 
terrain decontamination, and a commercial decontaminant foam to address 
inventory shortfalls.
            Skin Exposure Reduction Paste--$5.3 million
    Additional funds are required to procure units of the skin exposure 
reduction paste against chemical warfare agents.
            Individual Protection--$213.0 million
    Additional funding is required to increase the personal protection 
of U.S forces from chemical and biological threats by procuring 
protective suits.
            Chemical Agent Detection--$2.1 million
    Increased resources will be used to procure additional Mobile 
Chemical Agent Detectors for use by forces performing the mission of 
determining whether weapons of mass destruction are present.
            Surface Sampler Probe--$1.4 million
    Additional funding is required to procure equipment that will 
enable forces to determine the presence of hazardous materials, 
chemical, or biological agents.
            White House Communications--$105.7 million
    The Department will use the funds to accelerate deployment of 
converged fixed and deployable networks, and implementation of next-
generation communications systems to modernize the current 
deteriorating equipment before operational failure. The funding will 
purchase the following capabilities:
    Fixed Transport--i.e., Wide Area Network (WAN) ($3 million) and 
fixed converged network ($12 million).
    Fixed Voice Services--i.e., Royal Crown Secure Voice Modernization 
($33 million), Secure Digital Switch Modernization ($3 million), and 
Washington Area Systems (WAS) ($14.85 million).
    Fixed Operations--i.e., Technical Control Facility ($5 million).
    Mobile Communications Systems--i.e., Mobile Command and Control 
(C\2\) Package ($10.85 million) and Limousine Communications Package 
($4 million).
    Mobile Information Services--i.e., Secure Mobile Phone ($4 
million), Independent Cellular System ($4 million), and Trip Site 
Convergence Network ($3 million).
    VC-25 Presidential Data Systems--($9 million)--i.e., provides a 
record management system, an automatic switching capability, and 
provides a capability to monitor the audio system for the President.
            Homeland Air Security--$7.4 million
    Additional funding is required for procurement of command, control, 
and communications equipment for use in the United States to improve 
the DOD response time to an emergency situation. This funding will 
upgrade existing equipment to enable quicker response time to alerts 
issued by the Federal Aviation Administration (FAA). Hardware to be 
procured includes communications terminals, dedicated computer systems, 
and radar operator stations.
Research, Development, Test and Evaluation
    This supplemental request includes $57.6 million for various 
research, development, test and evaluation (RDT&E) requirements, such 
as improving targeting capabilities, testing chemical biological 
efforts, and supporting classified programs.
            Classified Programs--$30.2 million
    Additional funds are required for classified programs.
      Hairy Buffalo--Enhanced targeting effort--$0.6 million
      Defense Satellite Reconnaissance Program--$5.8 million
      Oil Analysis--$0.3 million
      Special Access Programs--$23.5 million
            Personnel Support Teams--$2.4 million
    Funds are required to allow Personnel Support Teams (PST) to 
provide analysis, interrogations, and technical assistance to local 
host military personnel. Each of the eight PST will provide technical 
and administrative assistance within a regional geographic 
jurisdiction, and serve as the principal link between U.S. military 
forces and local regional government officials. In addition, the PST 
will facilitate the exchange of information in the region with regards 
to military and political developments. The funds will finance the 
development of software tools to facilitate this mission, and 
employment of local hires and contractor personnel who are fluent in 
Farsi.
            Force Protection Condition Delta--$0.4 million
    Additional funds are required to maintain a higher Force Protection 
Condition (FPCON) at Navy RDT&E facilities worldwide.
            Global Broadcast System--$0.3 million
    Additional funds are required to increase bandwidth capacity on the 
global broadcast system.
            Decontamination--$5.0 million
    This funding supports the rapid operational testing of non-
developmental commercial off-the-shelf decontamination apparatus for 
fixed site and large area terrain decontamination.
            Chemical Agent Detection--$4.8 million
    Increased resources will be used to quickly modify and test 
modifications to the currently fielded chemical agent detection 
equipment to identify Fourth Generation Agents.
            Radio Frequency Identification Technology (RFID)--$3.9 
                    million
    The funds will be used to develop RFID as a means to identify, 
categorize, and locate logistical material (e.g., sustainment and 
deploying force cargo) automatically.
            Weapons of Mass Destruction Release Assess System--$10.6 
                    million
    Additional funds are required for the modification of unmanned 
aerial vehicles to assist in the detection and identification of 
weapons of mass destruction.

                         CONCLUSION OF HEARING

    Senator Cochran. So, with no other Senators here, if it is 
satisfactory with the committee, we will stand in recess. And 
we appreciate your cooperation with the Appropriations 
Committee. We continue to wish you good luck in carrying out 
your duties and your important responsibilities.
    Secretary Ridge. Thank you, Senator. Senators, thank you 
very much.
    Senator Cochran. We stand in recess.
    [Whereupon, at 4:20 p.m., Thursday, March 27, the hearing 
was concluded, and the committee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
